<html>
<title> - CHILDHOOD OBESITY: THE DECLINING HEALTH OF AMERICA'S NEXT GENERATION--PART II</title>
<body><pre>[Senate Hearing 110-447]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-447

 CHILDHOOD OBESITY: THE DECLINING HEALTH OF AMERICA'S NEXT GENERATION--
                                PART II

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON CHILDREN AND FAMILIES

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   ON

   EXAMINING CHILDHOOD OBESITY, FOCUSING ON THE DECLINING HEALTH OF 
      AMERICA'S NEXT GENERATION NATIONAL PROBLEM, SOUTHERN CRISIS

                               __________

                             JULY 23, 2008

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                                 senate



                  U.S. GOVERNMENT PRINTING OFFICE
43-820 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

               EDWARD M. KENNEDY, Massachusetts, Chairman

CHRISTOPHER J. DODD, Connecticut     MICHAEL B. ENZI, Wyoming
TOM HARKIN, Iowa                     JUDD GREGG, New Hampshire
BARBARA A. MIKULSKI, Maryland        LAMAR ALEXANDER, Tennessee
JEFF BINGAMAN, New Mexico            RICHARD BURR, North Carolina
PATTY MURRAY, Washington             JOHNNY ISAKSON, Georgia
JACK REED, Rhode Island              LISA MURKOWSKI, Alaska
HILLARY RODHAM CLINTON, New York     ORRIN G. HATCH, Utah
BARACK OBAMA, Illinois               PAT ROBERTS, Kansas
BERNARD SANDERS (I), Vermont         WAYNE ALLARD, Colorado
SHERROD BROWN, Ohio                  TOM COBURN, M.D., Oklahoma

           J. Michael Myers, Staff Director and Chief Counsel
                 Ilyse Schuman, Minority Staff Director

                                 ______

                 Subcommittee on Children and Families

               CHRISTOPHER J. DODD, Connecticut, Chairman

JEFF BINGAMAN, New Mexico            LAMAR, ALEXANDER, Tennessee
PATTY MURRAY, Washington             JUDD GREGG, New Hampshire
JACK REED, Rhode Island              LISA MURKOWSKI, Alaska
HILLARY RODHAM CLINTON, New York     ORRIN G. HATCH, Utah
BARACK OBAMA, Illinois               PAT ROBERTS, Kansas
BERNARD SANDERS (I), Vermont         WAYNE ALLARD, Colorado
EDWARD M. KENNEDY, Massachusetts     MICHAEL B. ENZI, Wyoming (ex 
(ex officio)                         officio)

                   MaryEllen McGuire, Staff Director
                David P. Cleary, Minority Staff Director

                                  (ii)





                            C O N T E N T S

                               __________

                               STATEMENTS

                        WEDNESDAY, JULY 23, 2008

                                                                   Page
Dodd, Hon. Christopher J., Chairman, Subcommittee on Children and 
  Families, opening statement....................................     1
    Prepared statement...........................................     3
Bingaman, Hon. Jeff, a U.S. Senator from the State of New Mexico, 
  statement......................................................     5
Thompson, Joseph, M.D., MPH, Surgeon General, State of Arkansas; 
  Director, Arkansas Center for Health Improvement, Little Rock, 
  AR.............................................................     7
    Prepared statement...........................................     9
Miller, Jonathan, Healthplace participant representative, 
  University of Michigan, Regional Alliance for Healthy Schools 
  (RAHS), Ypsilanti, MI..........................................    15
    Prepared statement...........................................    17
Dwyer, Philip J., President and CEO, Central Connecticut Coast 
  YMCA, New Haven, CT............................................    18
    Prepared statement...........................................    20
Neely, Susan K., President and CEO, American Beverage 
  Association, Washington, DC....................................    35
    Prepared statement...........................................    36
Murkowski, Hon. Lisa, a U.S. Senator from the State of Alaska....    45

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Mikulski, Hon. Barbara A., a U.S. Senator from the State of 
      Maryland, prepared statement...............................    69
    Alexander, Hon, Lamar, a U.S. Senator from the State of 
      Tennessee..................................................    69
    van Helden, Bethany, MS, RD, University of Michigan, Regional 
      Alliance for Healthy Schools (RAHS), prepared statement....    70
    American Psychological Association (APA), prepared statement.    71
    National Assembly on School-based Health Care (NASHBC), 
      prepared statement.........................................    72
    Joseph W. Thompson, M.D., MPH, letter........................    73

                                 (iii)

  

 
                           CHILDHOOD OBESITY:
                   THE DECLINING HEALTH OF AMERICA'S
                        NEXT GENERATION--PART II

                              ----------                              


                        WEDNESDAY, JULY 23, 2008

                                       U.S. Senate,
Subcommittee on Children and Families Committee on Health, 
                            Education, Labor, and Pensions,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:33 p.m. in 
Room SD-430, Dirksen Senate Office Building, Hon. Christopher 
Dodd, chairman of the subcommittee, presiding.
    Present: Senators Dodd, Bingaman, and Murkowski.

                   Opening Statement of Senator Dodd

    Senator Dodd. The committee will come to order.
    Let me apologize to our witnesses and guests who were here. 
We are a couple of minutes late in starting, but we are 
delighted that you are all here. I am particularly grateful to 
our witnesses for making the effort to be a part of this 
important discussion and debate, and I want to welcome my 
constituent, Mr. Dwyer. It's nice to have you here with us, as 
well as our other guests.
    Let me take a couple of minutes and share some opening 
thoughts with you. Then I will turn to Senator Bingaman for any 
opening comments he may have. My friend and colleague from 
Tennessee, the Ranking Republican member of this committee, 
Senator Lamar Alexander, will be joining us at some point. I 
know Senator Harkin, who has been a leader along with Senator 
Bingaman on this issue of the medical emergency of obesity, 
will also be joining us at some point. I know his plans are, 
anyway, to be with us.
    I thank all of the audience. We have a very packed crowd 
again. Last week, we had the first hearing on this issue, and 
we had a packed audience as well that came to be a part of it, 
and we will see how things go.
    A week ago, we did something a little different that I 
hadn't done in 27 years. I turned to the audience after we 
heard the panel and got the audience involved. A lot of you 
bring unique background and experience, and if you hang around 
long enough, we may ask you to be involved and share some 
thoughts and ideas you have as well. I have never done that 
before, Jeff. It was an interesting----
    Senator Bingaman. Pretty dangerous.
    Senator Dodd. Pretty dangerous stuff, I know, we are doing.
    Well, thank you all for being here. First, let me welcome 
my colleagues and distinguished witnesses and thank them for 
their presence to discuss what is now being recognized as a 
medical emergency, the childhood obesity epidemic.
    Last week, we began our series of hearings on this urgent 
problem, and we heard from experts who have concluded that our 
children's generation may be the very first generation in 
American history to live shorter, less healthy lives than their 
parents. We heard some very startling facts as part of that 
hearing.
    Nearly a third of our Nation's children are obese or at 
risk of becoming obese. That is roughly 25 million of our 
younger Americans, with those in minority families and poor 
families at even a greater risk than other parts of the 
population.
    We heard about the dramatic increase in children diagnosed 
with diseases that had previously only been seen in adults, 
such as type 2 diabetes, high blood pressure, and high 
cholesterol. We heard some of the reasons behind the epidemic 
as well--the prevalence of junk food and soda in our schools 
and advertised on our televisions, which is a big reason why we 
consume more calories per day than ever before in our history.
    We discussed how Americans are less active and how the 
environment in which our children are growing up has made it 
increasingly difficult for children to be physically active. 
They don't walk to school because we don't build safe paths. 
Even when they are at school, only 8 percent, only 8 percent of 
middle schools require daily physical activity.
    The sad truth is that when it comes to physical activity, 
it is much easier for children to play video games at home than 
a game of hide-and-seek outside with their friends.
    So, it is time to call this what it is, a medical 
emergency. We are not talking about a few children who eat too 
many sweets and don't exercise. We are talking about an entire 
Nation that needs help getting back on the right track, and it 
starts with our children.
    It starts with making sure the public understands just how 
much of a threat this obesity epidemic poses to all of us, 
whether we have children or not. That is why in the past week, 
my wife, Jackie, and I have been visiting schools, camps, and 
hospitals in our home State of Connecticut to raise the 
visibility of this problem and help highlight the efforts 
underway to solve it.
    We have both been talking about a new report that says a 
mere $10 per person per year in proven community-based programs 
could save the country more than $16 billion annually within 5 
years. We should be supporting those efforts, all of us should.
    The Institute of Medicine released a report in 2005 that 
laid out recommendations and action plans for all sectors of 
our society from government to healthcare professionals to 
schools and families. Yet despite the efforts of some States to 
get tougher nutritional standards for school lunches and more 
rigid physical activity for students, the institute also found 
``substantial underinvestment of resources to adequately 
address the scope of the obesity crisis.'' That is a quote.
    Others have highlighted how jumbled and disorganized 
Federal standards are. As Senator Tom Harkin of Iowa has 
pointed out, USDA regulations allow children to buy donuts and 
Snickers bars at their school, but not breath mints or cough 
drops. It makes no sense at all, and he is right.
    In any emergency, you need an effective, coordinated 
response. That is why I am proud to announce today that on 
behalf of Senator Harkin, Senator Jeff Bingaman, who is here 
with us, and myself, we are introducing the Federal Obesity 
Prevention Act, which will marshal the resources and manpower 
of the Federal Government to tackle the obesity problem head 
on.
    Our piece of legislation creates a Federal interagency task 
force to review what the Federal Government is already doing, 
coordinate its efforts, and establish a Government-wide 
strategy for preventing and reducing obesity. In the near 
future, we will be working with Senator Bingaman on other 
complementary legislation.
    Childhood obesity is a medical emergency of hurricane-like 
proportions. We know the storm is coming. We know how strong it 
is going to be. We know the havoc it is going to wreak on our 
families, our society, and our healthcare system, which is 
already strained to the breaking point. It is time we used the 
tools to fight it. What is missing is the political will and 
leadership to take that fight on.
    I am delighted to be joining my friends, Senator Harkin and 
Senator Bingaman, who have championed these issues for many, 
many years to do just that. I also want to thank the Ranking 
Member, Senator Alexander, who has also been very concerned 
about these issues.
    I also want to take a moment to recognize my staff 
director, by the way, on this subcommittee. Is she here? There 
you are, right behind me. Hiding behind me. MaryEllen McGuire. 
For many years, she has helped make this subcommittee work, and 
this is the last hearing that she will be with us.
    I couldn't let this moment pass without saying a huge thank 
you to MaryEllen McGuire. We wish you the very best. And if 
they are not nice to you, you come right back home to us, here, 
from wherever you are heading off to. But thank you, MaryEllen, 
for everything you have done.
    With that, let me turn to my colleague from New Mexico, 
Senator Bingaman, for any opening comments he has, and then we 
will introduce our witnesses and get on with the hearing.
    [The prepared statement of Senator Dodd follows:]

                   Prepared Statement of Senator Dodd

    Thank you all for coming. First, allow me to welcome my 
colleagues and our distinguished witnesses, and thank them for 
being here today to discuss what is now being recognized as a 
medical emergency--the childhood obesity epidemic.
    Last week, we began our series of hearings on this urgent 
problem, and we heard from experts who have concluded our 
children's generation may be the first in the modern era to 
live shorter, less healthy lives than their parents. We heard 
some startling facts. Nearly a third of our Nation's children 
are obese or at risk of becoming obese--that's 25 million 
children, with those in minority families and poor families at 
an even greater risk. We heard about the dramatic increase in 
children diagnosed with diseases that were previously only seen 
in adults, such as type 2 diabetes, high blood pressure and 
high cholesterol. We heard some of the reasons behind the 
epidemic--the prevalence of junk food and soda in our schools 
and on our televisions, which is a big reason why we consume 
more calories per day than ever before. We discussed how 
Americans are less active, and how the environment in which our 
children are growing up has made it increasingly difficult for 
children to be physically active. They can't walk to school 
because we don't build safe paths. And even when they're at 
school, only 8 percent of middle schools require daily physical 
activity. The sad truth is that when it comes to physical 
activity, it's much easier for kids to play video games at home 
than a game of hide and seek outside with their friends.
    And so, it is time to call this what it is--a medical 
emergency. We are not talking about a few kids that eat too 
many sweets and don't exercise. We are talking about an entire 
nation that needs help getting back on the right track. And it 
starts with our children. It starts with making sure the public 
understands just how much of a threat this obesity epidemic 
poses to all of us, whether we have children or not. That is 
why in the past week, my wife Jackie and I have been visiting 
schools, camps and hospitals throughout Connecticut to raise 
the visibility of this problem and help highlight efforts 
underway to solve it. We have both been talking about a new 
report that says $10 per person per year in proven community-
based programs could save the country more than $16 billion 
annually within 5 years. We should be supporting these efforts.
    The Institute of Medicine released a report in 2005 that 
laid out recommendations and action plans for all sectors of 
our society--from government to health care professionals to 
schools and families. Yet despite the efforts of some States to 
set tougher nutritional standards for school lunches and more 
rigid physical activity for students, the Institute also found 
``substantial underinvestment of resources to adequately 
address the scope of the obesity crisis.'' Others have 
highlighted how jumbled and disorganized Federal standards 
are--as Senator Harkin has pointed out, USDA regulations allow 
children to buy doughnuts and Snickers bars at their school but 
not breath mints or cough drops. It makes no sense at all. In 
any emergency, you need an effective, coordinated response.
    That is why I am proud to announce today on behalf of 
Senators Harkin, Bingaman and myself that we are introducing 
the ``Federal Obesity Prevention Act'' that will marshal the 
resources and manpower of the Federal Government to tackle the 
obesity problem head on. Our bill will create a Federal 
interagency task force to review what the Federal Government is 
already doing, coordinate its efforts, and establish a 
government-wide strategy for preventing and reducing obesity. 
In the near future we'll be working with Senator Bingaman on 
other complimentary legislation.
    Childhood Obesity is a medical emergency of hurricane-like 
proportions. We know this storm is coming--we know how strong 
it is going to be. And we know the havoc it is going to wreak--
on our families, our society and on our healthcare system, 
which is already strained to the breaking point. It's time we 
use the tools to fight it. What's missing is the political will 
and leadership to take that fight on. And so, I am delighted to 
be joining my friends Senator Harkin and Senator Bingaman who 
have championed these issues for many years, to do just that. I 
also want to thank the Ranking Member of the subcommittee, 
Senator Alexander, who also has a very real concern about these 
issues. And with that, I would like to turn this over to my 
colleague for his opening statement.
    Senator Dodd. Senator Bingaman

                     Statement of Senator Bingaman

    Senator Bingaman. Senator Dodd, thank you for your 
leadership on this very important issue.
    There are an awful lot of issues competing for attention 
around the Congress at all times, and there are just a limited 
number of days and hours and hearings that can be held. The 
fact that you have devoted two hearings in the last week or so 
to this subject is a real sign of commitment on your part; as 
is the legislation that you referred to and are introducing 
today. I am honored to join you as a co-sponsor.
    The issue is a real one, and I see it all around my State 
and hear about it from educators, from healthcare 
professionals, and from parents. It is a serious problem that 
we need to address. We are not doing right by the young people 
in this country by leaving the issue unattended.
    I very much appreciate what you are trying to do, and I 
would just point out something that is fairly obvious, I am 
sure, to you and to most people, and that is that the problem 
afflicts particular segments of our population more than 
others. In my State, we have a large Native-American 
population. The percentage of Native-American high school 
students who are overweight or obese is substantially higher 
than in the rest of our State.
    This is a result of a variety of factors, some of which you 
referred to, but this hearing, as I understand it, is to focus 
on solutions.
    Senator Dodd. Right.
    Senator Bingaman. That is exactly why I came, to try to 
hear from our experts about what they think we can do.
    So, thank you.
    Senator Dodd. Thank you, Senator, very, very much.
    Let me take a couple of minutes to introduce our witnesses 
and thank them again for being with us.
    Dr. Joseph Thompson has many titles that speaks volumes 
about your expertise and your background. Dr. Thompson has 
served as the first-ever surgeon general of the State of 
Arkansas. He has had that post for the last 3 years, I believe. 
He is also director of the Robert Wood Johnson Foundation 
Center to Prevent Childhood Obesity and director of the 
Arkansas Center for Health Improvement.
    He is an associate professor of pediatrics in the College 
of Medicine and Public Health at the University of Arkansas for 
Medical Sciences. Board-certified in both pediatrics and 
preventive medicine, Dr. Thompson practices as a hospital 
generalist at the Arkansas Children's Hospital in Little Rock.
    Doctor, we thank you very, very much for being with us.
    Jonathan Miller, we are delighted you are here. You are a 
brave and courageous soul to come before a congressional 
committee, but we are very honored by your willingness to do 
this. I want to extend our thanks to you, for sharing your 
personal story with us. It takes a lot of courage to come into 
a public setting and share a personal story.
    But it is a very successful one and a courageous one, and 
so we hope you will offer a lot of inspiration to others out 
there who wonder at how hard it is to do this and whether or 
not it can be done at all. So we thank you very, very much for 
being with us.
    Jonathan participated in a nutrition and physical activity 
program offered by a school-based health center at his high 
school, and this program helped him to be successful at losing 
weight and adopting a far healthier lifestyle. I congratulate 
you on your tremendous success. Again, thanks for coming 
forward.
    Jonathan is from--am I going to pronounce this right?--
Ypsilanti? Ypsilanti, MI, and is now in college. We thank you 
again.
    Phil Dwyer is from my home State of Connecticut, and one of 
my favorite uncles was Phil Dwyer. So not this Phil Dwyer, but 
a Phil Dwyer from Mansfield, CT.
    Anyway, I am pleased to welcome Phil Dwyer, who is 
president and CEO of the Central Connecticut Coast YMCA, which 
is helping people in 25 Connecticut communities to live 
healthier lives. He has been with the YMCA for 39 years, where 
he has overseen many cross-cutting initiatives that support 
children and families.
    Currently, he serves as the vice chairman of the 
Connecticut State Alliance Public Policy Committee, supporting 
public policy efforts to improve health and well-being of young 
people in our home State. He is a graduate of Springfield 
College and has a master's in government from Lehigh 
University. We thank you for your years of service to a 
wonderful, wonderful organization.
    Susan Neely is with us as well. She is the president and 
CEO of the American Beverage Association, the trade association 
representing the nonalcoholic beverage industry. Previously, 
Ms. Neely was the Assistant Secretary for Public Affairs at the 
U.S. Department of Homeland Security.
    She has also served as an executive of the Association of 
American Medical Colleges and the Health Insurance Association 
of America and holds a B.A. degree from Iowa University and 
from Drake.
    I spent a little bit of time at Iowa University and Drake 
over the last year or so. We are interested in hearing about 
the work that you are doing, and we thank you as well, Susan, 
for joining us today.
    What I would like to ask you to do, if you would, is each 
take 5 to 7 minutes. Let me inform all of you, as I will say to 
my other committee members, that any opening statements, 
comments, additional material that you think would be helpful 
for the committee to have will be included as part of the 
record.
    So even if you don't get through all you wanted to share 
with us, your full statements and any documentation you think 
would be relevant we will include as part of the record. That 
goes for members as well.
    Dr. Thompson, we will begin with you, if we can, and then 
go right down the line as you have been introduced. So, again, 
thank you all for being with us.

STATEMENT OF JOSEPH THOMPSON, M.D., MPH, SURGEON GENERAL, STATE 
                OF ARKANSAS; DIRECTOR, ARKANSAS 
         CENTER FOR HEALTH IMPROVEMENT, LITTLE ROCK, AR

    Dr. Thompson. Thank you, Senator Dodd.
    I want to thank Chairman Dodd, Senator Bingaman, the staff, 
and the audience for being here, and I want to lend my voice to 
your warning siren of what portends on the horizon. I am here, 
in addition to being the surgeon general and the leading health 
advisor to now Governor Beebe--former Republican Governor 
Huckabee used my advice on occasion also. I am here, most 
importantly, as a pediatrician and a father of a 16-year-old 
girl and a 13-year-old boy, and what is on the horizon is not a 
pretty picture.
    We have not intentionally drawn the lot that we have. There 
is no malice. There is no intent of any organization, any 
governmental entity, any family, to get to the point of risk 
that we have in this Nation, but we must very intentionally get 
out of this or the future portends a very dismal outlook.
    We have over a third of our children in the Nation now that 
are either obese or overweight. Three decades ago, that number 
was 5 percent. The impact on the health consequences we are now 
seeing in the clinical arena, where we have adult-onset 
diabetes in teenagers, where we have hypertension and cardiac 
disease starting in the late teens and 20s, where we are having 
leg injuries that we didn't used to see because the weight is 
so great on our young people's bones.
    These issues are clinical realities. We have measured their 
impact, and they are costing the State, through our Medicaid 
and State Children's Health Insurance Program, a significant 
amount of both utilization cost as well as indirect program 
support cost.
    As you mentioned, Senator Bingaman, this epidemic cuts 
across whole communities, all categories of race, ethnicity, 
family income levels, and locales. But it especially hard hits 
low-income individuals, minorities in the southern region of 
the United States that bears a disproportionate burden of the 
obesity risk.
    Finally, as we found in our State, the business sector has 
a direct interest in this, too, because the healthcare costs 
are large--$14 billion estimated to be the impact on the U.S. 
healthcare system--but the lost productivity and the future 
workforce issues are even greater. The business community has a 
vested interest here also.
    I won't go over some of the history of how we have gotten 
here, except just to highlight. Three decades ago, a kid went 
to school after they ate breakfast at home. They had a 
nutritious cafeteria meal. They came home in the afternoon, 
played outside. They had a home-cooked meal at night. They had 
a safe park to play in. They did not have cartoons 24 hours a 
day as they do now on cable TV. They didn't have fast food as 
readily available.
    The products that they ate did not come prepackaged, 
prepro-
cessed in cellophane wrappers. We didn't have agricultural 
subsidies making corn syrup be excessively inexpensive and, 
therefore, having an impact on the food products that families 
were offered. Dramatic changes have happened over the last 
three decades that have caused us to unintentionally contribute 
to this life-threatening epidemic that we are in now.
    Our State, 5 years ago, recognized this and undertook the 
first and largest major comprehensive strategy to combat 
childhood obesity. Passed in 2003, our Act 1220 attempted to 
change everything we could think about that could be 
contributing to this. Primarily in the school setting--changing 
vending options, eliminating vending machines for elementary 
school students. Restricting access to vending machines until 
after the lunch period.
    Changing what was offered in the cafeterias. Educating 
cafeteria workers about how to cook nutritious meals. Adding 
health education. Adding physical activity requirements in 
every grade. Changing the way our Medicaid and our SCHIP 
program reimbursed clinicians for support. Supporting community 
programs, as you will hear about later, to give after school 
program support so the kids didn't go home, lock the door, turn 
on the television, and start munching.
    Importantly, we measured in every student, kindergarten 
through 12th grade, the body mass index so that we have a 
baseline in 2003, and we have continued that each year so we 
can track progress. We provide to the parent a confidential 
health report that says what their child's health risk is.
    In 2003, the Centers for Disease Control had said 
nationwide 30 percent of children were obese or at risk. The 
first time we measured it in our State, it approached 40 
percent. So almost 33 percent more than the Nation's burden.
    We mobilized our communities. We mobilized our State 
government. We mobilized our industry to try to make that 
change, and I am confident to say here before you today, as we 
announced last year, that we have halted the childhood obesity 
epidemic in Arkansas through this multifactorial approach.
    But I want to draw to your attention, every level of 
government, every sector of industry has a responsibility here. 
Most control of local development ordinances and so forth are 
at the local community level. States have an incredible amount 
of influence on State Medicaid and SCHIP programs and on 
educational rules and regulations, but there are some specific 
issues where we need help from the Federal Government.
    First, we need to address the child nutrition and WIC bills 
that are coming up before the Department of Agriculture to make 
sure that they are reinforcing good nutrition and that we are 
supplying, through federally funded programs that States 
administer--school breakfast programs, school lunch programs, 
summer programs--support for nutrition. We need increased 
reimbursement rates for school meals. We need help for schools 
to make stronger nutrition statements.
    In the schools, the reauthorization of No Child Left Behind 
represents an opportunity. Currently, there are no physical 
performance standards in No Child Left Behind. It is all 
focused on academic performance. What gets sacrificed is 
physical education, physical activity time during the school 
day. We send a mixed message to our student when we don't 
provide them an environment.
    The reauthorization of the transportation bill. We have 
done an excellent job building highways and ways to transport 
people in motorized vehicles. We have not adequately addressed 
the needs of those who are on bicycles, those who are 
pedestrians, those safe routes to schools for kids to be able 
to walk to school each day, as they did three decades ago. Now 
you have to stand in line behind the row of SUVs to drop your 
kid off because it is not safe to walk in the neighborhood.
    The television airways that allow the advertising now on 
24-hour-a-day channels, 50-some odd in our locale when you have 
the basic package, are filled with advertising for recruiting 
youngsters, which frequently use the TV of which we have too 
many TVs in the bedrooms. These are issues that the Federal 
Trade Commission and Congress should work on together to try to 
find ways to better protect that home environment from the 
penetration of advertising.
    You have two Federal agencies, both the Centers for Disease 
Control, which is charged in providing support to the amount 
their limited resources allow to States for both school and 
public health programs, and you have the National Institutes of 
Health, which I would ask you to help prioritize research on 
how to create more healthful environments and prevent childhood 
obesity so that we don't have to pay for the treatment of 
childhood obesity and its adult onset of diseases downstream. 
We need to support them with the fiscal resources to achieve 
this changed goal to promote health, not just treat disease.
    I would like to thank you. I am here. The experiences we 
have are very similar to the challenges faced by all of the 50 
States in the United States and the territories. Our State has 
had some luck and leadership available that lets us portend the 
future. We have stepped on some land mines that I don't mind 
sharing with you, but we have also had some advances that we 
didn't expect, and I look forward to sharing that with you 
today.
    Thank you.
    [The prepared statement of Dr. Thompson follows:]
          Prepared Statement of Joseph W. Thompson, M.D., MPH
    Chairman Dodd, Ranking Member Alexander, Senator Harkin, members of 
the subcommittee, thank you for this opportunity to testify about the 
No. 1 health threat facing our children today and generations to come--
obesity.
    I am Dr. Joe Thompson, a father, a pediatrician, the Surgeon 
General of the State of Arkansas and the Director of the Robert Wood 
Johnson Foundation Center to Prevent Childhood Obesity.
    First, I would like to thank all of you for your dedication to this 
issue. The recently enacted Farm bill contains some very promising 
provisions to improve our children's nutrition--specifically the 
expansion of the Fresh Fruit and Vegetable Program into every State and 
the Food Stamp Electronic Benefit Transfer demonstration project that 
will automatically give extra benefits to participants who purchase 
fruits, vegetables and other healthy foods. All who care about the 
future of our children and this country are grateful for your 
leadership on this issue.
    However, considering the scope of the childhood obesity epidemic, 
we must do more.
    We did not get here through the malicious actions of industry or 
government. But, we must intentionally reverse our path, or our 
families, our communities, our States and the Nation will face a future 
of deteriorating health, lower worker productivity, and an increasing 
need for social services and health care support.
    Many have made investments in this issue. The Robert Wood Johnson 
Foundation has dedicated $500 million specifically to reverse the 
epidemic by 2015, and it is working with nonprofits and communities 
across the Nation to support State and local efforts to effect change. 
States like Arkansas are making substantive changes not only in their 
programs but also in their strategic planning. Industry also has a role 
to play, and we are beginning to see both innovative and promising 
changes come from that arena. Most important, every level of 
government--including Congress--has a responsibility to contribute to a 
solution and support communities and States as they strive to prevent 
and reverse the childhood obesity epidemic.
    It is worth repeating the statistics to help frame the discussion:

    <bullet> Today, almost 32 percent of children and adolescents--more 
than 23 million--ages 2 to 19 years are obese or overweight.\1\
---------------------------------------------------------------------------
    \1\ Ogden C.L., Carroll M.D., Flegal K.M. High Body Mass Index for 
Age Among US Children and Adolescents, 2003-2006. Journal of the 
American Medical Association 2008;299(20):2401-2405.
---------------------------------------------------------------------------
    <bullet> Even more startling are the health consequences that 
follow. Obesity increases the risk for type 2 diabetes, hypertension, 
osteoarthritis, stroke, certain kinds of cancer and many other 
debilitating diseases.\2\
---------------------------------------------------------------------------
    \2\ Health Consequences. Centers for Disease Control and 
Prevention, 2007. Available at www.cdc.gov/nccdphp/dnpa/obesity/
consequences.htm. Accessed 19 Jul 2008.
---------------------------------------------------------------------------
    <bullet> The childhood obesity epidemic cuts across all categories 
of race, ethnicity, family income and locale, but some populations are 
at higher risk than others. Low-income individuals, African-Americans, 
Latinos and those living in the southern part of the United States are 
impacted more than their peers.
    <bullet> For example, African-American girls are more likely to be 
obese or overweight than white and Mexican-American girls. Among 
African-American girls, 39 percent are obese or overweight, compared 
with 35 percent of Mexican-American girls and 30 percent of white 
girls.\1\
    <bullet> Obviously the health consequences are dire, but so are the 
health care costs to this Nation. Childhood obesity alone is estimated 
to cost $14 billion annually in direct health expenses. Children 
covered by Medicaid account for $3 billion of those expenses.\3\
---------------------------------------------------------------------------
    \3\ Childhood Obesity: Costs, Treatment Patterns, Disparities in 
Care, and Prevalent Medical Conditions. Thomson Medstat Research Brief, 
2006. Available at www.medstat.com/pdfs/childhood_obesity.pdf. Accessed 
19 Jul 2008.

    How did we get here? There is no single answer. The dramatic 
increase in obesity that both adults and children in the Nation have 
experienced over the past three decades is caused by a confluence of 
movements, changing influences, daily realities and the economic 
climate. Consider some of the macro and micro shifts in our culture and 
---------------------------------------------------------------------------
daily lives that shape our children's health:

    <bullet> Many supermarkets have moved out of both rural areas and 
blighted urban areas, leaving residents without access to healthy, 
affordable foods. Food deserts are spreading across the Nation. 
Children living in these deserts do not get to eat many fresh fruits 
and vegetables, but they are certain to know who Ronald McDonald is.
    <bullet> Similarly, there are recreation deserts, because parks are 
much less common in low-income and minority neighborhoods. And even 
when they do exist, lack of safety and perceptions about safety are 
critical barriers that impact children's ability to play and be active 
on a daily basis.
    <bullet> Because of urban sprawl, communities are becoming less and 
less livable. Increasingly designed with cars in mind, our 
neighborhoods are frequently not walkable or safe places for kids to 
play. Consequently, fewer than 15 percent of kids walk or bike to 
school, in part because street designs and traffic make it unpractical 
and unsafe.
    <bullet> And when kids get to school, they'll find that 
requirements in No Child Left Behind to meet annual yearly progress in 
reading and math have squeezed out time for recess and physical 
education, despite evidence that active kids perform better 
academically.\4\
---------------------------------------------------------------------------
    \4\ Trudeau F, Shephard RJ. Physical education, school physical 
activity, school sports and academic performance. International Journal 
of Behavioral Nutrition and Physical Activity. 2008;5:10.
---------------------------------------------------------------------------
    <bullet> Despite the 2004 Child Nutrition Reauthorization Act 
requiring that each school district have a school wellness policy that 
addresses physical activity and nutrition standards for foods in 
schools, implementation of these policies is far from universal.
    <bullet> Furthermore, in many cases, the relationship between 
schools and vending machines presents a conflict of interest. While 
many schools have become dependent upon even limited revenue from 
vending machines to supplement stretched budgets, we should not be 
surprised when this and the next generation of young adults get a non-
nutritious, unhealthy breakfast and lunch from vending machines.
    <bullet> After school, kids spend too much of their time watching 
television or playing video games--in fact, 50 percent of all 3-year-
olds have a television in their bedrooms.
    <bullet> Through television, schools and, increasingly, through 
digital media, the food industry spends millions of dollars each year 
marketing high-calorie foods and beverages that have poor nutritional 
value to children and adolescents.
    <bullet> Most schools lock their gates at the end of the day, 
preventing students and the broader community from using these public 
facilities, that are in every neighborhood, for recreation purposes.
    <bullet> Community-based youth programs, like Little League, that 
encourage sports have declined, and they are less available to the low-
income children at highest risk for obesity.

    All of these changes have created an environment that makes it 
difficult, inconvenient, expensive, dangerous or even impossible for 
most families and many children and teens to eat healthy foods and be 
active. This will not change if we do not act quickly and deliberately 
at the community, State and Federal levels to create healthy 
environments where we live, learn, work and play.
    Today, I want to talk to you about the success we are having in 
Arkansas in halting this epidemic as a result of comprehensive landmark 
legislation addressing healthy eating and active living; the type of 
resources and support State and local communities need to fight this 
epidemic; and evidence-based recommendations on how Congress can help 
States and local communities prevent and reverse the childhood obesity 
epidemic.
    Arkansas is similar to many other southern States--at risk for and 
paying the price for poor health. Compared with the Nation as a whole, 
we have disproportionately high rates of disease and infant mortality, 
low-life expectancy and low-economic status. Like other southern 
States, Arkansas is also disproportionately burdened by obesity risks 
in both adults and children. Almost one out of every three adults in 
Arkansas is obese.\5\
---------------------------------------------------------------------------
    \5\ Centers for Disease Control and Prevention (CDC). Behavioral 
Risk Factor Surveillance System Survey Data. Atlanta, GA: U.S. 
Department of Health and Human Services, CDC; 2007. Available at 
apps.nccd.cdc.gov/brfss/index.asp. Accessed 12 May 2008.
---------------------------------------------------------------------------
    However, in many ways Arkansas is different because we do not 
accept the status quo and are doing something about childhood obesity. 
In 2003 we passed Act 1220, which led to the first and most 
comprehensive legislatively mandated childhood obesity prevention 
program in the country. We had three goals:

    <bullet> change the environment within which children go to school 
and learn health habits every day;
    <bullet> engage the community to support parents and build a system 
that encourages health; and
    <bullet> enhance awareness of child and adolescent obesity to 
mobilize resources and establish support structures.

    Specifically the law included provisions aimed at:

    <bullet> improving access to healthier foods in schools, including 
changing access to and contents of vending machines;
    <bullet> establishing physical activity requirements;
    <bullet> creating local parent advisory committees for all schools;
    <bullet> publicly disclosing so-called pouring contracts; and
    <bullet> reporting each student's body mass index (BMI) to his or 
her parents in the form of a confidential health report.

    As the Director of the Arkansas Center for Health Improvement, I 
led the implementation of the BMI assessment program, and I am proud to 
say that we have halted the epidemic in Arkansas. It took the work of 
the schools, the community, parents, teachers and kids alike to commit 
to this system-wide change for the good of their own health and the 
future of our State and our country. We changed the environment through 
policies and programs that now support a healthier and more active 
lifestyle.
    When we began measuring our kids' BMIs in school year 2003/2004, 
nationally a little less than 34 percent of children ages 2 to 19 were 
either overweight or obese.\6\ Based on statewide evaluations of 
virtually all public school students in Arkansas, more than 38 percent 
of our children and teens were in the two highest weight categories. 
However, during the next 3 years (2005-2007) we found that we had 
stopped progression of the epidemic--the rate of overweight and obesity 
remained virtually unchanged at 38 percent per year.\7\ While the rate 
of childhood obesity in Arkansas is still too high, we are encouraged 
that our efforts have been successful and that the epidemic has been 
halted in our State. Now, we can turn our efforts to reversing the 
trend in our State and sharing lessons learned to inform national 
efforts.
---------------------------------------------------------------------------
    \6\ Ogden C.L., Carroll M.D., Curtin L.R., McDowell MA, Tabak CJ, 
Flegal KM. Prevalence of overweight and obesity in the United States, 
1999-2004. Journal of the American Medical Association 
2006;295(13):1549-55.
    \7\ Arkansas Center for Health Improvement. Year Four Assessment of 
Childhood and Adolescent Obesity in Arkansas (Fall 2006-Spring 2007), 
Little Rock, AR: ACHI, September 2007.
---------------------------------------------------------------------------
    The most recent evaluation by the Fay W. Boozman College of Public 
Health at the University of Arkansas for Medical Sciences \8\ shows 
that Arkansas's law is working to create a healthier environment in 
schools across the State. Some of the key findings of the report 
include the following:
---------------------------------------------------------------------------
    \8\ Fay W. Boozman College of Public Health. Year Four Evaluation: 
Arkansas Act 1220 of 2003 to Combat Childhood Obesity. Little Rock, AR: 
University of Arkansas for Medical Sciences; 2008. Available at 
www.uams.edu/coph/reports/#Obesity. Accessed Jun 30 2008.

    <bullet> The BMI assessments have been accepted and found helpful 
by parents--recognition of obesity risk by parents of overweight 
children has doubled in the first 3 years.
    <bullet> Sixty-one percent of school districts in Arkansas have 
policies requiring nutritious foods be available in vending machines, 
up from just 18 percent in 2004.
    <bullet> Twenty-six percent of vending items at schools are in a 
healthy category, up from 18 percent four years ago.\1\
    <bullet> Seventy-two percent of students increased their physical 
activity, up 10 percent from the previous year's study.
    <bullet> Parents are making efforts to create healthier 
environments at home by limiting the time their children spend in front 
of a television or video game screen and by encouraging more physical 
activity.

    Beyond the statistics, the positive impact that our policy changes 
are having on individual kids like ``Samantha'' has been one of the 
most encouraging success stories. Samantha was 10 years old when a 
routine screening at her school showed that she was at serious risk for 
obesity. Her mother, who thought Samantha was going through a harmless 
phase she'd outgrow, got the message. In addition to embracing changes 
made at school, Samantha's family also took steps to improve their 
health at home: eating better, reducing TV time and becoming more 
physically active. Samantha's BMI percentile dropped, and her weight 
classification changed from the highest category to a healthy weight. 
She's kept extra weight off and feels better than ever before.
    This is what has worked for Arkansas. In order to help other States 
model this program and the changes we made in our State, we need to 
identify and disseminate best practices. I want to ask the U.S. 
Congress for help in sustaining our State-based effort and expanding it 
to the Nation.
    Beyond what is happening in my home State, there is a real 
opportunity for every level of government to play a role in reversing 
this epidemic. I will touch on the local and State roles only briefly 
and then discuss the areas where I believe Congress can make a real 
difference across multiple programs and agencies.
    Clearly State and local leadership is key to transforming 
communities into healthy, supportive environments. Communities need to 
be walkable and livable, and that means we need to make transportation 
investments with pedestrians and cyclists in mind. More sidewalks and 
bike lanes would make it easier for children to walk to school safely. 
We also need to maintain parks and play spaces, and make sure these 
areas are safe so parents will feel comfortable letting their children 
play outside.
    Our cities and urban areas should not be food deserts. We need to 
attract supermarkets back to these areas through financial incentives 
so residents don't have to make a choice between purchasing healthy 
foods or making their rent and paying for gas.
    Schools need to be havens of health, not contributors to the 
problem. We need to implement school wellness policies, make vending 
contracts public, improve the content of school breakfasts and lunches, 
and get high-sugar, high-calorie drinks and junk food out of the 
vending machines. States can improve physical activity requirements, 
provide teacher training and ensure accountability. We need to take a 
similar track in the community by expanding and promoting opportunities 
for physical activity through capital improvement programs and 
planning.
    States face challenges, too, and the very real burden of balancing 
their budgets every fiscal year. Whether it is transportation, 
education, health care, economic development, or critical capital 
investments, States work to implement many programs in collaboration 
and partnership with the Federal Government and in support of local 
communities. We need all levels of government to work together and we 
need some changes.
    While changes at the community level are essential, there is also a 
strong role for the Federal Government to play in reversing this 
epidemic, and the upcoming 111th Congress is ripe with opportunity. Not 
only is health care reform going to be a top priority in both 
chambers--and we cannot have true health care reform without shifting 
our focus to prevention--there is a perfect confluence of opportunities 
through reauthorization of existing programs that can positively 
influence the trajectory of childhood obesity in this country.
    Based on the evidence about what works, the Robert Wood Johnson 
Foundation has identified five areas for policy change aimed at 
increasing physical activity and healthy eating among children and 
adolescents, decreasing sedentary behavior and, ultimately, preventing 
obesity. They include: providing healthier foods to students at school; 
improving the availability of healthy foods in all households; 
increasing the frequency, intensity and duration of physical activity 
at school; improving access to safe places where children can play; and 
limiting screen time.
    As Congress looks ahead to these reauthorization bills, your goal 
should be to include specific policy pathways, developed from these 
evidence-based strategies, in key pieces of legislation.
    First, for the reauthorization of the Child Nutrition and Women, 
Infants, and Children Program, I recommend the following:

    <bullet> Give the U.S. Department of Agriculture broader authority 
to require nutrition standards for all foods and beverages sold during 
the school day and regulate the content and sale of competitive foods, 
including those sold in vending machines and school stores.
    <bullet> Increase Federal reimbursement rates for school meals to 
help offset the rising cost of food.
    <bullet> Help schools meet stronger national nutritional guidelines 
by providing grants for upgrades to cafeterias and kitchen facilities 
so healthier food may be cooked and served.

    Second, Congress is planning to reauthorize the landmark No Child 
Left Behind law, which has made important strides in improving academic 
achievement in this country and has the noble goal of all ensuring all 
students have access to high-quality education regardless of their 
socioeconomic status.
    I recognize the critical importance of academic achievement, but I 
also embrace recent studies that have shown the active child is the 
child more ready to learn and may have greater academic success. At the 
very least, we know that taking time out for physical education does 
not negatively impact academic success. You do not have to sacrifice 
children's health for academic achievement.
    As Congress considers this important reauthorization, you should 
incorporate a physical fitness index or physical education quality 
score in school performance ratings. Schools do not have to require 
physical education, but rather could establish a performance indicator 
that places physical health on the map with academic achievement.
    I've never heard a mom say she wanted an educated, unhealthy child 
OR a healthy, uneducated child--she wants both for her child. We can do 
this by making achievement goals within No Child Left Behind work 
together.
    Third, Congress has the opportunity to reauthorize the Federal 
surface transportation bill, known as SAFETEA-LU. While this bill is 
typically thought of as a highway funding bill, Congress should 
recognize the even larger scope of the bill, which impacts 
opportunities for regular physical activity. Specifically, Congress 
should:

    <bullet> Ensure that children can walk and bicycle safely to school 
by increasing funding for the Safe Routes to School programs.
    <bullet> Implement Complete Streets that are designed and operated 
to enable the safe and convenient travel of all users of the roadway, 
including pedestrians, bicyclists, users of public transit, motorists, 
children, the elderly and people with disabilities.
    <bullet> Provide incentives to use transportation funds linked with 
land use decisions that create walkable and bikeable communities where 
people can get where they need go to without having to drive.

    Finally, as Congress debates the reauthorization of the children's 
health bill, you should include obesity as a treatable condition in the 
State Children's Health Insurance Program (SCHIP) reauthorization and 
Medicaid rules and regulations, which would establish childhood obesity 
as a precursor to adult obesity-related conditions that threaten 
individual life expectancy and the vitality of our workforce. Neither 
Medicaid nor most private insurance plans provide coverage for obesity-
related services. Thus, these benefits may not be part of the plans 
from which SCHIP coverage is developed. To more effectively address 
rising childhood obesity rates, obesity needs to be considered not just 
a risk factor, but a condition that requires medical attention.
    In addition to the reauthorization of these major laws, Congress 
has the opportunity to help shore up program and research funding at 
the U.S. Centers for Disease Control and Prevention (CDC) and the 
National Institutes of Health (NIH) during the annual appropriations 
process. Specifically, Congress should fully fund and increase funding 
for the CDC's Division of Nutrition, Physical Activity and Obesity, 
which provides grants to States for obesity control and prevention. 
Currently only half of the States are receiving such funding, putting 
unfunded States at a substantive disadvantage and their children at 
dire risk. In addition, I encourage you to charge NIH to prioritize 
research on how to create more healthful environments that help prevent 
childhood obesity and support them with fiscal resources to achieve 
this goal.
    The Federal Trade Commission, the Federal Communications Commission 
and Congress should work together with the food and beverage industry 
to develop a new set of rules governing the marketing of food and 
beverages to children. The new rules should apply to all children and 
adolescents and account for the full spectrum of advertising and 
marketing practices across all media. If voluntary efforts are 
unsuccessful in shifting the emphasis away from advertising high-
calorie and low-nutrient foods and beverages to advertising of 
healthful foods and beverages, Congress should enact legislation 
mandating the shift on both broadcast and cable TV. Congress could also 
act to require warnings on all non-nutritious food and beverage 
advertisements.
    This list of recommendations is not exhaustive, but I hope it will 
serve as a good springboard for Congress to consider as you make a 
commitment to preventing childhood obesity. I would also point your 
attention to the comprehensive recommendations made by the Institute of 
Medicine in a series of reports it has authored on this critically 
important issue. \9\ \10\ \11\ \12\
---------------------------------------------------------------------------
    \9\ Committee on Prevention of Obesity in Children and Youth. 
Preventing Childhood Obesity: Health in the Balance. JP Koplan, CT 
Liverman, VA Kraak (eds).Washington, DC: The National Academies Press; 
2005.
    \10\ Committee on Progress in Preventing Childhood Obesity. 
Progress in Preventing Childhood Obesity: How Do We Measure Up? 
Washington, DC: National Academies Press; Sept 2006.
    \11\ Committee on Food Marketing and the Diets of Children and 
Youth. Food Marketing to Children and Youth: Threat or Opportunity. JM 
McGinnis, JA Gootman, V. Kraak (eds). Washington, DC: National 
Academies Press, 2006.
    \12\ Committee on Nutrition Standards for Foods in Schools. 
Nutrition Standards for Foods in Schools: Leading the Way Toward 
Healthier Youth. VA Stallings AL Yaktine (eds). Washington, DC: 
National Academies Press, 2007.
---------------------------------------------------------------------------
    One thing is certain: There has never been a more clear set of 
opportunities for Congress to make a difference across multiple 
programs to support States and assist communities across the Nation 
than right now. As I suggested, small changes to these laws and 
programs can stimulate and reinforce huge changes under way at the 
State and local levels.
    Failure to make these changes will continue to contribute to a 
toxic environment that unwittingly reinforces poor nutrition and 
sedentary lifestyles and exacerbates health conditions that threaten 
the future of our children and our Nation.
    As a nation, we did not intentionally choose this course, but we 
must intentionally and immediately work to reverse it.
    Speaking for all States, we look forward to working with you, but 
we need your help and we need it now. Thank you.

    Senator Dodd. Thank you, Doctor. Congratulations on what 
you have been able to achieve in Arkansas. Where was Arkansas 
on that list, by the way, in terms of States? Do you have any 
idea? Do you recall where it was when you started?
    Dr. Thompson. Arkansas is always in the bottom tier of 
States with respect to health issues. We are frequently in the 
bottom tier of States as linked to economic issues. Income and 
health go hand-in-hand. So, currently, Governor Beebe is 
critically targeted on economic development and ways to raise 
the family incomes. But he recognizes that we have got to have 
an educated, healthy workforce or we are not going to be able 
to support industry.
    This is actually a new marriage between the industry and 
the health communities that we have not had before. Very 
powerful, very future-oriented, but critically important for 
the health of not only our communities and our State, but I 
believe the Nation, too.
    Senator Dodd. Well, thanks very much.
    Jonathan, we thank you for being here. You have got a good 
story to tell, so we are all anxious to hear what you have to 
say.

     STATEMENT OF JONATHAN MILLER, HEALTHPLACE PARTICIPANT 
 REPRESENTATIVE, UNIVERSITY OF MICHIGAN, REGIONAL ALLIANCE FOR 
             HEALTHY SCHOOLS (RAHS), YPSILANTI, MI

    Mr. Miller. Thank you for having me here.
    Good afternoon, everyone. My name is Jonathan Miller. I am 
currently a college student exploring my options. Two years 
ago, my life was very different. I weighed 385 pounds. I was 
quiet. I never thought about my weight or the risk or dangers 
of being obese.
    I remember one day in class, I actually had to sit in the 
back of the room because I couldn't fit in the desk. It didn't 
really faze me until one day actually I found out through my 
high school, which was Stone High School in Ann Arbor, MI, that 
there was a nutrition and physical activity group brought to us 
by HealthPlace 101, which is a school-based health center.
    After finding out about that, I decided to sign up for the 
group. It turned out the group was separated into two different 
categories. There was an individual meeting, where you actually 
met with a dietician who worked for the school-based health 
center. Basically, with the dietician, I would set my own 
personal goals, whether it would be to exercise 20, 30 minutes 
3 days a week or to make a small change in my diet, my eating 
habits.
    The one switch that I remember making was switching from 
drinking so much soda to drinking water and milk. That had a 
profound change in my life. I ended up losing somewhere around 
90 to 100 pounds within a year and a half of taking that 
program. I remember graduating and finding out that I weighed 
295 pounds.
    The second part of the group actually consisted of a group 
meeting, where we would actually take exercise classes that 
would consist of two classes within a week. We would meet 
during the school day. We would actually have to take one 
period of class off, but we would talk to our teachers and get 
the OK with that.
    So the exercise classes actually had a variety of choices 
to choose from. We had Pilates. We had yoga, aerobics, 
kickboxing, and belly dancing. I know, a variety. Yes.
    [Laughter.]
    Mr. Miller. I actually ended up taking classes that I never 
thought I would take. I ended up taking a yoga class, and that 
is something I never thought I would do, and that ended up 
becoming the saving grace for me personally.
    I remember there was a wonderful amount of peer support 
within the nutrition and physical activity group at my high 
school. We would basically just support each other because the 
whole challenge of taking on losing weight is not an easy 
battle to take on, and any support you can get is amazing and 
needed, and we need more support every time we take on this 
challenge.
    Another thing that the nutrition and physical activity 
group at my high school also provided me with was actually a 
scholarship to my local YMCA in Ann Arbor, which provided me 
with the teen scholarship that paid for my entire membership 
for an entire year.
    I remember spending many, many miles, walking many miles on 
the treadmill there, which was a great thing for me because it 
gave me a place to exercise outside of school, because the only 
place I could exercise was school. Thanks to having the 
scholarship to the local YMCA, it gave me a second place to go 
to when I was outside of school.
    Another thing that really helped for me with the nutrition 
group was the fact that it was in school. The fact that I had a 
nutrition group that I could go to--my second home away from 
home, which was my high school--was the most important thing 
for me because had it not been for the school-based nutrition 
health center, I honestly don't know where I would be in the 
whole battle of losing weight.
    I am really thankful and appreciative for the fact that 
this started in my school, and I knew there was a place that I 
could go to to talk about any problems that I was dealing with, 
whether they were personal or just trying to find ways to 
actually press on with my goals and actually achieve them, 
whether it be exercising 20 to 30 minutes 3 days a week or just 
changing my eating habits.
    For me, that was the best thing because I had the mindset 
that in order to lose weight, one would have to take extreme 
measures, which would basically be shakes, pills, bars, 
exercise equipment that you would see on infomercials on TV. To 
actually see that there was another way to do this and it 
didn't take so much energy or so much thought process because, 
I mean, let us be honest, being a high school student, you want 
to use the least thought process as usual because you are 
already doing it on a daily basis to get your classwork done. 
So anything that deals with thinking and losing weight at the 
same time, you usually want to avoid.
    [Laughter.]
    Mr. Miller. So to see that I could actually lose weight 
without thinking so much about making sure I was eating the 
right thing every single day or I was taking a particular pill 
or making sure I was using this equipment 5 days a week or 
anything of that nature was an amazing thing for me personally.
    Today, I am still practicing these things that I have 
learned from the nutrition and physical activity group. I still 
exercise. I actually exercise more than 3 days a week. I 
actually exercise around 4 to 5 days a week.
    I still watch what I eat. Today, I have been successful in 
losing weight. I have actually lost a total of 137 pounds, 
which I am very proud of. So I am just very appreciative of the 
fact that I had a school-based health center that helped me, 
personally, lose weight.
    So I am very thankful that I am here to tell my story. I am 
honored to speak to your committee about this, but it is not 
just my story. It is a lot of people's stories, sadly, and I am 
very concerned about what is going to happen to my generation 
if this problem is not addressed. This generation has to break 
the cycle of childhood obesity, but we can't do it alone.
    Thank you.
    [The prepared statement of Mr. Miller follows:]
                 Prepared Statement of Jonathan Miller
    Good afternoon. My name is Jonathan Miller. I am currently a 
college student exploring my options. Two years ago, my life was very 
different. At 385 lbs, I was quiet, I never thought about my weight, 
the risks or dangers of obesity. Nor did I see the potential risk to my 
health. I remember in one class I had to sit in the back of the room on 
a bench, because I couldn't fit in the desk. I was living in a cycle I 
did not know how to break.
    Today, I am self confident and outgoing. So far, I have lost 137 
lbs. I have more choices now. I can go to an event and not worry about 
fitting in the seats; I can buy clothes at more than one store. I have 
broken the cycle of obesity, but I did not do it alone.
    Two years ago, when I was a senior at Stone High School in Ann 
Arbor, MI, I signed up for the nutrition group on a dare with a friend. 
The Nutrition and Physical Activity Program was offered by HealthPlace. 
HealthPlace is the school-based health center. I remember being weighed 
before the group began and told that I weighed more than the scale 
could actually measure. The scale could only go up to 350 lbs. I was 
shocked, surprised and scared.
    The program consisted of weekly group meetings and 2 exercise 
classes every week. There were a variety of exercise classes. From 
Pilates to yoga, kickboxing aerobics and belly dancing, we had many 
options to choose from. These were activities I had never thought I 
would try, and the next thing I knew, I was taking a yoga class! Having 
the class in the school, at the SBHC, made a big difference. While I 
had to make adjustments with my classes and assignments, I found that I 
was more energetic and willing to do the work. Having more energy and 
using the endorphin rush from the exercise made me more productive and 
the day more enjoyable. As we all know, it's easy to do things when you 
feel good.
    The group meetings provided peer support. We could discuss 
nutrition, try new foods, and explore our personal strengths. 
HealthPlace is a place of trust, where I felt safe enough to delve into 
uncomfortable issues. Having this resource available in the school was 
instrumental--it was a vital first step in getting me to understand the 
health implications of my weight. We also discussed different community 
exercise options. In fact, based on this information, I applied for and 
received a scholarship from the local YMCA. This scholarship provided 
me with a teen membership which allowed me to use the YMCA for 
exercise. I spent many miles on the treadmill.
    I stayed with the nutrition group for the entire year and also 
started meeting individually with staff at the SBHC for nutrition 
counseling. This one-on-one counseling helped me track my progress. 
Personally, weighing in only once a month or every other month was most 
helpful, because I didn't want to become obsessed with weighing myself. 
I wanted to feel the difference in my being--my body and my health. The 
counseling also helped with teaching me about the principle of ``small 
changes.'' I used to believe in order to lose weight, one would have to 
take extreme measures (for example; extreme dieting, exercise machines 
from TV commercials, shakes, pills, and things of that nature). These 
are also known as quick fixes. Instead, I learned a metaphor for taking 
life one step at a time. I made my first change by switching from soda 
to water, without changing everything in my diet. Later, I started 
bringing my own lunches to school; this was my own way of practicing 
portion control.
    I am still practicing these main exercise and nutrition principles 
today. I continue to make small changes towards a healthier lifestyle. 
I am more loving to myself. I am not criticizing myself as often as I 
used to. When I make choices, I think about what will take me in a 
positive direction, instead of a negative one. I've learned I have the 
power to make good things happen. Thanks to HealthPlace I realized the 
amazing potential that was in me this entire time.
    Thank you for having me here to tell my story. I am honored to 
speak to your committee. But it's not just my story; I'm very concerned 
about what's going to happen to my generation if this problem is not 
addressed. This generation must break the cycle of childhood obesity, 
but we can't do it alone. If every student had access to a SBHC, like I 
did, they too could have a safe place to begin this life 
transformation. I was able to address my nutrition and the mental 
barriers to losing weight simultaneously. I'm not sure I could have 
been as successful in my efforts without having these services offered 
in the same place, where I spend the majority of my time--at school. 
Thank you.

    Senator Dodd. Thank you very, very much. Eloquent 
testimony. Great job. We're very proud of you, thanks.
    Mr. Dwyer, thank you.

   STATEMENT OF PHILIP J. DWYER, PRESIDENT AND CEO, CENTRAL 
             CONNECTICUT COAST YMCA, NEW HAVEN, CT

    Mr. Dwyer. Senator Dodd, Senator Bingaman, thank you for 
inviting me.
    I will tell you that I am honored, after 39 years of 
working for the YMCA and trying to put into practical solutions 
the ideas that people might have and have programs that people 
will participate in and make healthy choices for themselves, 
the YMCA for 160 years--I have only served a portion of that 
time--has tried to have kids and families grow up and have 
healthy, strong lives, and we work very hard to accomplish 
that.
    We believe in three things. One is that every child should 
have access to healthy eating, and we offer programs to try and 
encourage that. Every child should have 60 minutes of daily 
physical activity. Yes, physical activity and physical 
education classes are being pushed out of the school day.
    But as a school board member, there was a time when we put 
in the requirement for graduation of community service. But we 
allowed that community service to be made outside the school 
hours at different agencies around town.
    The same concept would work for physical activity being a 
requirement of graduation, but be more flexible in how children 
can attain those hours of physical activity because time is 
precious during a school day. Yet on their own freedom of how 
they accomplish that, they could accomplish that during 
nonschool hours as well. If you made it a part of graduation 
requirements, just allow more flexibility as to how they 
accomplish it.
    And third, we believe that children need a supportive 
relationship with a caring adult in order to accomplish their 
pursuit of physical and health throughout their life. We call 
people ``health seekers'' that come into the YMCA. They are 
people who want to be healthy. They try to be healthy, but 
often society gets in their way. The way in which we live our 
lives, the way in which we build our streets make it more 
difficult.
    I know with my own two children going through school that 
the requirements to get this AP course and that AP course 
suddenly pushed lunch out of the day, and they would eat their 
sandwiches during some class. As a society, we are not making 
it possible as much as we could to support and have an 
environment that allows people to be healthy.
    Through the YMCA, we are trying to do two things. One is to 
look inward. Look internally and say how do we change the way 
we are doing things? We talk about health, and then we have a 
staff meeting with donuts. That doesn't make sense. I think 
that is true in every institution. What are you doing 
internally to change the message to your staff and the people 
who you serve?
    We have been fortunate as a YMCA to be a pioneering 
healthier community YMCA, and so the YMCAs across the country 
are also trying to be facilitators of groups in our local 
communities who want to engage on this issue. They just need a 
little bit of support and help facilitating themselves.
    You just look at the people who are in this room and you 
know that there is a groundswell of support, whether it is from 
State government or local government, school boards, parents, 
citizen groups, traditional institutions, who want to be 
engaged on this subject.
    Talking about practical solutions, the Pittsburgh YMCAs put 
a kiosk in their lobbies at about nine of their branches where 
low-income people can come in and order fresh fruit and have it 
delivered the next day at a savings of about 40 percent off the 
retail price as a way of having access to that.
    The Quad Cities--YMCA was able to influence a grocery store 
to put in a teaching kitchen to help parents and adults find 
that you can cook low-cost healthy meals. Rapid City was able 
to convince their leadership that in all new developments, they 
put in properly designed streets with sidewalks.
    Clearwater, FL, was able to restore physical education in 
schools and to require licensed childcare centers to have 30 
minutes of physical activity each day.
    So there are solutions out there. This is not rocket 
scientist work. People want to be healthier, and they need the 
support of their local institutions as well as the Federal 
Government to help encourage that.
    Our grandmothers and our mothers are right. An ounce of 
prevention is worth a pound of cure. Now, thanks to the Trust 
for America's Health, we have the research proof that dollars 
spent on prevention give a huge return in future costs. If we 
think that the costs of medical services today are taking too 
much of our Federal and State budgets, can you imagine what 
will happen if we do not address this problem today? Forty 
years from now, we will not be able to sustain the cost 
increase.
    Back in college, I took a health course, and some professor 
said, ``So what is health?'' The answer from one of the 
students in the back--I wasn't smart enough to give this 
answer--was ``freedom.'' Think of the costs that chronic 
diseases bring to a family, to a community and the lack of 
freedom they have, therefore, as a family or individuals or 
whole communities to do different things.
    This is a real crisis that we need to address. Clearly, 
continuing to support the community health and Steps Program. 
Clearly, continuing to help support the 21st Century Community 
Learning Centers Program. Our Y offers that at elementary 
schools, but also two high schools, and it is a vital way for 
us to interact with kids.
    At the end of the day, it is working with teens and youth 
as ambassadors to their fellow teens in telling the story that 
health is important and health is vital. Therefore, improving 
their nutrition and increasing their physical activity will 
have payback for a long, long time to come.
    I want to thank you for inviting me here. I will tell you 
that not only at YMCAs, but at not-for-profit institutions 
throughout this country, we are looking for leadership to bring 
us all together so that we can share the solutions that we 
found, see what works, see what doesn't work and where it 
works, in what kind of community.
    We are anxious for that leadership. The Y is able to give 
that leadership in some respects, but at the same time, we need 
firm support from the Federal Government.
    Thank you.
    [The prepared statement of Mr. Dwyer follows:]
                 Prepared Statement of Philip J. Dwyer
                            i. introduction
    Chairman Dodd, Ranking Member Alexander and members of the 
subcommittee, good afternoon. My name is Philip J. Dwyer, President/CEO 
of the Central Connecticut Coast YMCA. I led my first fitness class as 
a YMCA youth volunteer and for the past 39 years I have been a YMCA 
professional. Today I'm honored to speak on behalf of my local YMCA, 
but also as a representative of the more than 2,600 YMCAs across the 
country who for nearly 160 years have been dedicated to the health of 
youth and families in America. All are welcome at their neighborhood 
YMCA, regardless of age, race, sex, faith, background, ability or 
income. Thank you for giving me this opportunity to share some 
practical solutions to the obesity epidemic among youth. While my focus 
is on efforts of the YMCA and our many community-based partnerships, 
there are many government entities, foundations, and private 
institutions dedicated to reversing our current youth obesity trends 
and today we are seeking leadership from the Federal Government.
           ii. nationally: overview of america's 2,686 ymcas
    America's 2,686 YMCAs, at more than 10,000 sites, serve 21 million 
people each year--more than half of which are children. From cities to 
small towns YMCAs serve nearly 10 million children by building healthy 
spirit, mind and body for all. We believe that the lifestyle health 
crisis--including childhood obesity is a defining issue of this next 
generation. Few organizations are in a better position than the YMCA to 
support change in children and their families. We have the knowledge, 
expertise, network and reach to succeed. At my local YMCA in Central 
Connecticut we serve 71,000 people each year and 40,000 children and 
youth.
How YMCAs Serve Children
    The YMCA movement believes that all of our support to children and 
youth must be based on three foundational pillars: (1) All children 
must have access to healthy eating; (2) All children must engage in 
physical activity--preferably 60 minutes each day; and (3) All children 
must have strong relationships that support them in their pursuit of a 
healthy life. It is on these three pillars--and a fundamental belief 
that children are exposed to healthy living in a developmentally 
appropriate manner that emphasizes fun and play--letting kids be kids--
that we base our myriad of programs and other opportunities.

    <bullet> Children: YMCAs serve nearly 10 million children age 17 
and under through a variety of activities all of which focus on 
building healthy spirit, mind and body for all. Nationally, 32 million 
children live within 3 miles of a YMCA. Almost 70 million households 
are within 3 miles of a YMCA. In Connecticut, my YMCA serves 40,000 
children and youth which is one out of every six children in our 
service area.
    <bullet> Serving Children and Youth: Programs focused specifically 
on children and youth who are being challenged with overweight issues 
at YMCAs grew by almost 50 percent during 2005 and 2006, and programs 
for overweight adults jumped almost 70 percent. Nutrition programs 
increased almost 30 percent, and weight management programs increased 
165 percent. Broader community health and well-being coalitions grew 30 
percent.
    <bullet> Camps: YMCAs are the largest provider of camps in the 
United States.
    <bullet> Child Care: YMCAs are the Nation 's largest non-profit 
provider of child care, with nearly 10,000 child care sites across the 
country.
    <bullet> Youth Sports: YMCAs are the Nation 's largest non-profit 
provider of youth sports.
    <bullet> Collaborations with Schools: Most YMCAs collaborate with 
their local schools to improve physical activity and nutrition for 
children and provide afterschool child care. In 2006, YMCAs 
collaborated with 1,746 elementary schools, 1,363 high schools, 1,379 
middle schools, 966 colleges, 866 home school programs and 447 charter 
schools.
    <bullet> All YMCA programs are offered to and accessible to all, 
regardless of ability to pay. YMCAs work hard day in and day out to 
ensure no child is left out due to the families' inability to pay.
YMCA's Answer to the Health Crisis: ``Activate America''
    Activate America is the YMCA's response to our Nation 's growing 
health crisis. With Activate America, the YMCA is redefining itself and 
engaging communities across the country to provide better opportunities 
for people of all ages in their pursuit of health and well-being in 
spirit, mind and body. YMCAs are changing the way they work inside 
their facilities to make them more supportive for people who need help 
adopting and maintaining a healthier lifestyle, and they are moving 
outside of their facilities to act as a catalyst to improve community 
health. YMCA Healthy Kids Day is the Nation 's largest event designed 
to support the healthy living for kids and families.
    For the last few years, the YMCA has incorporated the vision 
reflected in Activate America into more and more aspects of our work. 
For example, we're transforming YMCA child care sites into environments 
where our three pillars of success--(1) physical activity, (2) healthy 
eating and (3) relationship building--are the norm. As you will see 
later, these three pillars of our evidence-based methods are integral 
to what we are doing in Connecticut as well as what we are doing in 
YMCAs across the Nation.
Academic Partners
    To ensure that the YMCA's work is grounded in the latest science, 
YMCA of the USA has worked with academic partners on Activate America. 
Harvard University School of Public Health has helped YMCA of the USA 
better understand how to design assessment tools for measuring healthy 
eating and physical activity across all YMCA sites and programs. 
Stanford University School of Medicine's Prevention Research Center has 
provided expertise on several important projects, including two 
assessments--one that allows communities to assess how supportive their 
environments are for healthy living and one that allows individuals to 
assess their own lifestyle behaviors and risk factors. These and other 
academic partnerships will allow YMCAs to spread evidence-based best 
practices nationwide.
Community Collaboration
    Some of the greatest lessons in successfully addressing childhood 
obesity have come from our community-based partnerships. At the YMCA, 
there are three programs that have the same goals and similar 
strategies funded by the Centers for Disease Control and Prevention--we 
like to refer to them as our ``Healthy Communities'' initiatives--
Pioneering Healthier Communities, Steps to a Healthier US and ACHIEVE--
all focus on collaborative engagement with community leaders, how 
environments influence health and well-being, and the role public 
policy plays in sustaining change. A total of 116 communities across 
the Nation participate in these initiatives and 20 new communities will 
be launched later this month.
    Our signature program, Pioneering Healthier Communities, or PHC for 
short, is led by our National Chairman, Senator Tom Harkin, a member of 
this committee. Through Pioneering Healthier Communities, YMCAs in 64 
selected communities across the country have convened teams represented 
by key community stakeholders (including hospitals, public health 
departments, schools, local businesses, public officials and 
foundations) to develop strategies, including policy and environmental 
change approaches, that reduce barriers and increase support for 
healthy living in local communities. Twenty new PHC communities will be 
launched this year. I will explore some of our success on this in 
Connecticut and then describe other successes nationwide.
iii. how the central connecticut coast ymca works locally on this issue
More Than Eating Less and Exercising More
    The YMCA has learned that the majority of kids and families need 
support in achieving their health and well-being goals. We call these 
individuals ``health seekers''--they want to improve, but making 
everyday healthy choices to be healthy and live well is frequently a 
struggle, even when it has obvious advantages. Health Seekers, whether 
children or adult are different from the ``already active''--those who 
have and will stay active. Convincing Health Seekers to adopt healthier 
lifestyles, even when it has obvious advantages, is often difficult. 
Changing lifestyles of youth and families requires a lengthy period, 
sometimes many years, from the time new ideas are first presented to 
the time they are widely adopted.
    For the ``health seekers,'' this journey to better health is 
strengthened when they have supportive relationships and environments 
that allow them to make more consistent healthy choices. This is what 
the YMCA does everyday--provides the knowledge and supports that 
encourage healthy living by allowing kids and families to find the joy 
in living healthy lives through the support of family, friends, and the 
community at large. More kids and families need these supports. This 
epidemic of youth obesity will only be addressed by teaching and 
persuading youth that increased physical activity and improved 
nutrition is in their best interest. Helping them make this decision 
and then implementing it over a lifetime and confirming the benefits of 
this changed behavior. And this journey will only happen through 
relationship building.
    Therefore, the key question for this committee, our society and 
especially for those of us committed to tackling the youth obesity 
issue: How do we provide more supports and healthier environments to 
speed up the rate in which youth and families begin to make everyday 
healthy choices and begin living healthier lives?
    From our work in Connecticut, I can tell you that the solution is 
more than just telling kids to eat less and exercise more. Yes, people 
are responsible for their own behavior but too often society creates 
barriers, or at the least does not provide enough support, to help kids 
and families realize their health goals. So, at our YMCA we sought out 
community partners and created the Central Connecticut Coast Pioneering 
Healthy Communities Team and together we have agreed to lead our 
communities' journey to wellness by changing the behaviors and 
environment impacting active lifestyles and healthy nutrition. We set 
three goals:

    <bullet> The Food Systems Vision: The Central Connecticut Coast 
(CCC) PHC Team works with partners to empower children and people who 
care about children within our service area to adopt healthier eating 
habits and improved nutrition, through nutrition education and access 
to wholesome foods.
    <bullet> The Built Environment Vision: The CCC PHC works with the 
Connecticut Governor's office and other regional partners to increase 
physical activity among youth, families and adults through increased 
use of the outdoors including: local, regional and State park systems, 
YMCA facilities, and school physical education programs to insure 
people engage in the recommended amount on a daily basis.
    The Live, Work, Play Vision: The CCC PHC Team works with local 
community agencies to advocate for equitable policies and resources to 
improve access related to both nutrition education and opportunities 
for physical activity among children and their families. We need to 
remember there are many in our communities for whom healthy living may 
not even be a choice. Whether it be ``food deserts'' (lack of access to 
healthy food options), unsafe neighborhoods (where physical activity 
may not be an option), or decreased ``walkability'' (where zoning laws 
and the built environment discourage rather than encourage physical 
activity), the YMCA insists we must also address these barriers. 
Furthermore, research shows there is a correlation between lower income 
and increased risk of obesity. Being that 1,518 YMCAs serve communities 
where the median family income is below the U.S. average, we know we 
have a unique opportunity, and responsibility, to address these 
environmental barriers that cause health disparities.
    So, what have we done by becoming involved in Activate America 
through our Pioneering Healthier Communities initiative, with help from 
CDC Funding and our own resources? We gathered together a team of 
individuals interested in this issue from a local hospital, the New 
Haven-based Family Health Alliance, officials from the Fairfield and 
Milford Health Departments, a State representative, and local YMCA 
volunteers started to talk about the issue and seek practical 
solutions. All of our programs help youth go through the cycle of 
adapting behaviors--teach, persuade, decide, implement and confirm. Let 
me describe some of them:
                           First is to Teach
    <bullet> Milford PHC Team: Immediately following participation in 
the YMCA of the USA's Washington, DC, PHC Conference, Dr. Dennis 
McBride, Director of Public Health for the city of Milford, recommended 
that the Mayor form a new committee comprised of community leaders to 
``identify practical and sustainable solutions and tools for healthier 
living within the city of Milford.'' The PHC initiative through 
education, information, tools, resources, and access to best practices 
has given them a belief that their small efforts will grow as the 
combined PHC Team identifies best practices for adoption and potential 
funding sources for program expansion. The idea of advocating with the 
Milford Oyster Festival to include healthy food options came from these 
PHC Team discussions. To date the Milford PHC Team has initiated a 
Walking School Bus program at one elementary school and established a 
``Friday is Fruit Day'' at three elementary schools. Their goal is to 
expand both programs.
    <bullet> Friday is Fruit Day in Milford: In partnership with the 
Milford board of Health and the public school system we are insuring 
fruit is available every Friday. Our goal is to provide an environment 
that encourages healthy eating.
    <bullet> Walking School Bus: In partnership with the Milford Board 
of Health and local elementary schools we have created one Walking 
School Bus system and are working on a second, in which parent 
volunteers ``pick up'' children along a route and provide a safe and 
secure pathway to school--while encouraging increased physical activity 
for children.
 Second is to Persuade: Healthier Lifestyles is in Their Best Interest 
                    and Compatible With Their Values
    <bullet> Parks & Recreation--CAS, YMCA alliance: The Connecticut 
State Alliance of YMCAs gathered the leadership of the Parks and 
Recreation Associations and the Connecticut Alliance of Schools to 
discuss how they can work together. One innovative idea being discussed 
is to allow youth to get school credit for participating in physical 
education activities in community agency-based settings. The school day 
has focused on academic-only classes to improve test scores--forcing 
physical education and arts out of the curriculum in many schools. That 
trend will continue and so schools should be given incentives to meet 
national standards of physical education and should be encouraged to 
allow those standards to be met through community-based settings like 
the YMCA and local parks.
    <bullet> Healthy Family Home Starter Kits will be distributed in 
the 2008-2009 school year to middle schools in Bridgeport among 6th 
graders to help families support their child's need for increased 
activity and improved nutrition. The YMCA's Healthy Family Home is a 
new program developed from a partnership between YMCA of the USA and 
Eli Lilly and Company, to leverage two of the most powerful forces in 
health today--the family home and the proven impact of small, sustained 
changes. The starter kit provides families with guidelines and 
suggested activities in the following areas, known to reduce the onset 
of chronic diseases in later years:

    <bullet> How to insure moderate, fun activity at least a total of 
60 minutes a day.
    <bullet> How to engage in vigorous, fun physical activity 3 days a 
week with a goal of 20 minutes each day.
    <bullet> Coaching families to serve fruits and vegetables at every 
snack and meal.
    <bullet> Coaching families to sit down as a family for 1 meal a 
day.
    <bullet> How to involve youth in snack and meal preparation and 
clean up every day.
    <bullet> Making water the primary drink option.
    <bullet> How to include a whole grain or protein option with every 
snack.
    <bullet> Provide healthy ``unsaturated'' fat foods at meals and 
snacks.
    <bullet> Emphasis on moderation, balance and variety in meal 
choices.
  Third is to Decide: Help Individuals and Families Adopt a Healthier 
                               Lifestyle
    <bullet> Teen Projects, New Haven: Forty agencies in New Haven have 
formed a Youth Collaborative to coordinate programs and share 
resources. The YMCA is part of this group's leadership so we asked a 
group of youth from these agencies to prepare application packages, 
invite youth from the 40 agency collaborative to apply for a mini-
grant, evaluate the submitted proposals and choose four activities 
presented by the:

        <bullet>  Family Learning Center will operate a Healthy Hearts 
        Club that will engage youth ages 5-14 in physical activities 
        such as dance, yoga and Tae Kwon Do. Youth will be encouraged 
        to exercise more every week, create healthy recipes and invent 
        group games that can be taught to other kids on how to stay and 
        play healthy all the time.
        <bullet>  Casa Latina, Youth as Leaders Program will initiate 
        an activity this fall called Mission Nutrition. A youth cooking 
        club will teach children how to prepare and cook easy, healthy 
        meals for both themselves and their families that are low cost, 
        nutritious and tasty. A cookbook of healthy meals will be 
        distributed to families engaged in the program and to other 
        youth agencies in New Haven.
        <bullet>  The Consultation Center will engage 30 youth from the 
        Hill neighborhood to inspire them to be healthier by engaging 
        in physical activities and advising them on healthy snacks.
        <bullet>  Solar Youth, Inc. have engaged 10 youth from the 
        Westville Public Housing project to introduce them to health 
        issues through a community service learning model program that 
        discusses health topics such as exercise, nutrition, hunger and 
        mental health.

    Each of these mini-grants have been designed to help youth groups 
address the issues of increasing physical activity and improving 
nutrition among teens in New Haven. Youth create the project, they 
apply to a youth-led foundation board who award the mini-grants and 
then the youth implement the program. We believe that peer to peer 
teaching will be more persuasive and lead to a longer term commitment 
to healthy lifestyle changes.

    <bullet> Teen Projects, Bridgeport: We implemented a similar 
program in Bridgeport. Working with our partner, Work and Learn, a not-
for-profit associated with the local Council of Churches, we recruited 
a group of 25 middle school-aged youth, considered at risk and living 
in the east side and east end of Bridgeport, to prepare application 
packages, invite 11 elementary schools serving their neighborhoods to 
apply for a mini-grant and evaluate the proposals. They chose the 
programs presented by Beardsley and Barnum schools. Barnum School youth 
will create a community garden and will combine this activity with 
classroom education about the value of nutritional fruits and 
vegetables that can be grown in their garden. The Beardsley School 
fifth grade class will engage in an assessment process, calculating 
their BMI and nutritional habits as well as evaluating their fitness 
level. This information will be used to create a personal intervention 
program that will include bi-monthly visits from a personal trainer and 
monthly classroom visits by a nutritionist. Students will keep journals 
recording physical activity and eating habits throughout the school 
year. A year-end celebration, organized by youth engaged in the Work 
and Learn program will take place during a ``mini Olympics'' program 
featuring physical activity, healthy foods and awards to all students. 
The goal is to foster a life-long commitment to a healthy lifestyle 
that students will then share with their families and their east end 
community.
 Fourth is to Help Youth and Families Implement a Change of Lifestyle 
                           Through Incentives
    <bullet> No Child Left Inside: More than any other generation, 
today's kids spend a great deal of time indoors. The No Child Left 
Inside initiative sponsored by Gov. M. Jodi Rell's office is a promise 
and a pledge to help Connecticut's children live active, healthier 
lives. This special outreach and education awareness campaign was 
created to encourage families to enjoy all the recreational resources 
and outdoor activities offered by Connecticut's State parks, forests 
and waterways. The State has provided transportation, funded by a 
corporate grant insuring inner city families could participate. The 
Fairfield and Bridgeport YMCAs have participated in NCLI events by 
organizing urban families to take advantage of this initiative.
    <bullet> Urban Fishing Program: The Fairfield and Bridgeport YMCAs 
are collaborating with the CT Department of Environmental Protection by 
teaching the Connecticut Aquatic Resource Education (``CARE'') program. 
We are in our second year. This summer, 60 campers and 25 youth from 
Work and Learn will be taught about their coastal environment. Everyone 
gets outside, exercises and enjoys our natural resources while learning 
the technical aspects of fishing and also learning to respect the 
environment.
    Too often physical activity is focused on sports activities, 
leaving out many youth who need to develop habits of physical activity 
that can last a lifetime, such as fishing.
    <bullet> Free Swim Lessons at State Parks: Over 700 families are 
participating in this program which is operated by CT YMCAs as part of 
Governor M. Jodi Rell No Child Left Inside initiative. Families receive 
a free pass to a State park and are encouraged to use it for the day to 
explore the trails and natural resources of the park. YMCAs provide 
free swim lessons, funded from a grant by CT DEP, so that enjoyment of 
the aquatic resources can be done safely while everyone gets exercise.
    <bullet> Milford Walking Trails: Milford had already identified 
their 12 ``best'' walking trails. Through the leadership of the Milford 
PHC effort, and inviting leaders of that effort to the PHC team 
meetings; this project is being given more attention.
    <bullet> Fairfield Walking Trails: In partnership with the 
Fairfield Board of Health and the local conservation commission that 
has purchased and managed open space, we are going to improve the trail 
system within town-owned land to create an environment that encourages 
physical activity. The simple process of creating better signage, 
better publicity and creating a point system where children, and their 
families earn points every time they spend a weekend on a walking 
trail, encourages better use of this available resource. The first, of 
what is hoped will be 15 walking trails have been identified and a 
brochure describing how to access the trail was produced.
Fifth is to Promote Consistent Action so Youth and Families Can Confirm 

                    Benefits of the Changed Behavior
    <bullet> HEALTHY KIDS DAY: About 1,000 youth participated from the 
CCC PHC service area with the theme of ``Passport to Fitness.'' Each 
participant at all YMCA's received a passport which incorporated 
stations around the Y that engaged youth adults and families in 
physical tasks as well as answering queries focusing on health and 
fitness. The stations were manned by YMCA staff and an assortment of 
community wellness volunteers; dentists, doctors nurses, nutritionist, 
massage therapist; all joined the YMCA in teaching participants how 
they could achieve an active healthy lifestyle in their community with 
support from the YMCA and community health and wellness professionals.
    <bullet> America On the Move Week (``AOM''): Eleven branches of the 
CCC YMCA participated in AOM week with millions of steps taken towards 
more active and healthy lives. Mayors and Selectmen started the week 
with community walks and a healthy luncheon. The Bridgeport YMCA hosted 
a Salsa Smart Spot Dance party at Seaside Park. YMCA's Implemented a 
holistic approach focusing on educating the community about healthy 
eating and increasing activity, local doctors, wellness centers, 
clinics and naturopathic doctors participated; AOM week launched a year 
long program of continuous workshops and free screenings given by YMCA 
staff and health care professionals addressing disease prevention such 
as diabetes, high blood pressure, cancer, heart disease, weight 
management and smoking cessation.
    <bullet> Remove soda machines and serve healthy snacks at meetings: 
Something as simple as removing soda and unhealthy snacks from vending 
machines can make a difference. You will hear that ``we can't lose the 
money'' from these sales. In fact our commissions from vending machines 
has remained the same, and in some cases grown, after a period of time 
when youth adjusted to the new products and found them just as good.
    The Central Connecticut Coast PHC team realizes this process needs 
to be sustainable, and we are committed for the long haul.
  iv. examples of ymca academic and community work around the country
Harvard Research to Help Guide YMCA Child Care and 2009 USDA Childhood 
        Nutrition Reauthorization
    From an academic standpoint, through our partnership with Harvard 
University School of Public Health, YMCAs participated in an 
organizational change intervention study to achieve new environmental 
standards. We evaluated interventions in our afterschool child care 
settings at pilot YMCAs. Through this study, we not only established 
``Environmental Standards for Healthy Eating guidelines'' to share with 
YMCAs nationwide, but we also have now submitted recommendations for 
the 2009 Reauthorization of USDA Child Nutrition Programs based upon 
this research. We look forward to working with members of this 
committee and others to ensure that this research can be utilized when 
Congress addresses this issue next year.
Community-Based Models Nationwide
    Communities participating in Pioneering Healthier Communities 
across the Nation have had success in a number of areas including: 
influencing community walkability and pedestrian safety, access to 
fresh fruits and vegetables, and physical education requirements in 
schools. Specific examples include:
                               Nutrition
    <bullet> A program at five Pittsburgh-area YMCAs makes high-quality 
fresh fruits and vegetables available to community members to purchase 
at lower-than-market prices. This is in an urban area with limited 
access to healthy foods. Response to this program has been 
overwhelming.
    <bullet> In the Quad Cities--an area that overlaps between Illinois 
and Iowa--the community team was able to influence a grocery store 
chain to remodel the floor plans of their new stores to include 
teaching kitchens to help residents learn how to make healthy meals.
Built Environment
    <bullet> In Attleboro, MA they were able to get the right partners 
to the table to collaborate on the creation of an extensive city-wide 
trail system that would also connect to adjacent communities allowing 
commuters an opportunity to engage in physical activity and families an 
area for activity.
    <bullet> The team in Rapid City, SD was able to influence local 
leaders to require that new developments being built have sidewalks. 
They were also able to get ``count-down'' walking signals installed at 
crosswalks.
Where we Live, Work, Learn and Play
    <bullet> The Pittsburgh team worked with a large medical center to 
change organizational policies to provide more time for staff to engage 
in physical activity and for meetings to include healthy foods.
    <bullet> Clearwater, FL was able to restore physical education in 
schools and require licensed child care sites to require 30 minutes of 
daily physical activity by working with policymakers.
    <bullet> In Pittsburgh, the Afterschool with Activate Pittsburgh 
Program--or ASAP--serves about 6,500 low-income kids. As a result of 
the program: 76 percent increased muscular strength, 56 increased 
muscular endurance, and 69 percent increased their flexibility.
    <bullet> The Healthy U Program in Grand Rapids, MI serves about 
3,400 low-
income kids, which has resulted in a dramatic decrease in blood 
pressure and an increase in strength and flexibility. More than 90 
percent of the participating kids improved school attendance, completed 
homework and chose not to smoke, drink or use drugs.

    As you can see there are a good mix of programs, policies and 
environmental changes represented here. All of these things need to 
work together in a community. We know that the programs can change 
behavior, but you need the policies and environmental changes to make 
those behaviors stick.
                     iv. summary and call to action
An Ounce of Prevention is Worth a Pound of Cure
    Our grandmothers and mothers are correct; an ounce of prevention is 
worth a pound of cure. Unfortunately our spending priorities in this 
country don't match up to this fact. For every $1.00 spent on curing a 
problem, only a nickel is spent on prevention. Further we now know, 
thanks to the Trust for America's Health's recent study, there is a 
proven Return on Investment (ROI) for every dollar spent on prevention 
due to a savings in medical costs. Youth obesity caused by inactivity 
and poor nutrition is a very preventable condition. Prevention-based 
solutions have a slow rate of adoption because individuals have 
difficulty in perceiving their relative advantage. But we can increase 
the rate of adoption with the correct incentives and the support of 
healthy relationships. With that support, people will make everyday 
healthy choices that are compatible with their existing values and we 
can increase the rate of adoption.
What Should You Do, Where is the Priority? It Begins With Funding
    <bullet> We support $30 million for the Community Health/Steps 
program at the CDC, including $5 million for the Pioneering Healthier 
Communities initiative which will help community-based organizations 
like the YMCA in their efforts to address this crisis.
    <bullet> We support expanded eligibility and funding for Federal 
nutrition programs, and look forward to working with Senator Harkin 
when the 2009 USDA Reauthorization of Child Nutrition legislation comes 
up next Congress.
    <bullet> We support protecting the $1.1 billion in funding for the 
21st Century Community Learning Centers in the U.S. Department of 
Education Budget; and thank Senator Dodd for his incredible leadership 
in this regard. Nationwide, more than 200 YMCAs receive the U.S. 
Department of Education's 21st. C.C.L.C. funding. As the largest source 
of afterschool funding in the Federal Government, this represents a key 
area in which this committee and others can bring to bear proven 
solutions in addressing childhood obesity. Our YMCA in Connecticut 
operates programs in elementary schools and two local high schools 
through this funding stream. We support the 21st Century Community 
Learning Centers Act of 2007, sponsored by Senator Dodd, which would 
include the provision of physical fitness and wellness programs as 
allowable activities under 21st C.C.L.C.
    <bullet> We support a minimum of $75 million in funding for the 
Carol White Physical Education for Progress (PEP) Grants administered 
by the U.S. Department of Education. PEP grants are the only Federal 
funding for physical education in schools.
    <bullet> As for legislation, we support the following proposals 
introduced by Senator Harkin: (1) The Play Every Day Act (S. 651)--to 
ensure that children and youth achieve the national recommendation of 
60 minutes of physical activity every day; (2) The ``Fit Kids Act'' (S. 
2173)--to expand physical education and physical activity for all 
public school children through grade 12 before, during and after 
school.

Two Legislative Ideas Worth Exploring (Connecticut Local Concepts)
    <bullet> Tax Credits for Urban Environments: Low-income housing tax 
credits have proven effective in encouraging private investment in 
solving the country's housing crisis. Why not create a tax credit to 
encourage investment and development in urban environments to insure 
youth and families have access to safe places and programs aimed at 
increasing physical activity, improving nutrition and creating the type 
of relationships needed among families to change lifestyle behavior and 
sustain that changed behavior over time.
    <bullet> School Credit for Physical Education in non-school hours: 
Another innovative idea we are working on is to allow youth to get 
school credit for participating in physical education activities in 
community agency-based settings during non-school hours. We know that a 
small percentage of schools provide daily physical education or its 
equivalent. This decline of physical activity programs has many causes, 
including parents and school boards desire to increase the academic 
requirements to improve standardized test scores. We should acknowledge 
that the desire to focus on academics will continue and the hours 
available to teachers to accomplish those goals will not change. Thus, 
why not give schools incentives to meet national standards of physical 
education, but allow those standards to be met through participating in 
physical activity and nutrition programs in community-based settings 
like the YMCA.
                  v. conclusion: the ymca and america
    I don't believe that the YMCA can single handedly improve health in 
America--we need governmental, foundation and private support--but I 
don't think health in America can be improved without the YMCA. Our 
charitable mission calls us to support the healthy development of 
children and youth and to help find ways to combat the lifestyle health 
crisis that our children face. We have a history of working through 
partnerships that allow us to bring our collective resources to bear on 
major social issues. After all, don't forget innovation is in our DNA, 
over our 160 years, at the YMCA, we invented basketball, racquetball, 
indoor swimming lessons, we were among the first to serve soldiers on 
the battlefield and introduced youth outreach workers in the 1960's and 
countless other solutions to community need. We hope to match this 
innovation with our passion and reach to address the current crisis in 
childhood obesity. Across the Nation in YMCAs, neighborhoods, schools, 
in small towns and big cities, and in the halls of State and Federal 
Government we are actively engaged and commit to continue to be part of 
the solution to the childhood obesity crisis.
    Thank you to Senator Dodd, Senator Alexander, and the other members 
of the committee for inviting me to this hearing and allowing me to 
share my thoughts on this important issue.
                               Addendum I
Hon. Tom Harkin, Chairman,
Subcommittee on Labor, HHS, and Education, Committee on Appropriations,
731 Hart Senate Office Building,
Washington, DC 20510.

Hon. Arlen Specter, Ranking Member,
Subcommittee on Labor, HHS, and Education,
Committee on Appropriations,
 711 Hart Senate Office Building,
Washington, DC 20510.
    Dear Chairman Harkin and Ranking Member Specter: We are writing to 
urge the highest level of funding possible in the 2009 Labor, HHS 
Appropriations bill for the Centers for Disease Control and Prevention 
(CDC) Community Health/Steps Program. In fiscal year 2007 Steps funding 
was $43 million and fell to $25 million in fiscal year 2008. With the 
crisis of chronic disease and obesity in this country, it is essential 
that CDC has a healthy communities' budget that reflects the severity 
of this burden. So many of the decisions that will turn the tide on 
obesity and chronic disease are in the hands of local decisionmakers 
and we need to provide them with the tools and resources to support 
healthy environments where we live, work, learn and play.
    We need your help to ensure this generation of American children 
outlive their parents and do not suffer from the human and economic 
costs of chronic disease. Years of research and funding have amassed a 
wealth of knowledge and proven strategies to increase physical activity 
and advance healthy eating, but to date that knowledge has not yet 
reached our communities. CDC has convened State and local health 
departments, national organizations with extensive community reach and 
a wide range of local leaders and groups and has a powerful vision of 
how to support the spread of this knowledge and change across the 
Nation.
    Over the last 5 years CDC has made deep inroads into innovative 
strategies to prevent and control chronic disease and risk factors at 
the community level, through the Steps to a Healthier U.S. program and 
the Pioneering Healthier Communities program. CDC has recently launched 
an initiative called ACHIEVE that builds on the work and lessons of 
these and other premiere healthy communities programs. In total, CDC 
has funded 114 initiatives to advance policy and environmental change 
strategies in hundreds of communities to support of healthy eating, 
active living and chronic disease prevention.
    CDC has a comprehensive vision of how to spread community-based 
initiatives that promote policy and environmental change that helps 
people make the healthy choice where they live, work, learn and play. 
Included in this vision is:

    <bullet> A network of mentoring sites that can help spread the 
learning and strategies to additional communities;
    <bullet> Funding of hundreds of new healthy community sites through 
State and local health departments and community-based organizations; 
and
    <bullet> Funding lead national partners with footprints in 
thousands of American communities to continue to explore innovative 
approaches to this community change work.

    Community level interventions show some of the most promising 
approaches to attacking this national crisis of obesity and chronic 
disease. Communities have shown success by:

    <bullet> Restoring physical education (PE) to the school day and 
require 30 minutes of physical activity and healthy snacks in child 
care sites;
    <bullet> Starting or enhancing farmers markets and community 
gardens in areas lacking grocery stores or with limited access to fresh 
fruits and vegetables;
    <bullet> Changing zoning requirements to ensure developments 
include sidewalks;
    <bullet> Building new trails and bike paths; and
    <bullet> Implementing safe routes to school strategies.

    National partnerships have helped CDC work on the ground in 
communities and gain a deeper understanding of how to advance best 
practices and policies at the local level.
    During these difficult budget times, there is no greater challenge 
to the Nation's economy than the cost of treating chronic disease and 
obesity--most of which are preventable. This healthy communities work 
not only recognizes the urgency to focus our communities on preventing 
these diseases and associated conditions but brings together such a 
diverse sector of leaders making the ``real change'' possible.
    Thank you in advance for your consideration of this request that 
will help stem the tide of obesity and chronic disease in this country.
            Sincerely,
                                             National Orgs:
American Association for Health Education; American College Health 
    Association; American College of Preventive Medicine; American 
         Hospital Association; American Public Health Association; 
 Association of State & Territorial Health Officials; Campaign for 
       Public Health; National Association of City & County Health 
     Officials; National Association for Chronic Disease Director; 
 National Recreation and Park Association; Research to Prevention; 
  Society for Public Health Education; Trust for America's Health; 
                                               and YMCA of the USA.

                             State and Local Organizations:
  Activate Elgin, Elgin, IL; Adair County Family YMCA, Kirksville, 
 MO; Alliance of Texas YMCAs; America on the Move in Ft. Wayne, IN 
       American Heart/American Stroke Association, Framingham, MA; 
American Lung Association of PA; Ann Arbor YMCA, MI; Ashland YMCA; 
 Attleboro Area Chamber of Commerce, MA; Attleboro Public Schools, 
 MA; The Battle Creek Family YMCA, MI; Beaumont Metropolitan YMCA, 
     TX; Bikur Cholim-Partners in Health of Monsey, NY; Binghamton 
     Metropolitan Transportation System, NY; Binghamton University 
 Decker School of Nursing, NY; Binghamton University Department of 
    Health and Physical Education, NY; Black Hills Workshop, Rapid 
City, SD; Black Knight Security, NY; Boston Collaborative for Food 
     and Fitness, Boston, MA; Boston Medical Center, Department of 
  Pediatrics, Boston, MA; Boston Public Health Commission, Boston, 
 MA; Boston Public Schools, Boston, MA; Broome County Clerk of the 
    Legislature, NY; Broome County Economic Development Group, NY; 
 Broome County Executive, NY; Broome County Health Department, NY; 
    Broome Tioga BOCES Communications, NY; Broome Tioga BOCES Food 
     Service, NY; Broome Tioga BOCES Professional Development, NY, 
    Broome County YMCA, NY; C. Scott Vanderhoef, County Executive, 
Rockland County, NY; California State Alliance of YMCAs, CA; Casper 
          Wyoming Family YMCA, WY; Center for Community Health and 
 Evaluation, Seattle, WA; Center for MultiCultural Health, Seattle 
WA; Central Connecticut Coast YMCA, CT;Chelsea Community Hospital, 
  Chelsea, MI; Chenango Forks School District, NY; Chenango Valley 
    School District, NY; Chesterfield Family YMCA, SC; Chiku Awali 
 African Dance Company of Rockland, Inc., NY; Child Care Resources 
                                             of Rockland, Inc., NY;
 Clallam County YMCA, Inc., WA;Clark County Family YMCA, WA; Clear 
Channels Radio, NY;Central New York Kidney Foundation, NY; The City 
of Pueblo, CO; City of St. Louis Department of Health, MO; Colorado 
 State Alliance of YMCAs, CO; Community Choices, Clark County, WA; 
Community Mediation Institute, Wilkes-Barre, PA; Connellsville Area 
 School District, PA; Corner Health Center, Ypsilanti, MI; Crowder 
       College, MO; Crusader Clinic, Rockford, IL; Cumberland Cape 
  Atlantic YMCA, NJ; Custer YMCA, SD; Department of Public Health, 
   Cleveland, OH; Diabetes Management and Nutrition Center Wyoming 
Valley Health Care System, Kingston, PA; Dryades YMCA, New Orleans, 
LA; Edgemont YMCA, SD; Eugene YMCA, OR; Family Resource Network of 
  the Panhandle, Inc., Martinsville, WV; Family YMCA of Black Hawk 
      County, Waterloo, IA; Fargo-Moorhead Family YMCA, ND and MN; 
 Fayette County Community Health Improvement Partnership, PA; Feet 
      First, Seattle, WA; Fort Worth Public Health Department, IN; 
 Freeman Health System, Neosho, MO; Freeman Neosho Hospital, Inc., 
 MO; Freeman Southwest Family YMCA, Neosho, MO; Gamma Theta Omega, 
 Inc., Tampa, FL; Get A Move On, Dallas, TX; Grants Pass YMCA, OR; 
      Greater Binghamton Chamber, NY; Greater Elgin Area YMCA, IL; 
Greater Pittston YMCA, PA; Greater Wilkes-Barre Chamber of Business 
   & Industry (HR Committee), Wilkes-Barre, PA; Harvard Prevention 
   Research Center on Nutrition and Physical Activity, Boston, MA; 
Hazleton YMCA & YWCA, PA; Healthier Berkeley County, WV; Healthier 
    Jefferson County, WV; Hockomock Area YMCA, MA; Hopewell Valley 
YMCA, NJ; Hot Springs YMCA, AR; Idaho Falls Family YMCA; Interfaith 
   Resource Center for Peace and Justice, Wilkes-Barre, PA; Itasca 
Community College, Grand Rapids, MN; Itasca County Family YMCA, MN; 
     Janet Weis Children's Hospital, Danville PA; Jawonio Inc., NY 
  Jewish Family Service, Wilkes-Barre, PA; Johnson and Associates, 
    Albuquerque, NM; Johnson City School District, NY; Joint Urban 
Studies Center, PA; Jonesboro YMCA, AR; Justice Resource Institute, 
  Boston, MA; Keep Rockland Beautiful, Inc., NY; Ken Baxter Senior 
Community Center, Marysville, WA; Kit Clark Senior Services, Inc., 
Boston, MA; Kitsap Family YMCA, WA; La Crosse Area Family YMCA, La 
       Crosse, WI; La Voz Latina, Rockford, IL; Lake-Lehman School 
   District, PA; Little Rock YMCA, AR; Local and National List for 
    Hudson Health Plan and Case Management Society of America, NY; 
   Luzerne County Breastfeeding Coalition, PA; Maternal and Family 
 Health Services, Inc., Wilkes-Barre, PA; Marion-Polk County YMCA, 
  OR; Marshalltown Medical & Surgical Center, WV; Marysville Parks 
  and Recreation, WA; Mayor Dennis L. Kendall, City of Marysville, 
   WA; Mayor Kevin J. Dumas, Attleboro, MA; Mayor Larry Morrissey, 
Rockford, IL; Mayor Matthew T. Ryan, Binghamton, NY; Mental Health 
       America of Pueblo, CO; Mexico Area Family YMCA, Mexico, MO; 
  Michigan Inter-Tribal Council, MI; Mid-Delmarva Family YMCA, MD; 
Mid-Willamette Family YMCA, OR; Neponset Health Center, Boston, MA; 
 Newport County YMCA, RI; Nyack Teacher Center, NY; Oneonta Family 
     YMCA, NY; Oregon State Alliance, OR; Orville YMCA, OH; Ozarks 
          Regional YMCA, MO; Palestine YMCA, TX; Palmer College of 
Chiropractic, IA; Parkview Medical Center, Pueblo, CO; Partners in 
   Community Care, NY; Pennsylvania Department of Health, Diabetes 
Prevention Program, PA; Pioneering a Healthier Marshall, Marshall, 
 MN; Plainview YMCA, TX; Public Health--Seattle & King County, WA; 
 Pueblo City--County Health Department, in Pueblo, CO; Pueblo Step 
   Up, CO; Quad City Health Initiative, IA and IL; Rockford Health 
  Council, Rockford, IL; Rockland County Department of Health, NY; 
          Rockland County YMCA, NY; Rogue Valley YMCA, OR; Roxbury 
    Comprehensive Community Health Center, Inc., Boston, MA; Rural 
Health Network, NY; Sarah Walker, MA, University of Binghamton, NY; 
   Scene International, NY; Scott County Family YMCA, IA; Seabrook 
 YMCA, AR; Shasta Family YMCA, CA; Sidney Borum Jr. Health Center, 
Boston, MA; Smithfield YMCA, RI; South End Community Health Center, 
   Boston, MA; South Sound YMCA, WA; Southern Jamaica Plain Health 
  Center, Boston, MA; St. James Middle School, NY; Sturdy Memorial 
  Hospital, MA; Superintendent Pia Durkin, Ph.D., Attleboro Public 
 Schools, MA; Tacoma-Pierce County Health Department, WA; Tecumseh 
YMCA, OH; Tillamook County Family YMCA, OR; Town of Orangetown, NY 
Parks and Recreation, NY; Trane Manufacturing, Pueblo CO; Treasure 
Valley YMCA, Boise, ID; Two Rivers YMCA, IL; Union Endicott School 
     District, NY; Uniontown Area YMCA, PA; Unitarian Universalist 
   Congregation of the Wyoming Valley, Kingston, PA; United Health 
  Services, NY; United Medical Associates, NY; UW Health Pediatric 
      Fitness Initiative; Warren YMCA, AR; Washtenaw County Public 
Health, MI; Wayne County YMCA, PA; WBNG TV, NY; Wilkes-Barre Family 
 YMCA, PA; Wilkes-Barre City Health Department, PA; Wyoming Valley 
 Wellness Trails Partnership, Wilkes-Barre, PA; WV Kids in Action, 
                       WV; YMCA at Washington State University, WA;
   YMCA of Abilene, TX; YMCA of Attleboro, MA; YMCA of Austin, TX; 
  YMCA of the Brandywine Valley, PA; YMCA of the Capital Area, LA; 
YMCA of Central New Mexico, NM; YMCA of the Coastal Bend, TX; YMCA 
   of Columbia-Willamette, OR; YMCA of Corsicana, TX; YMCA of Dane 
County, WI; YMCA of Delaware, DE; YMCA of Eastern Union County, NJ; 
   YMCA of El Paso, TX; YMCA of the Fox Cities, WI; YMCA of Gray's 
      Harbor, WA; YMCA of the Golden Crescent, TX; YMCA of Greater 
   Cleveland, OH; YMCA of Greater Dallas, TX; YMCA of Greater Fort 
      Wayne, IN; YMCA of Greater Grand Rapids, MI; YMCA of Greater 
         Houston, TX; YMCA of Greater Kansas City; YMCA of Greater 
  Louisville, KY; YMCA of Greater New Orleans, LA; YMCA of Greater 
        Omaha, NE; YMCA of Greater Pittsburgh, PA; YMCA of Greater 
Providence, RI; YMCA of Greater Rochester, NY; YMCA of Greater San 
     Antonio, TX; YMCA of Greater Seattle, WA; YMCA of Greater St. 
    Louis, MO; YMCA of Greater St. Petersburg, FL; YMCA of Greater 
 Tampa, FL; YMCA of the Greater Tri-Cities, WA; YMCA of the Inland 
       Northwest, Spokane, WA; YMCA of Kanawha Valley, WV; YMCA of 
  Lincoln, NE; YMCA of Marshalltown, IA; YMCA of Memphis & the Mid-
  South, TN; YMCA of Metropolitan Denver, CO; YMCA of Metropolitan 
        Ft. Worth, TX; YMCA of Metropolitan Milwaukee, WI; YMCA of 
   Metropolitan Tucson, AR; YMCA of Moore County, TX; YMCAs of New 
 York State, NY, YMCA of Orange County, CA; YMCA of the Pikes Peak 
   Region, CO; YMCA of Pueblo, CO; YMCA of Rapid City, SD; YMCA of 
Rock River Valley, IL; YMCA of Rye, NY; YMCA of San Francisco, CA; 
YMCA of Snohomish County, WA; YMCA of Southern Nevada, NV; YMCA of 
 the Suncoast, FL; YMCA of Tacoma-Pierce County, WA; YMCA of Walla 
    Walla, WA; YMCA of Western North Carolina, Asheville, NC; Yuma 
                                                   Family YMCA, AZ.
                              Addendum II
                     Community Healthy Living Index
   Activate America Community Healthy Living Index: Tools To Change 
                            Your Environment
    The Community Healthy Living Index (CHLI) is a compilation of 
community assessment tools that measure opportunities for physical 
activity and healthy eating in areas that impact an individual's daily 
life. These tools also facilitate discussion to determine actions for 
improvement in the community environment to increase opportunities for 
healthy living.
    A host of local experts, including representatives from 
governmental agencies, non-for-profits, and academic institutions have 
collaborated to create these tools. YMCA of the USA, Stanford 
University, Harvard University, and St. Louis University have co-led 
the effort with funding from the Centers for Disease Control and 
Prevention (CDC).
    The specific areas that the community assessment tools focus on 
are: (1) schools, (2) afterschool child care sites, (3) work sites, (4) 
neighborhoods, and (5) the community at large. Team members who 
participate in this process will be able to plan for policy and 
environmental change strategies, identify and remove barriers, and 
expand opportunities for healthy living in communities where 
individuals of all ages live, work, learn, and play. The ultimate aim 
of this work is not to assess where these sites are today, but to set a 
course for where they can go tomorrow and how they will build 
environments that support healthy living.
    CHLI has been developed from the YMCA perspective because YMCAs 
serve a vital role as trusted conveners and action-oriented 
organizations in nearly 10,000 communities across the Nation.
    The CHLI assessment and improvement plan process needs to take 
place with the engagement of a broad set of community stakeholders. It 
is currently undergoing pilot testing in eight communities around the 
United States. Once the tools are finalized and approved for broader 
distribution, YMCAs will take the lead in their communities to convene 
stakeholders and facilitate the assessment and improvement planning 
process. YMCAs cannot do this work alone; it will be incumbent on local 
and community leaders to assess, discuss, design, and implement 
improvement plans.
                              Addendum III
                Statement of the YMCA--Activate America
                    pioneering healthier communities
    1. 2004: Santa Clara & South San Mateo Counties, CA; Boulder, CO; 
State of Delaware; Des Moines, IA; Boise, ID; Tampa, FL; St. Louis, MO; 
Rochester, NY; Pittsburgh, PA; Dallas, TX; Seattle, WA; State of West 
Virginia; Milwaukee, WI.
    2. 2005: State of Arkansas; Tucson, AZ; Orange County, CA; 
Clearwater, FL; Marshalltown, IA; Lexington, KY; Shreveport, LA; 
Attleboro, MA; West Michigan (Grand Rapids); Marshall, MN; Springfield/
Greene County, MO; Charlotte, NC; Lincoln, NE; Rye, NY; Tulsa, OK; 
Chester County (Brandywine Valley), PA; Greater Greenville, SC; Rapid 
City, SD; Tarrant County (Fort Worth), TX; Dane County (Madison), WI.
    3. 2006: Shasta County, CA; Central Connecticut Coast; Elgin, IL; 
Quad Cities, IL and IA; Fort Wayne, IN; Greater Louisville, KY; Mid 
Coast Maine; Mid-Delmarva, MD; Rahway, NJ; Champaign County, OH; 
Cleveland, OH; Memphis, TN; Fox Cities, WI.
    4. 2007: San Francisco, CA; Colorado Springs, CO; Longmont, CO; 
Rockford, IL; Hockomock Region, MA; Ann Arbor, MI; Battle Creek, MI; 
Itasca County, MN; Asheville Area, NC; Fargo, ND; and Moorhead, MN; 
Omaha, NE; Woodbridge, NJ; New York, NY; Providence, RI; Chesterfield/
Darlington/Hartsville, SC; La Crosse, WI; Marysville, WA; Spokane, WA.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              Addendum IV
  National Survey: Majority of U.S. Parents Don't Enforce Good Health 
    Habits in Their Household--Most Parents are Unaware That Their 
     Children's Generation May Have Shorter Lifespan Than Their Own
   ymca of the usa, eli lilly and company create healthy family home 
                   program to fight childhood obesity
    New York (March 11, 2008).--Nearly half of parents \1\ admit their 
family is not eating a balanced diet, and more than three in four 
concede that some family members do not practice good health habits, 
according to a new national survey released today by YMCA of the USA 
and Eli Lilly and Company.
---------------------------------------------------------------------------
    \1\ For the purposes of this survey, ``parents'' were defined as 
U.S. adults ages 18+ who are the parent or legal guardian of a child 
under the age of 18 living in their household (n = 461).
---------------------------------------------------------------------------
    Nevertheless, most American parents expect their children's 
generation to have a longer lifespan than their own, or to live just as 
long, the survey showed. Such optimism has been rejected by research 
that has concluded that the current generation under the age of 18 may 
be the first in 200 years to have a shorter lifespan than their 
parents. The main culprit is obesity, caused by lack of physical 
activity and poor nutrition.
    If not slowed or reversed, the rapid rise in childhood obesity 
could shorten lifespans by as much as 5 years, according to researchers 
who say the problem has grown worse in the 3 years since their study 
was published in the New England Journal of Medicine in March 2005.
    Responding to this crisis, YMCA of the USA and Lilly are partnering 
to create a program called Healthy Family Home 
(www.HealthyFamilyHome.org) to help the entire family work together at 
home to make healthier choices and live healthier lives. Successful 
pilot programs have been completed at five YMCAs, and the program 
launches nationwide during YMCA Healthy Kids' Day at more than 1,700 
YMCAs next month.
    ``The family home is the place that defines, creates and predicts a 
family's lifelong health and well-being,'' said Lynne Vaughan, Chief 
Innovation Officer for YMCA of the USA. ``Healthy Family Home empowers 
families to create a home environment that supports healthy living. 
It's a program that can work for any kind of family in any kind of 
home, regardless of whether the family lives near a YMCA.''
    Healthy Family Home provides families with practical, flexible 
tools and support for making lasting changes for a healthier, happier 
life. Actions aimed at the whole family that lead to small, sustained 
changes--like eating better, getting exercise and connecting as a 
family--are proven to have a long-term impact.
    ``We are a nation struggling with obesity and other chronic 
diseases that are lifestyle-related and often preventable,'' said 
Kristine Courtney, M.D., an internist and Director of Corporate Health 
Services at Lilly. ``Lilly is proud to support the Healthy Family Home 
program, which jumpstarts and supports a family's efforts to be healthy 
in practical ways.''
   healthy family home starter kit offer tips, ideas free on web site
    In April, the ``Healthy Family Home Starter Kit,'' a free guide 
with tips for healthy living, will be available at local YMCA Healthy 
Kids Day events and on www.HealthyFamilyHome.org. The Healthy Family 
Home program is designed to work in any home and in any community, and 
lets families pick the actions and health goals that make the most 
sense for them. A sample from the Healthy Family Home Starter Kit:

    1. Make family time. Sit down as a family for one meal a day. 
Research has shown that family meals are more nutritious than ``solo'' 
meals and kids who eat with their family end up making healthier snack 
choices.
    2. Sneak in more physical activity. Plan a weekly family breakfast 
where you are the transportation. Skip the car, bus or train and ride 
bikes, walk or jog/run.
    3. Get more fruits and vegetables in your diet. Have all family 
members identify their favorite fruit and write each one down on a 
list. Then fill a family fruit bowl with those fruits and keep it on 
the counter. This way everyone in the family will have easy access to 
their favorite fruit when they're looking for a snack.
    4. Make getting exercise fun. Turn up the music and do chores 
together (clean the house, wash windows, do laundry, etc.).
   national survey: parents unaware of toll of obesity on children's 
                                lifespan
    According to an online survey conducted by Harris Interactive on 
behalf of YMCA of the USA and Lilly, parents spend more time worrying 
more about their children's health than their own (48 percent versus 33 
percent), yet most believe their children's generation will live longer 
than their own (57 percent said longer; 32 percent said about the same; 
11 percent said shorter).
    The survey also showed that most parents know what behaviors are 
elements of a healthier lifestyle, yet many just cannot seem to put 
that knowledge into practice. For example, 91 percent of parents know 
their family should eat a balanced diet, yet only 56 percent say their 
household does, and 93 percent know their family should exercise 
regularly, yet only 45 percent say their household does. While 59 
percent of parents say that everyone in the family knows what they 
should be doing to lead a healthy lifestyle, only 23 percent say 
everyone in the family practices good health habits.
    The top five barriers to putting what is preached into practice are 
lack of time (48 percent), lack of motivation (46 percent), lack of 
willpower (45 percent), lack of money (36 percent) and lack of 
participation from some members of the family (29 percent).
experts: reverse obesity trend with bite-sized changes in american home 
                                  life
    Experts in public health say that while genetics may play a role in 
obesity, the gene pool has not changed enough over recent decades to 
explain the dramatic rise in obesity. Rather, it's the Nation's gradual 
move, ``quarter step by quarter step,'' toward less physical activity 
and more food that is processed or high in saturated fat that has 
pushed up obesity rates, says Wesley Alles, Ph.D., Director of the 
Health Improvement Program at Stanford University and an adviser to 
Activate America, the YMCA's response to our Nation's growing health 
crisis.
    That trend can be reversed, quarter step by quarter step, through 
programs like the YMCA-Lilly Healthy Family Home. Seemingly small but 
extremely manageable changes like adding a fruit or vegetable to every 
meal or getting the entire family together for a 20-minute walk around 
the block three times a week add up and make a difference, experts say.
    ``For all the interventions at school and elsewhere, kids do most 
of their eating and physical activity at home,'' says Jean Wiecha, 
Ph.D., Senior Research Scientist at Harvard School of Public Health and 
an adviser to Activate America. ``Kids are always observing their 
parents and their siblings and this is how they get an idea of what 
behavior is considered normal. The reverse is also true: children can 
affect grown-ups' behavior and health by influencing what foods the 
family eats and what activities they engage in. The home has a circular 
dynamic that is very different from what takes place in other settings 
like school or in the doctor's office.''
      success at pilots in san diego, nyc, indianapolis, chicago, 
                            marshalltown, ia
    Five pilot programs at YMCAs across the country have already 
sparked small but meaningful changes in families. In New York City, the 
Carles family is now walking to the deli rather than driving. In San 
Diego, the Alcala family now stocks the pantry with brown rice rather 
than white rice and buys cereal only if it has a minimum of 3 grams of 
fiber. In Indianapolis, the Rowland's family's snack cabinet has been 
stripped of trans fats and located to the bottom of the refrigerator: 
the fruit drawer, filled with intriguing new choices including mangos 
and Ugly Fruit.
    ``What I got out of this program was more participation from my 
husband and kids as a family trying to be healthy. It's hard to be the 
only one. It doesn't work out,'' said Jennifer Alcala, a client 
services worker, who lives with her husband, a mechanic, three sons and 
a nephew; the oldest of the kids is 14.
    ``Now I have a starting point so I can say `Remember what we did at 
the Y? Let's eat fruit instead of something sugary. Let's walk around 
the block. Let's get back on track.' It's not just Mom saying this on 
her own. Sometimes you need a third parent and that's what the Y is,'' 
said Bridget Carles, an after-school teacher who lives with her 
husband, a city government contract specialist, and their three 
teenagers.
                             survey details
    The Family Health Issues survey was conducted online within the 
United States by Harris Interactive on behalf of YMCA of the USA and 
Lilly between February 6 and February 8, 2008, among 2,015 U.S. adults 
ages 18+, of whom 461 are parents or legal guardians of children under 
18 who are living in their household. This online survey is not based 
on a probability sample and therefore no estimates of theoretical 
sampling error can be calculated. Complete methodology is available 
upon request.
                            ymca of the usa
    YMCA of the USA is the national resource office for the Nation's 
2,663 YMCAs, which serve nearly 20.2 million people each year, 
including 9.4 million children under the age of 18. Through a variety 
of programs and services focused on the holistic development of 
children and youth, health and well-being for all and family 
strengthening, YMCAs unite men, women and children of all ages, faiths, 
backgrounds, abilities and income levels. From urban areas to small 
towns, YMCAs have proudly served America's communities for nearly 160 
years by building healthy spirit, mind and body for all.
    Activate America is the YMCA's response to our Nation's growing 
health crisis. YMCAs are redefining themselves and engaging communities 
across the country to better support Americans of all ages who are 
struggling to achieve and maintain well-being of spirit, mind and body. 
Visit www.ymca.net to find your local YMCA.
                         eli lilly and company
    Lilly, a leading innovation-driven corporation, is developing a 
growing portfolio of first-in-class and best-in-class pharmaceutical 
products by applying the latest research from its own worldwide 
laboratories and from collaborations with eminent scientific 
organizations. Headquartered in Indianapolis, Ind., Lilly provides 
answers--through medicines and information--for some of the world's 
most urgent medical needs. Additional information about Lilly is 
available at www.lilly.com.
                        about harris interactive
    Harris Interactive is one of the largest and fastest-growing market 
research firms in the world. The company provides innovative research, 
insights and strategic advice to help its clients make more confident 
decisions which lead to measurable and enduring improvements in 
performance. Harris Interactive is widely known for The Harris Poll, 
one of the longest running, independent opinion polls, and for 
pioneering online market research methods. The company has built what 
it believes to be the world's largest panel of survey respondents, the 
Harris Poll Online. Harris Interactive serves clients worldwide through 
its North American, European and Asian offices, and through a global 
network of independent market research firms. More information about 
Harris Interactive may be obtained at www.harrisinteractive.com.
                               Addendum V
     Partnership to Fight Chronic Disease Launches National Almanac
    The PFCD offers a united voice that injects common-sense, patient-
focused policies and practices into the local and national dialogue on 
important health care issues and works to:

    <bullet> Increase access to high-quality health care, including 
preventive care;
    <bullet> Promote health and wellness;
    <bullet> Help reduce health disparities;
    <bullet> Eliminate bureaucracy in the health system; and
    <bullet> Enhance health information.

    Help us make a difference: attend local and national events, work 
to improve your health and the health of others, explore model programs 
that make a difference, and arm yourself with the knowledge to 
instigate change.
    The 2008 ``Almanac of Chronic Disease'' presents comprehensive 
facts that characterize the crisis of chronic disease and how it is 
contributing to problems with access, affordability and quality of 
care. In five chapters, we provide information and commentary by health 
care experts and advisory board members from the Partnership to Fight 
Chronic Disease, on:

    <bullet> The human cost of chronic disease;
    <bullet> The economics of chronic disease;
    <bullet> The costs of chronic disease tomorrow;
    <bullet> Opportunities for improvement; and
    <bullet> Public understanding of the problem.

    It is our hope that this Almanac will serve as a key reference 
point for where our Nation can focus its attention with respect to 
reforming our health care system.
    For additional information, please go to: http://
ww.fightchronicdisease.org/re-
sources/documents/PFCD_FINAL_PRINT.pdf.

    Senator Dodd. Thank you very much, Mr. Dwyer. We appreciate 
it very much.
    Ms. Neely, thank you for being with us.

   STATEMENT OF SUSAN K. NEELY, PRESIDENT AND CEO, AMERICAN 
              BEVERAGE ASSOCIATION, WASHINGTON, DC

    Ms. Neely. Well, thank you, sir.
    I am Susan Neely, president and CEO of the American 
Beverage Association, representing the manufacturers and 
distributors of nonalcoholic beverages in this country.
    Of all the things you shared from my biography, you left 
out the most important part: that I am the mother of two 
elementary school-age children. So it is a privilege to be here 
to talk about real solutions to this national epidemic that we 
face, both on behalf of the great industry I represent, and as 
the mother who has a large stake in the outcomes of these 
deliberations.
    To do my best to hold up my end of this distinguished panel 
and talk about some concrete solutions that this industry has 
been part of, I want to tell you about a couple of things. One 
is the agreement that we reached with the Clinton Foundation, 
the American Heart Association that had formed a partnership 
called the Alliance for a Healthier Generation. Governor 
Huckabee was co-chair of that effort at the time that we formed 
this agreement.
    As part of their initiative to promote healthy behaviors 
through physical activity and good nutrition in schools, we 
agreed to implement a school beverage standard in all the 
schools across this country. The school beverage standard or 
guidelines are based on input from parents and educators that 
said younger children should have more limited choices, and so 
our policy reflects that.
    For elementary and middle schools, it is milk, juice, and 
water only. Based on the same input that said high school 
students should have more choice, the policy offers more choice 
of beverages, but only in the no-, low-calorie options or in--
for the nutritious beverages, such as 100 percent juice, in 
smaller portion sizes.
    We are implementing this policy, this low-calorie, good 
nutrition policy in schools across the country. We have been at 
it for 2 years. Our Memorandum of Understanding (MOU) promised 
that we would have this completely implemented across the 
country in 3 years. At the end of the first year, which was 
last year, 2007, we had hit all of the markers in the MOU, and 
I am proud to say that 41 percent fewer calories were being 
shipped in beverages to schools.
    We have just closed this year at the end of June. It is 
based on the school year. Dr. Robert Westcott, who was an 
economist in the Clinton administration, is compiling the data. 
The early returns look very promising. The marker that we 
intend to meet on the second year is that 75 percent of schools 
under contract in this country will be in compliance with our 
policy, and I look forward to sending you a good report that we 
have met that marker as well.
    So, again, we have 1 year left on our MOU, and it is a 
concrete program that is being implemented across the country.
    Second, we have gone the next step in terms of our 
marketing programs to children and through the International 
Coalition of Beverages Associations have agreed to marketing to 
children guidelines that are very comprehensive. They are 
global and very significant.
    Similar to the philosophy or the approach on our school 
beverage guidelines that are really intended to reinforce the 
role of parents and other adults as gatekeepers of information 
for young children, these marketing to children guidelines seek 
to do that and are another responsible step forward and another 
responsible commitment on the part of our industry.
    In conclusion, I would just again reiterate that we are 
committed to being part of the solution to fight childhood 
obesity. We are providing the impetus for change in our 
communities, and we will continue to look for ways to be a 
leader on this issue. To that end, I will tell you that we 
believe in our school beverage standard so strongly that we 
have called for legislation to establish a national beverage 
standard.
    We are proud to support Senator Harkin and Murkowski's 
amendment to the Farm bill last year that would, in fact, 
establish such a standard. It was backed by a very strong 
coalition that represented the public health community as well 
as the food and beverage industry. We would hope that those 
Senators and others will support such a standard again, and if 
they do, we are ready to support them and that initiative.
    Again, thank you very much for the opportunity to be here.
    [The prepared statement of Ms. Neely follows:]
                  Prepared Statement of Susan K. Neely
                              introduction
    Good morning, Mr. Chairman and members of the committee. Thank you 
very much for the invitation to appear before the committee to discuss 
current efforts to explore meaningful solutions to the Nation's 
childhood obesity problem.
    I am Susan K. Neely, President and CEO of the American Beverage 
Association (ABA). As a representative of the Nation's beverage 
industry and the mother of two elementary school children, I applaud 
the committee for holding a hearing on an issue that is critical to the 
health of our children. I also want to thank the Chairman and Ranking 
Member for your continued leadership on this issue over the years.
    The American Beverage Association has been the trade association 
for America's non-alcoholic refreshment beverage industry for more than 
85 years. Founded in 1919 as the American Bottlers of Carbonated 
Beverages and renamed the National Soft Drink Association in 1966, ABA 
today represents hundreds of beverage producers, distributors, 
franchise companies and support industries. ABA's members employ more 
than 211,000 people who produce U.S. sales in excess of $88 billion per 
year.
    According to John Dunham and Associates, Inc., direct, indirect and 
induced employment in the beverage industry means 2.9 million jobs that 
create $448 billion in economic activity. At the State and Federal 
level, beverage industry firms pay more than $27 billion in Federal 
taxes and more than $21 billion in taxes paid to State governments. The 
beverage industry and its employees are active members of their 
communities throughout America who have generously contributed at least 
$1.4 billion to charities across the country. In fact, we are leading 
the way when it comes to doing ones part to help children achieve a 
balanced lifestyle.
    ABA members market hundreds of brands, flavors and packages, 
including diet and full calorie carbonated soft drinks, ready-to-drink 
teas and coffees, bottled waters, fruit juices, fruit drinks, dairy-
based beverages, and sports drinks.
                 adoption of school beverage guidelines
    The American Beverage Association agrees that the obesity crisis is 
a complex, national challenge that requires us to re-examine old 
practices and find new solutions. All of us--policymakers, parents, 
educators, industry and community leaders--have a responsibility to do 
our part to help teach our children how to have a healthy life style. I 
am proud to report that the American beverage industry is doing just 
that.
    In May 2006, the American Beverage Association, Cadbury Schweppes 
Americas Beverages, The Coca-Cola Company and PepsiCo teamed up with 
the Alliance for a Healthier Generation (a joint initiative of the 
William J. Clinton Foundation and the American Heart Association) to 
develop new School Beverage Guidelines that limit calories and increase 
nutritious beverages in schools.
    We agree with parents and educators that schools are special places 
and play a unique role in shaping our children's health. The guidelines 
provide students with a broad array of lower- and no-calorie options 
along with nutritious and smaller-portioned beverages to help kids 
build healthy habits as they learn to balance the calories they consume 
with the calories they burn. The guidelines are designed to balance 
children's nutritional and hydration needs with appropriate caloric 
consumption for their age.
                             the guidelines
Elementary School
    <bullet> Bottled water.
    <bullet> Up to 8 ounce servings of milk and 100 percent juice.

        <bullet>  Low fat and non-fat regular and flavored milk and 
        nutritionally equivalent (per USDA) milk alternatives with up 
        to 150 calories/8 ounces.
        <bullet>  100 percent juice with no added sweeteners, up to 120 
        calories/8 ounces, and with at least 10 percent daily value of 
        three or more vitamins and minerals.
Middle School
    <bullet> Same as elementary school except juice and milk can be 
sold in 10 ounce servings.
    <bullet> As a practical matter, if middle school and high school 
students have shared access to areas on a common campus or in common 
buildings, then the school community has the option to adopt the high 
school standards.
                              high school
    <bullet> Bottled water.
    <bullet> No or low-calorie beverages with up to 10 calories/8 
ounces (e.g., diet soft drinks, diet and unsweetened teas, fitness 
waters, low-calorie sports drinks, flavored waters, seltzers).
    <bullet> Up to 12 ounce servings of milk, light juice, 100 percent 
juice and certain other drinks.

        <bullet>  Low fat and no-fat regular and flavored milk and 
        nutritionally equivalent (per USDA) milk alternatives with up 
        to 150 calories/8 ounces.
        <bullet>  100 percent juice with no added sweeteners, up to 120 
        calories/8 ounces, and at least 10 percent daily value of three 
        or more vitamins and minerals.
        <bullet>  Other drinks with no more than 66 calories/8 ounces 
        (e.g., light juices and sports drinks).

    <bullet> At least 50 percent of non-milk beverages must be water 
and no or low-calorie options.

    For elementary and middle schools, we limit the beverage offerings 
to water, milk and juice because parents believe, and we agree, that 
younger children need more guidance to choose foods and beverages 
appropriate for their nutrition and caloric needs.
    By the time students reach high school, parents believe children 
should have more freedom to choose their food and beverages during the 
school day. These guidelines provide more options for older children, 
while still capping calories and portion-sizes.
    No full calorie soft drink products will be offered in any grade.
    We hope the committee appreciates the extraordinary steps our 
companies are taking with these guidelines. Our companies are removing 
full-calorie soft drinks from elementary, middle and high schools 
throughout America--an unprecedented move by a member of the broader 
food and beverage industry. They're also reducing the portion sizes of 
many beverages and capping the calories of products offered in schools. 
This is all happening right now in schools across America. And this 
change does not come without real cost and risk to the industry.
              guidelines developed using nutrition science
    The American Heart Association wielded great influence in the 
development of the School Beverage Guidelines along with the Clinton 
Foundation and the beverage industry.
    The guidelines were designed using nutrition science, including the 
Dietary Guidelines for Americans, 2005 as well as the American Heart 
Association's Dietary Guidelines for Healthy Children and 2006 Diet and 
Lifestyle Recommendations in order to balance children's nutritional 
needs with the requirement to manage caloric consumption. The 
guidelines are also developmentally appropriate, taking the age of the 
student into great account. They balance children's nutritional and 
hydration needs with appropriate caloric consumption.
    By using nutrition science, along with parental concerns, we were 
able to develop guidelines that are responsive to concerns about school 
wellness and that will make a meaningful impact on our children.
               parents support this commonsense approach
    We are very proud of these guidelines and are happy to report that 
parents think we've struck the right balance by limiting calories and 
increasing nutritious offerings in schools. A nationwide survey showed 
that 82 percent of parents surveyed support our school beverage 
guidelines. In fact, they clearly support our school beverage 
guidelines over more restrictive alternatives.
    When asked to choose between the School Beverage Guidelines and a 
policy that provided bottled water, 100 percent juice, and low fat milk 
for K-12, parents supported our guidelines by a margin of 56 percent to 
42 percent. And when asked if they preferred our guidelines or a 
complete vending ban in schools, they chose the guidelines by a margin 
of 82 percent to 14 percent.
    Some of the reasons parents gave for supporting the guidelines:

    <bullet> They appreciate the age-appropriateness of the policy.
    <bullet> They like that it limits choices for younger students.
    <bullet> Most feel that high school students are old enough to make 
choices.

    Additionally, 88 percent of health professionals surveyed, 
including pediatricians, family physicians, dieticians, and 
nutritionists, support the School Beverage Guidelines.
    This poll was conducted of 700 parents (59 percent female/42 
percent male) by the highly respected Public Opinion Strategies firm, 
which is the research firm for the NBC News/Wall Street Journal poll.
    The parents responding to the survey reaffirm that our policy makes 
good sense. It is based on sound nutrition and reflects the reality of 
how most of us live. Like grown-ups, kids want to drink both nutritious 
and enjoyable beverages. As a result of these guidelines, schools can 
help our children learn to choose beverages that are lower in calories 
and/or high in nutrition.
                      committed to implementation
    The beverage industry is working hard to implement these 
guidelines. Since we signed the Memorandum of Understanding (MOU) with 
the Alliance for a Healthier Generation, our companies have spent 
hundreds of hours training their marketing and sales teams about the 
guidelines. These teams have reached out to school contract partners to 
educate them. Our companies have reformulated products. They have 
created new package sizes to meet the smaller portion sizes required in 
the guidelines. And, they are retrofitting vending machines to 
accommodate the changes in package sizes.
    In addition, both the Alliance for a Healthier Generation and the 
industry are continuing our outreach efforts with schools and national 
education groups to garner their support to implement the guidelines. 
The Alliance offers a web-based educational tool kit and product 
catalog so that schools can more clearly understand what beverages fit 
the guidelines when they enter into or amend contracts.
    The School Beverage Guidelines MOU requires full implementation of 
the guidelines by August 2009. Dr. Robert Wescott, an independent 
economist and member of the Clinton administration, is overseeing the 
process to gather and evaluate both sales volume and contract data from 
thousands of bottlers and schools across the country. This is not a 
simple process, but the work is well underway.
    Our first year report showed a 41 percent decline in beverage 
calories shipped to schools. We believe this was a tremendous step 
forward.
    The goal for our second year of implementation is to have 75 
percent of school contracts in compliance--nationwide. As we speak, Dr. 
Wescott is analyzing the data for his next report which is due out in 
September. I am optimistic that we will meet that goal and be well on 
our way to full implementation next year.
    In fact, our commitment to implementation was clearly demonstrated 
last year when we worked with Senate Agriculture Committee Chairman Tom 
Harkin during Farm bill reauthorization to forge agreement on an 
amendment establishing nutrition standards for foods and beverages sold 
in schools outside of the reimbursable meal program.
    In addition, we were strong supporters of the Harkin-Murkowski 
School Nutrition Amendment. That amendment included beverage standards 
that closely mirrored the Guidelines, however Senate procedures 
precluded the amendment's consideration. As that committee considers 
reauthorization of the Child Nutrition Act next year, we will continue 
to work with Senator Harkin and Chairman George Miller in the House to 
demonstrate our commitment to this commonsense approach that balances 
good nutrition with the practical needs of schools.
    In fact, the ABA and our member companies would propose and support 
codification of our School Beverage Guidelines. Whether that is done in 
the Child Nutrition Act--or in another form--we believe, and many 
parents agree, that the School Beverage Guidelines should be the law of 
the land.
    This would help our member companies, school administrators and 
parents move forward knowing what the Federal Government expects--in a 
way that is based in sound science and appropriate public policy.
                  bold steps on marketing to children
    Another example of our commitment to healthy children is 
demonstrated by the recent adoption of a new policy on marketing to 
children.
    Earlier this year the International Council of Beverages 
Associations (ICBA), the worldwide trade association representing the 
non-alcoholic beverage industry, adopted a global policy to not market 
many of their products to young children.
    Under the Global Policy on Marketing to Children, ICBA members will 
not market carbonated soft drinks, ready-to-drink teas and coffees, 
sports drinks and energy drinks to any audience comprised 50 percent or 
more of children under the age of 12. The comprehensive policy will 
cover broadcast television and radio, print, digital media such as 
Internet and phone messaging, and cinema, including product placement. 
Our companies are also beginning a comprehensive review of other forms 
of marketing practices, including the use of licensed characters, 
sponsorships and other forms of marketing communications on channels 
which are predominantly viewed by children.
    Our largest global beverage companies have agreed to fully 
implement this policy by the end of 2008. Additionally, the ICBA 
intends to issue its first report on the global advertising commitment 
by the end of 2009.
    This global policy was developed within the framework of a wider 
food and drinks industry commitment to collaborate with the World 
Health Organization (WHO) and other stakeholders to help implement the 
2004 WHO Global Strategy on Diet, Physical Activity and Health. This 
agreement is the first, sector-specific step in a broader movement that 
will include a variety of initiatives and a large number of food and 
beverage partners.
                           physical activity
    And no discussion of child health would be complete without talking 
about the need for physical activity. Reports are that children are 
spending upwards of 6 hours a day in front of a screen. Whether it's a 
television, computer, or the latest video game entertaining 
distractions have taken the place of sports, exercise, and physical 
play.
    Weight gain, is at its root, an excess of calories consumed over 
calories burned. And without the necessary physical activity, we will 
continue to see overweight children. We must not allow the calories 
burned portion of this equation to be lost. It is equally as important 
as calories consumed and deserves equal attention from lawmakers, 
parents, schools, communities and industry.
    I appreciate and thank the representative from the YMCA for being 
here. It is organizations like theirs that can make safe places for 
children to be more physically active. As an industry, we also support 
more physical education in schools and more opportunities for physical 
activity like recess.
    The beverage industry supports Senator Harkin's FIT Kids Act, which 
would integrate physical education into the regular school curriculum 
through the No Child Left Behind Act.
                               conclusion
    The American Beverage Association welcomes the opportunity to work 
with the Alliance for a Healthier Generation and with Congress to 
provide guidelines for schools that offer more lower-calorie and 
nutritious beverages. While we applaud this committee's efforts to find 
new ways to address childhood obesity, we hope that it will recognize 
and support the significant effort by this industry to change the 
beverage offerings in schools that is already well underway. Mr. 
Chairman, our industry is providing the impetus for change in our 
communities and we will continue to seek to lead on this issue. 
Limiting calories in schools is a sensible approach that acknowledges 
our industry's long-standing belief that school wellness efforts must 
focus on teaching kids to consume a balanced diet and get plenty of 
exercise. Our industry will continue to do its part to help our kids 
learn how to lead a healthy life.

    Senator Dodd. Well, thank you very much as well. Thank all 
of you here for your comments.
    I will keep an eye on the clock here as well so we don't 
overrun here. With just the two of us here, we don't have to 
run the risk of doing that.
    Ms. Neely, let me start with you because I--and Mr. Dwyer 
is here from Connecticut as well. In Connecticut, parents and 
health advocates in my State worked very hard to get sodas out 
of schools. Unfortunately, the American Beverage Association 
fought against this important effort and nearly succeeded in 
derailing it in Connecticut.
    My understanding is that member companies have done this in 
other places as well. How do those actions match up with your 
statements here this afternoon?
    Ms. Neely. Well, again, we have committed as an industry 
nationwide to implement this policy, and the policy does 
involve taking full-calorie soft drinks out of the Nation's 
schools. What the policy allows or permits is low-calorie 
beverages or higher calorie beverages like juice in capped 
portion sizes.
    So, for high schools, the diet soft drinks, sports drinks 
in 12-ounce sizes, again juices and teas in 12-ounce sizes are 
permitted in, and that is the policy we are implementing across 
the country.
    Senator Dodd. Well, Dr. Thompson, what is your reaction to 
this?
    Dr. Thompson. The beverage association should be commended 
for the first steps that they have taken. It is an important 
step to recognize the caloric load that is being placed upon 
our students' energy balance through the school-vended 
products, and the beverage industry has taken an important 
first step.
    The beverage industry is actually a more consolidated 
industry than the snack food industry, and it goes down from 
there to a certain extent. The expectation of a voluntary 
solution here nationwide needs to be vested in assessment 
across the board.
    This is not, though, about pointing fingers at the beverage 
industry. I mean, our school system chose over the last two or 
three decades to turn to vended products as a way to serve 
lunch as opposed to make capital investments in the cafeterias 
to have refrigerators to offer fruits and vegetables, and it 
was not intentional. That is what I am trying--it made sense. 
It didn't require a cafeteria worker to offer a vended product.
    But now we are 30 years later, and we recognize that those 
vended products have minimal to no nutritional value and a high 
caloric load, and you have to ask the question, ``Why are they 
in our school environments?'' They are there. The schools are 
somewhat dependent upon them for revenue. They use that revenue 
for scholastic and nonscholastic activities.
    The practice--which is not the beverage industry 
association, is not in the industry agreement--are the pouring 
contracts. These are usually private contracts between soft 
drink companies for advertising space in the school 
environment. If you look at a football scoreboard, it is 
usually sponsored by one or another soft drink industry 
proponent.
    We have sold the advertising space inside of our schools. 
We must intentionally work to reclaim that advertising space 
and to lower the caloric load that advertising space 
represents. The beverage industry represents an important, and 
it should be commended, first step. But we have got to look at 
other ways that we can reduce the caloric load on our students 
during the school day.
    Senator Dodd. In Connecticut, we had the experience of 
parents really wanting to do something, and obviously, they 
faced opposition in that regard. But your point being that the 
schools themselves and the local communities really have the 
final say in all of this. It is really up to them to decide 
whether or not they want to proceed.
    It would seem to me that educators of all people would be 
on the front line of all of this. I mean, they can't claim 
ignorance. They see it every day. They are watching the 
children for whom they are sort of in loco parentis going 
through all of this. Why aren't we doing a better job and why 
isn't that working better?
    Dr. Thompson. We are waking up. I mean this is a slow 
epidemic. It is not like SARS or something that is going to 
happen overnight. It has happened over the last 30 years. If 
you look at kindergarten class pictures from 30 years ago and 
today, it is dramatically different. But if you look at last 
year's and this year's, it is not that different.
    It has been a slow recognition. The changes are 
increasingly clear about this energy balance between the 
calories you take in, the calories you have to burn off, or you 
are going to gain weight every day. Some of the research 
supported by the Robert Wood Johnson Foundation says that the 
entire epidemic could be caused by as little as 100 calories a 
day over the course of a lifetime of a child being out of 
balance.
    Senator Dodd. Yes. You don't need to lose 137 pounds?
    Dr. Thompson. Don't need to lose 137 pounds, and we have 
individual champions that should be commended, as well as the 
beverage industry, for taking that personal risk. But it is a 
system change. This is not about an individual's choice.
    This is about the environment that they grew up in that we 
support, whether it is implicitly or explicitly through the 
rules, the regulations, the decisions we independently make 
about what our school environment is going to look like, what 
is going to be available to our students within that, what the 
communities look like, whether they have sidewalks or not, 
whether we have safe routes to school or not, whether we have 
parks and other places that are safe or not, those are 
intentional investments we have to make.
    Senator Dodd. The learning capacity and ability? I mean, 
there is no longer any doubt that a child that is more obese is 
probably going to have a greater problem learning.
    Dr. Thompson. We know that the children who are more obese 
in our State have more health problems and, therefore, are much 
more likely to miss school. The evidence for the tie between 
educational attainment and obesity is not as strong, but it is 
a rational one.
    The most important thing, and if I could appeal to Senator 
Bingaman and yourself and your colleagues, as a pediatrician, I 
have never met a mother who wanted a healthy uneducated child 
or an educated unhealthy child. Yet we have, at the Federal 
level all the way down, set our programs up to only focus on 
one or the other of those issues.
    Parents want healthy and educated children out of the 
pipeline. We ought to make sure every program we are putting 
money into is coordinated, and it is an investment. I really 
commend your task force because at the Federal level that is 
where that must start.
    Senator Dodd. And my last question for you. I don't think I 
made this clear last week. But, some people think the 
antithesis of obesity is being thin. The antithesis of obesity 
is being healthy, correct?
    Dr. Thompson. Correct.
    Senator Dodd. Too often we are leaving that impression, and 
the whole problem with the advertising, the marketing, and the 
branding is that we associate health with almost anorexic sort 
of weight loss, which is dangerous. We talk about obesity on 
one side, but eating disorders are a different issue. Maybe you 
want to just take a minute and distinguish between obesity and 
an eating disorder.
    Dr. Thompson. Right. On the range of a spectrum, we have 
some children that clearly have an eating disorder that are 
underweight with anorexia or other specific psychological 
conditions that cause them to have an inappropriate assessment 
of what their weight should be.
    We have a middle range, which is really where we want 
people to be. It is not just a healthy weight, but it is a 
healthy set of activities on a weekly pattern so that it is 
this balance that we have talked about.
    Then we have, unfortunately, gone from where only 5 percent 
of our kids were in this at risk or obese group to now 30 
percent of our children. Really, we have lost healthy weight 
kids to the obese and at-risk group. When we look at what their 
diseases are, those are the kids that are having the chronic 
diseases start in the teenage years and that we are actually 
having to pay for in their 20s and 30s.
    We have looked at our State employees--just for the record. 
We have looked at our State employee population, and an obese 
State employee who is 64 costs twice as much, $9,000 a year, as 
one who is at a healthy weight. We deliver those to your 
Medicare doorstep at age 65.
    Senator Dodd. What does that cost again?
    Dr. Thompson. Nine thousand dollars compared to four 
thousand and five-hundred dollars.
    Senator Dodd. Per year?
    Dr. Thompson. Per person per year.
    Senator Dodd. Per year?
    Dr. Thompson. Per year. We deliver those to your Medicare 
financial doorstep at age 65.
    Senator Dodd. Jeff.
    Senator Bingaman. Thank you all very much for your 
testimony.
    Let me ask you, Jonathan, about this nutrition and physical 
activity group that you said was really key to getting you on 
track to begin losing weight, as I understood what you said.
    Mr. Miller. Yes.
    Senator Bingaman. How long had this been in existence in 
your high school, as you understand it? Is this something that 
is common, or do you know?
    Mr. Miller. It is actually not common for me. It was brand 
new when I signed up for it 2 years ago as a senior in high 
school. It is very uncommon for me. Middle school, never heard 
about it.
    Actually, I remember missing recess in middle school 
because all of a sudden after elementary school, recess 
stopped. Recess wasn't important. You didn't have to take gym. 
Honestly, if people didn't want to do basketball or soccer, 
then they would just not take gym. I sadly happened to be part 
of that percentage of people who decided I am not going to take 
gym anymore.
    So this physical activity and nutrition group, very 
uncommon. But it was a miracle that I found it.
    Senator Bingaman. OK, Dr. Thompson, let me ask you, is this 
a common thing in high schools? I mean, when I was in high 
school back in the Middle Ages, we didn't have such a group. 
But it sounds as though we should have today in every high 
school and in every middle school.
    Dr. Thompson. I would commend the program that has been 
described. It is uncommon. It usually takes a local champion to 
organize resources and to put it together. It is not at all a 
broad-based set of activities. The Y and other community 
organizations are trying to do similar-type activities after 
school.
    But we don't have a coordinated strategy to make sure that 
every student finds the way that they are most comfortable 
being physically active and healthy every day. In the lack of 
that, in an environment that is ``obesigenic,'' some people 
say, we end up with what we unintentionally end up with. We 
have to intentionally change it.
    Senator Bingaman. From your testimony, Jonathan, it sounds 
like you really needed this nutrition and physical activity 
group in school, but you also needed access to the Y to be 
physically active. The fact that they connected you with the Y 
and said here is a scholarship and why don't you go over to the 
Y and get some exercise?
    Mr. Miller. Yes, it was definitely 50/50. Having it in 
school was a great thing, but also having something to rely on 
outside of school was another great thing because there are 
weekends. There are days off school. There is the summer. So 
having another place that I could go to where I knew I could 
exercise was a great thing for me.
    I believe it is not just one thing or the other, there has 
got to be a balance because, great things happen when things 
are in balance, compared to just going from one side to the 
other.
    Senator Bingaman. Well, it does seem, Mr. Chairman, that 
one simple thing that doesn't require and wouldn't require a 
lot of money, I don't believe, would be to encourage every high 
school and every middle school in the country to establish a 
group like this that people could join up so that they could 
begin to help people the way Jonathan was helped. That sounds 
like a very positive thing to me.
    Let me also ask Dr. Thompson to elaborate a little more on 
his testimony. You said something earlier that caught my 
attention. You said that, ``In Arkansas, we have halted the 
epidemic of obesity.'' I believe you said that in reference to 
childhood obesity. What do you mean when you say you have 
halted the epidemic?
    Dr. Thompson. Sure. When you look at the Centers for 
Disease Control's national numbers over the last three decades, 
you see this dramatically increasing rate where we have gone 
from 5 percent to 10 percent to 15 percent up to 30 percent 
cumulatively of children in the United States that are either 
obese or overweight.
    The first year we measured it, we were at 38 percent. We 
expected in years two and three to see our line going up, just 
like the national numbers were going up by report. What we can 
now say is we have flattened that line. We have halted the 
progression. We don't have more children becoming obese.
    We haven't reversed it. We haven't turned the aircraft 
carrier around yet. Candidly, I am not sure we can, without 
continued and more support from the local community level and 
from the Federal Government's level. But we have halted it.
    If I might add, Jonathan represents an incredibly powerful 
individual inside of a community school program that was 
incredibly supportive. I don't know what age, Jonathan, you 
were when you started into that, but we have got young families 
whose parents are equally mobilized, just to share a couple of 
stories.
    We had a third grader. When we sent the first confidential 
health report home, mom had been worried about it. She had been 
going to birthday parties that were dress-up parties, and her 
third grader had to not participate in the dress-up party 
because she was too big to fit in the clothes. So she ended up 
being ostracized from the birthday party because she was too 
big and it didn't work.
    Well, she got the health report, and in that report, we 
recommend that families change from sugared soft drinks to non-
sugared soft drinks, go to low-fat milk or no-fat milk, have a 
family activity period, and to limit screen time to 2 hours a 
day. The family did that. Didn't see a doctor. Didn't have any 
clinical support.
    She went from morbidly obese to now she is right smack dab 
in the middle of the healthy range on her BMI, and she is the 
starlet, if you will, in the seventh grade, where she was the 
ostracized kid in the third grade. She changed her course, her 
whole lifetime course she changed.
    Equally important, we had a family we sent it home to--on 
this health activity for family--saying go out and do 
something. I had a mom with three teenage boys, and after about 
the third day that I saw them coming by--I live on a hill. When 
they were going uphill on a forced march, I said, ``OK, 
something is wrong here.''
    So I went out and I interrupted mom, and I said, ``Why are 
you out with your kids walking?'' She goes, ``Well, my mom died 
last year at age 50 of diabetes, and I was told last year that 
I have diabetes. Jonathan here, my oldest, is overweight. I 
don't want him to get diabetes. And the youngest child, Fred, 
he got a bad report last year, and we are not going to have 
this happen to the rest of my family.''
    So there are parents, there are families, there are whole 
community organizations ready to move. They need support, and 
they need help. That is what you have represented before you, 
both industry, community, State, and individual organizations 
that are here and recognize the issue and look forward to 
working with you.
    Senator Bingaman. Thanks a lot, Mr. Chairman.
    Senator Dodd. Thank you.
    We have been joined by Senator Murkowski from Alaska, who 
was with us throughout the entire hearing last week and has a 
real interest in the subject matter. We thank you for joining 
us. I don't want to ask if you want to jump right in, or do you 
want to just take a minute to do what you would like to do? 
Have you got any opening comments or questions for our panel?

                 STATEMENT OF SENATOR MURKOWSKI

    Senator Murkowski. Well, I don't really have any opening 
comments that I would like to add at this point in time other 
than to let you know, Mr. Chairman, that the meeting that we 
had last week was, I felt, very helpful and very beneficial.
    I don't know whether you are planning on calling on anyone 
from the audience again, but I thought it was great. It added a 
real personal component to an issue, that sometimes gets you 
bogged down in the statistics and theory. When you ask for 
input from young people that are living with obesity, you get 
some pretty good ideas. I felt that opening up the ``Question 
and Answer'' session to the audience was very, very helpful.
    I want to welcome all of you. I apologize for my tardy 
arrival, and for I not being able to listen to your opening 
statements. But I do have a keen interest in how we tackle 
obesity; a very difficult issue, and tackle it not only from 
the family perspective, but also the community perspective and 
how we can at the Federal end provide for policies that make 
sense, that are supportive rather than counterproductive to 
what we are trying to achieve.
    From my perspective, it has been great to work with Senator 
Harkin on some of the nutritional aspects and the legislation 
that we have tried to advance will make sure that the foods in 
our schools are healthy and are good. We are making great 
headway in terms of the awareness by young people when it comes 
to what they should be eating.
    Partly it is the changes that we are seeing within the 
schools. When we take some of the bad foods out of the vending 
machines in schools, that sends a strong signal to the kids.
    I do have a confession to make. I had Fruit Loops for 
breakfast this morning, and I was starved by about 10 o'clock. 
We laugh about it but, I have teenage boys, and I admit that, 
as a mom, sometimes I give them what they like rather than what 
I would like them to have. I will tell you that we do make sure 
that it is more than just Fruit Loops for breakfast.
    But we have a responsibility as parents, as community 
leaders, and as policymakers to help young people make the 
right choices so that they don't live with the consequences of 
obesity, that results in health consequences they live with for 
their lives.
    So, again, I want to thank you.
    Mr. Chairman, are we at the Q and A point?
    Senator Dodd. We are. We have been having a good 
conversation already.
    Senator Murkowski. OK.
    Senator Dodd. In fact, we have terrific witnesses. Dr. 
Thompson is the surgeon general for the State of Arkansas and 
has done a remarkable job in the State of Arkansas on the 
ideas.
    Jonathan has lost 137 pounds in 2 years.
    Senator Murkowski. Amazing.
    Senator Dodd. He attributes it to the fact, we were just 
talking about this with Senator Bingaman, with this school-
based initiative that really made a difference. I wrote down 
the word ``support.'' I underlined it and put exclamation 
points next to it because without support this is awfully 
difficult to do.
    Phil Dwyer is from my home State of Connecticut and has 
been with the YMCA for 39 years, and they are doing a terrific 
job on a community-based level. This is where Jonathan talked 
about not only in school, but then going to his YMCA to be able 
to continue his efforts in developing a healthier lifestyle 
that would produce the results you are looking at here today.
    And Susan Neely is with the licensed beverage association, 
and they have been setting some standards for beverages being 
sold in schools. Dr. Thompson was very complimentary of what 
the association is doing. I was a little less than 
complimentary about what the association is doing, but we are 
getting there. I am learning, as we are talking here, what has 
to be done.
    Senator Murkowski. We are making some headway.
    Senator Dodd. So that will sort of give you a flavor, and 
we are just sort of in the middle of it. So you are welcome to 
join us.
    Senator Murkowski. Well, if I can ask a question of 
Jonathan and I applaud you for your personal efforts to make a 
difference with your life and your health.
    One of the observations that was made last week was that 
oftentimes you can be in an environment, whether its your 
family or just the area that you live, where your weight is not 
an issue because everybody else, the same size, believes its 
OK. And the kind of acceptance, if you will, that there isn't 
an issue of health that I need to deal with because we all look 
the same.
    How big of a factor is that? We recognize particularly with 
young people, that they are very susceptible to wearing what 
everybody else is wearing. There is a desire to fit in. Well, 
if the fitting in is at a larger size than what is healthy for 
you, how do you deal with that? And was that something that you 
faced?
    Mr. Miller. It was something I did have to deal with. I 
don't know the exact perfect way to deal with it, but one way 
that worked for me was just deciding that it didn't have to 
deal with looks. It had to deal with how I felt.
    That was basically the way that really worked for me 
because it is true, a lot of my peers, there is this thing 
where it is like, ``You look too skinny. You need to eat a 
burger.'' Things of that nature.
    So I am trying--I don't know. There is like--because there 
is so much on the opposite side, where there are people who are 
accepting it. There are size-acceptance groups. I was a part of 
that team. I used to say things like, ``I am not fat. I am big 
boned.'' It turned out I am not big boned, just fat. So----
    [Laughter.]
    Mr. Miller. So, for me, I guess I basically just had to 
kind of ignore it and just not let it faze me. But that is on 
the personal level. There is that problem with fitting in, and 
it is the challenge mainly for the person themselves, the 
individual. Because like I said earlier, there is the balancing 
act because it is not just one thing or the other. There are 
like so many things that have to come together in a way for it 
to work in a correct way or work in the best way for the person 
or the challenge.
    I happened to be one of the lucky few where it just sorted 
itself together to work for me in order to lose weight and get 
healthy. So----
    Senator Murkowski. That speaks very much to you and the 
type of person that you are--a strong individual, who has made 
a commitment to yourself. But you also speak about the support.
    I would throw this out, Dr. Thompson, Mr. Dwyer; in so many 
parts of the country, we don't have programs that we need. You 
mentioned support. You can have different levels of support or 
you can have opportunities for young people to spend time 
outside, engaged in physical activity, whether it is increased 
activity, physical activity in the schools or simply where we 
are providing for alternatives for our kids other than staying 
inside, watching TV, and playing video games.
    In Alaska, we have a lot of villages where there isn't a 
lot to offer in terms of programs. For example, we don't have a 
Boys and Girls Club. We don't have a YMCA. The one thing that 
we do have is the school gym. But during the summertime, when 
the schools are closed, so are the gyms.
    After hours, the school is completely closed because the 
property is unmanned, which could bring about liability issues. 
And so, the one main indoor activity, basketball, is shut down.
    Do you have any suggestions as to how else we can provide 
for the level of support for the kids? Not only when it comes 
to their diet, but also when it comes to the level of physical 
activity that they need on a daily basis?
    Dr. Thompson. Let me offer briefly, and I am sure that Mr. 
Dwyer or Ms. Neely have some other suggestions, but the way to 
potentially approach this is the energy balance equation. 
Instead of looking for a single thing, think about what can we 
do through the wealth of programs that you support to improve 
the calories or increase the physical activity? A few 
suggestions.
    You mentioned the capital investment present in our schools 
that get locked up at the end of the school day. That has 
already been an investment that was made. It would not cost 
much to open that up, and I bet you, you would have community 
leaders that found ways to support adult oversight on those 
sites if we had that opportunity.
    Just a few off the top suggestions. We found that it was 
the support in the community and support of families that made 
such a difference. Of overweight teenagers in our schools, we 
found that weight-based teasing dropped by 50 percent. We 
looked. We were worried it was going to go up when we focused 
on obesity.
    What we did is when we made it be a community-wide issue, 
it stopped being an individual problem. It became a group 
problem. The group synergy started looking for solutions that 
made a much larger reinforcing, positive impact, and that is 
the program that Jonathan describes. There was a reinforcing 
positive there with other folks going through similar 
challenges. That is what was very positive in your story to me.
    We have got some outside of the box--Mr. Dwyer said it is 
not rocket science. City police departments across the Nation 
are telling their officers to stop their car a quarter of every 
hour. It matters whether that car is stopped in front of the 
donut shop or the city park. If you stop it at the city park, 
suddenly people think that the park is a safer place. It 
probably is a little safer place to actually go and recreate.
    So some of these things don't cost anything, Senator Dodd, 
as you alluded to earlier. They are just common sense. But 
somebody has to think about them, and somebody has to make the 
connections, and somebody has to be charged with the 
reinforcement.
    Somebody has to be charged with wrapping support around 
individuals like Jonathan and the many, many others that are 
out there that want to make change happen, to give them a group 
dynamic where it is safe to make those changes happen and they 
get positively reinforced and then you are on the path. That is 
what the Y and other programs across the Nation offer.
    Senator Dodd. Lisa, before you came in, that is what we 
were talking about. This is something Senator Harkin and 
Bingaman and I would love to have you take a look at. This 
Federal interagency task force, to do exactly what Dr. Thompson 
is talking about. So you get people talking to each other and 
about how this works.
    Because normally the nutrition people will look at 
nutrition. And you will get those who are involved in 
recreation or infrastructure issues to look at some of these 
things. But to the extent there is at least some forum for 
people talking to each other about all of this, you have a far 
greater likelihood you are going to see some things happen.
    Which brings me to you, Mr. Dwyer, because you are the 
community-based witness we have here. We have got, obviously, a 
physician that cares about this, an individual that cares about 
it, a company that is involved in this and has to be involved. 
Tell me now, what sort of obstacles you have run into in 
getting the kind of community response we're all looking for.
    Pete Domenici, Senator Domenici, and I started a program 
years ago called Character Counts. It made me think of it when 
Senator Bingaman brought up, what could we do? People derided 
it initially. But it provides very small grants, maybe $5,000 a 
piece, that went to communities to take five or six pillars of 
good citizenship, and promote at the elementary school level 
things like honesty, integrity, and simple concepts like those. 
And promote them not on a one-time basis, but for a whole month 
the school would work on one concept.
    But these small grants really caught on, and they developed 
the program nationwide on Character Counts, and I thought maybe 
some small little grants to schools to help start some of these 
ideas, that might be a way of looking at it.
    Mr. Dwyer. Let me comment, although I--at the risk of 
disagreeing with my home State Senator, the word 
``obstacles''----
    Senator Dodd. You shouldn't feel shy about it. A lot of 
people do.
    [Laughter.]
    Mr. Dwyer. The word ``obstacles'' is not part of our 
vocabulary. It is amazing, with our effort as a pioneering 
healthier community YMCA and our effort to convene people from 
our community who care about this issue, they are starved for 
the support. Jonathan probably had support from individuals who 
helped him achieve his goals.
    Communities need support as well, just with the simple task 
of convening the mayors and the superintendents who are 
always--their days are jam-packed, and just asking them to come 
to the table to talk about this issue and say how can we work 
together, share resources, to make a difference in our 
community?
    We have not found, I will say, obstacles because our local 
community-based agencies, whether they are State--and our work 
with the No Child Left Inside initiative of our State 
governor--or through local school districts, working with our 
beverage suppliers to find a correct mix of products that 
children will still like and want. There are a host of people 
that are ready, willing, and able to work on this issue, 
implement small win decisions.
    We have been working with teens to offer mini grants so 
that youth groups will study this issue and implement programs 
that will teach other teens the value of increased activity and 
better nutrition.
    So it doesn't take a lot of money. Collectively, across the 
country, it may. But it doesn't take a lot of money to cause 
people, to teach them, to persuade them, to help them decide 
that they want to change their life.
    At the end of the day, it is an individual decision, and 
you need to provide the support to people. Jonathan made his 
individual decision. We need programs that help communities and 
individuals make their own individual decisions.
    Senator Dodd. Well, what would you suggest we do? How do we 
help in that regard?
    Mr. Dwyer. I am not sure that we have reached the tipping 
point yet. But take the simple issue of vending machines. So 
every Y used to have vending machines, and every Y did not pay 
attention to what was in those vending machines. And so, there 
was an educational process.
    YMCAs are like herding cats, where each one is individually 
owned and operated and serves its local community. But there 
became a tipping point because people like yourself and Senator 
Harkin and others around the country have kept raising this 
issue and teaching and educating. There became a tipping point 
to where virtually all of our vending machines now are trying 
to look carefully at the mix of products we put in there.
    And so, on providing support to local communities through 
the grants that you have provided so that people pay attention 
to this issue, I would say stay the course. Don't let this be 
an issue that is talked about for the last 12 or 15 months and 
then some other issue pushes it off the agenda.
    Keep talking about it. Keep funding activities that will 
keep this in front, and at some point there will be a tipping 
point in each State. Arkansas perhaps has hit it. But, I think 
there will be a tipping point in each State where parent groups 
will just force their institutions to address this issue.
    It will become a voluntary event because you have set 
standards and said to schools, ``Look, you need to have X 
number of hours of physical education. You decide how to 
accomplish that, but you have to have it for graduation.'' If 
you set the standards, this country is ready to adopt a healthy 
lifestyle.
    Senator Murkowski. Let me ask you, if I may, Mr. Dwyer, 
because I used that terminology last week. I said, in the 
energy debate, when gas has hit about four bucks at the pump, 
that was the tipping point, and the American consumer is 
demanding action. They are demanding action from Federal 
lawmakers saying, ``Congress, what are you going to do about 
it?''
    My comment at last week's hearing was, are we at that 
tipping point, as a nation, when it comes to what I believe is 
a childhood obesity crisis, and what are we going to do about 
it?
    It seems that there is most certainly a growing awareness, 
but I am not seeing--and maybe something in Arkansas was 
different that allowed you to galvanize on this issue more 
readily than others. In the city where my family lives, 
Anchorage, they are readily acknowledging that obesity is a 
problem. But we are just not coalescing around this issue yet.
    How do we do it? I don't want to see more hugely negative 
statistics about the complications as they relate to growing 
rates of diabetes. Oftentimes, that is what pushes communities 
and States to action. How can we make sure that others 
appreciate where we are so that you have that momentum for the 
communities to organize?
    Mr. Dwyer. It is one of the words that was used earlier, a 
``common'' strategy, and I would add another adjective to that, 
a ``consistent'' strategy. We send mixed messages to our young 
people as to the importance of health and the importance of 
good eating and enough physical activity.
    We have to work on the policies that say it is important to 
walk, but we won't put sidewalks in so you can do that. It is 
important to have physical education, but we don't allow for 
enough time or requirements in the school day or to graduate.
    It is the consistency of the message. It is the common 
strategy, not a single strategy. Every human being is 
different, and the kind of program that attracts Jonathan is 
not the kind of program that attracts somebody else. We run a 
program under the No Child Left Inside about fishing. It is not 
about teaching children to fish. It is teaching them that there 
is another form of activity beyond sports.
    We can't think of physical activity as only sports because 
somewhere around eighth, ninth grade, it becomes competitive 
sports, and kids, if they don't make the team, stop 
participating. We have to fund a variety of activities using a 
variety of agencies and State governments and governmental 
programs. But, we all have to get together and provide a 
consistent message and a common strategy.
    Senator Dodd. How many States have a surgeon general?
    Dr. Thompson. There are three States that have a surgeon 
general.
    Senator Dodd. That is a pretty good idea from Arkansas. We 
don't have a surgeon general in Connecticut, do we?
    Senator Murkowski. No.
    Senator Dodd. Not only do you get one person, but you also 
get an office that can focus a lot of attention on these 
things.
    Dr. Thompson. My job exclusively--I have no programmatic 
management. My job, on behalf of the governor of the State of 
Arkansas, is to look at the horizon, and that is what I commend 
the hearing today.
    Senator Murkowski, something I shared earlier and I want to 
just touch on, there are multiple levels of government here 
where there are vested controls. I mean, Congress isn't going 
to necessarily tell local communities that they have to put 
sidewalks in. That is going to have to be a local community 
decision. States have certain responsibilities.
    But the leadership of the Congress really is demonstrated 
and expressed in three ways--through how you put limited 
resources into play, what you set as standards across the 
various programs, and what you put in place as incentives. I 
would really commend the task force or any other mechanism that 
you can look across the different funded programs that you have 
for what are the standards and the incentives to work together 
to reinforce local community early adopters.
    Mr. Dwyer is more optimistic. I don't think we are nearing 
the tipping point. We have some early successes. But there are 
not enough of those, and we are not at a point where the scales 
are about to tip because we have enough successes.
    If we are not careful, we will fool ourselves into thinking 
that we are at that tipping point, and we will stop short of 
making the systematic changes at every level that we need to to 
ensure long-term reversal of this epidemic and to avoid, 
candidly, the future economic impact that we can't even fathom 
right now on worker productivity, on healthcare cost and 
conditions, on the economic profile of our health and 
healthcare system.
    Senator Dodd. Lisa, were you here when Dr. Thompson told us 
a startling statistic. I made you repeat it twice. For that 
person 64 years of age in Arkansas, that is obese, it costs the 
State $9,000 more every year.
    Dr. Thompson. Well, it is twice as much. Essentially, we 
looked at our State employees population. Most States, the 
State employees health insurance plan is the largest State-
based employer. So we looked at the health risks in our 
insurance plan, and we looked at their claims cost. If you were 
obese, physically inactive, or smoked cigarettes, you cost 
twice as much as the counterparts that didn't have those three 
risk factors.
    So what we did as a State--and again, this is not rocket 
science--it is an incentive. Our State employees now can earn 
extra vacation days if they eliminate those risk factors. So we 
are putting----
    Senator Murkowski. All three of them?
    Senator Dodd. What, do you start first and then take them 
off slowly?
    Dr. Thompson. Well, if they have one of these risk factors 
and they go into an incentive plan, like Jonathan represented, 
you know, his individual plan, we give our employees sick days. 
We turned around and said can't we give them wellness days for 
actually becoming healthier, more productive workers?
    Senator Dodd. Good idea.
    Dr. Thompson. So you have a Federal employee health 
benefits plan that probably is the largest health insurance 
plan in the United States.
    Senator Dodd. Believe me, it is. Yes.
    Dr. Thompson. It is probably not costing you less this year 
than it did last year. Just a guess, I mean.
    Senator Dodd. That is a pretty good guess.
    Mr. Dwyer. But decisions that you make filter down. In this 
country, we often work with what we call ``best practices,'' 
and you say here is what you should do. If you hold those best 
practices up, I think people will strive to accomplish them.
    I take no offense that the surgeon general accused me of 
being an optimist. After all, I am a YMCA director, and that is 
part of my job.
    [Laughter.]
    Senator Dodd. Absolutely.
    Dr. Thompson. No mal-intent was meant.
    Senator Dodd. Senator Murkowski and I will associate with 
your sense of optimism. We sit on this side of the dais. We 
have to be optimistic.
    Senator Murkowski. That is right.
    Senator Dodd. Let me ask you, if I can, Susan, about these 
guidelines. You highlight the school beverage guidelines that 
the industry has adopted. As I understand it, these are 
voluntary guidelines. Is that true?
    Are there any incentives for your members to comply? Are 
there any consequences for continuing to sell products that 
don't comply with your guidelines? In 2007, the Institute of 
Medicine recommended stricter guidelines, and I wonder why your 
guidelines don't meet The IOM's standards for the health of our 
children?
    Ms. Neely. Well, I would take the second question first. 
Our guidelines were actually developed in conjunction with 
nutrition scientists at the American Heart Association and then 
again those participating in the Alliance for a Healthier 
Generation that are part of the Clinton Foundation, along with 
Governor Huckabee and his team. They reflect the perspective 
that, again, consistent with IOM, for younger children--middle 
school, elementary school--it is milk, juice, and water only. 
They should have very limited choices, and that is what parents 
tell us they want.
    For high school students, a range of choices is actually 
useful and productive because they are young adults, and they 
should be able to make choices. But the choices that are 
allowed are the lower calorie, zero calorie, smaller-portion 
size options. So it is no full-calorie soft drinks.
    So our standards were developed in conjunction with the 
Heart Association and those participating in the Alliance for a 
Healthier Generation, and it is a low-calorie, high-nutrition 
policy.
    In terms of implementation, my response in terms of what 
the consequences are is that when three major world-class 
trademarks put their name on a public document--Coca-Cola, 
Pepsi-Cola, and Cadbury Schweppes, now Dr. Pepper Snapple--and 
say they are going to do something, they are very determined to 
do it. As part of the agreement, we signed a memorandum of 
understanding. It is a 3-year implementation schedule, and we 
have just completed the second year.
    In addition to our very public commitment that we will meet 
the markers in the agreement, I can tell you in 2 years we are 
meeting those markers. First year, we met all of the markers 
that had been laid out for us. Forty-one percent fewer calories 
in beverages are being shipped to schools.
    The second year, which is just ended now--the year follows 
the school year--we are still compiling the data from the year, 
and it will be another few weeks before we have the final 
report. But the marker was to have 75 percent of all the 
schools under contract in this country in compliance. The 
initial look is that we will meet that marker.
    Senator Dodd. I have got a couple of questions for you on 
this. Why shouldn't we make it mandatory, your guidelines? This 
is yours. Why shouldn't we just insist that that be the 
standards?
    Ms. Neely. We agree with that, actually.
    Senator Dodd. You would make it mandatory?
    Ms. Neely. Yes. We are honoring our commitment. We are 
implementing the guidelines. The third year will be achieved 
next year, and at that point, the guidelines are to be 
implemented across the country. I am optimistic and confident 
we will reach that.
    But there is no question that it would propel it further 
faster if it was mandatory, and that is why last year we were 
such strong supporters of Senator Murkowski and Senator 
Harkin's legislation that was an amendment to the Farm bill 
that would have created a national food and beverage standard. 
Before you got here, Senator, I said if you are ready to go 
again, we are.
    Senator Murkowski. Good.
    Ms. Neely. And stand ready to support that because we think 
it is a sensible standard and, again, just makes it that much 
easier to effect the kind of change we are talking about.
    Senator Dodd. Explain this 41 percent. Was it a 41 percent 
decline in beverage calorie shipped to schools? Can you break 
that down? Is it a large percentage of schools ordering fewer 
beverage calories, or is it a smaller percentage of schools 
that have dramatically decreased their orders?
    Ms. Neely. Well, it is a combination. If you are taking 
full-
calorie soft drinks out, you are taking--as we are in the 
process of implementing the agreement, you are obviously 
reducing calories because what is left in the school are the 
diet soft drinks, which are zero calorie, or other beverages 
that are now in smaller portion sizes. So even if you are 
getting 100 percent juice--
    Senator Dodd. So it is not a large number of schools, 
necessarily?
    Ms. Neely. Well, we are looking at all the schools in the 
country. At that point in time, which was 1 year into the 3-
year implementation schedule, that was the progress we could 
report. I don't know where we will be from a calorie standpoint 
when we completely implement the agreement.
    Senator Dodd. Or how many, what percentage of schools, 
public schools that have actually participated in this? Do you 
know?
    Ms. Neely. Well, I don't have the number of schools. But I 
can tell you the markers relate to all schools under contract, 
and this applies to all schools where our members do business. 
We don't have 100 percent of the business in the country, but 
we have certainly a large percent.
    Senator Dodd. How much does it earn the school to put a 
soft drink advertisement up on the school football scoreboard? 
What does that earn on average a school? What do they get?
    Ms. Neely. Well, there are thousands of contracts in the 
country, so I couldn't answer how that shakes out. You are 
speaking, though, to marketing practices, which you alluded to 
earlier, as did Dr. Thompson. That was the other part of my 
report. That we have as an industry, not just in this country, 
but globally, said we will look at our marketing to children 
policies commensurate with the IOM report that looked at 
policies and had specific recommendations for advertising for 
children under 12.
    We have committed that in--and this is broader than 
schools--digital media, broadcast, print, product placement 
media, we will not be marketing our products to children under 
12 in those media, and we have committed to look at our 
practices in schools as it relates to that. So that is another, 
sort of, forward-leaning commitment this industry has made.
    I can tell you, just practically, the policy I hear from 
our distributors is that they are not advertising products that 
are not allowed in the mix in the schools. So if you have a 
machine with bottled water and sports drinks, that is what is 
featured on the front of the machine, either that or generic 
vending fronts that feature kids working out and that sort of 
thing. So we are in the process of changing.
    Senator Dodd. OK. Very good.
    Senator Murkowski. Mr. Chairman, may I ask a question about 
that?
    Senator Dodd. Yes, please, go right ahead. Yes.
    Senator Murkowski. It has been interesting to watch how 
attitudes have changed, and how whole communities have changed 
about the products that are available in school vending 
machines. When we first started this, the hue and the cry was 
you can't possibly take the soda out because it will cut into 
revenues that the schools need for the football team, pep club, 
chess club or what have you.
    But the changes were put in place nonetheless. And believe 
me, I heard from my share of parents who were saying you guys 
better be prepared to give money to the teams because these 
revenues are going to be cut back dramatically. I didn't think 
that was going to be the case.
    I figured a kid who had a dollar and wanted something to 
drink would still put that dollar into the machine, and if they 
didn't get a Coca-Cola, but got a Diet Coke or water instead, 
at least were able to get something to drink.
    At least, as those districts in my statement have made 
these changes, we are initially seeing a drop-off in revenue. 
But then, as they have been in the schools for even just less 
than a year, we are seeing that the revenues are coming back 
up. Is that what you are hearing from your folks that, in fact, 
the revenues to the schools are not declining?
    Ms. Neely. Well, we are not tracking revenues. We are 
tracking people complying with the policy. So I can't give you 
kind of a macro answer to that. I mean, kids are still--the 
beverage mix is changing. Kids are still buying beverages in 
schools, and the contracts are getting amended in a way that is 
fair to the schools and fair to the----
    Senator Murkowski. But somehow or another, Pepsi and 
Cadbury and the others are still making money there. They are 
still interested in having contracts with the school. They have 
endorsed our bill and have been working with us, which I 
appreciate, on these guidelines. It would seem to me that 
everybody is doing OK, that the sky didn't fall, as some had 
predicted that it might, when we took the full-calorie content 
sodas out of the school.
    Ms. Neely. There are still members of my industry doing 
business with the schools and are happy to do so. That is 
correct.
    Mr. Dwyer. Senator, this is a micro answer, not a macro 
answer. We serve 25 communities. We had vending machines in 
various program sites and YMCA branches. We took all soda out 
of the machines. We didn't even leave diet soda there. After 
about 90 days, the commissions returned back to normal.
    There was some concern by my local branch executives that I 
am going to lose the money from those commissions. But it took 
about 90 days for the kids to adapt, put their dollar in the 
machine, and try a different product, and they kept buying it. 
I think that is a false issue, personally.
    Dr. Thompson. If I could just add, we have probably taken 
this on the chin, and Ms. Neely may have more information on 
this. The beverage industries themselves don't control 100 
percent of the school products in the school.
    In fact, in our region, we have much more control by the 
local vending companies than we do the major soft drink 
suppliers. So it is not a one-size-fits-all across the Nation, 
and we actually have had much more resistance from our 
suppliers than are represented in the beverage industry 
guidelines.
    Having said that, however, the--it is about what your goal 
is. If your goal is to raise money off kids to support schools, 
let us figure out how we want to do that and optimize it. If 
your goal is to have healthy kids come out at the end of the 
pipeline, let us figure out how to do that and optimize it.
    It is what your goals are. Figure out what the goals are 
and align the programs to do it and hold harmless as many 
people as you can----
    Senator Dodd. Well-educated, healthy kids.
    Dr. Thompson. That is what every mom I have talked to 
always wants. I have never found any mom that says I want one 
or the other.
    Senator Murkowski. What about the concern that I have 
heard, that we are doing a much better job in the schools. We 
have got cooperation on the vending machine issue. We are doing 
a much better job with just the food service in the schools, 
healthier meals for the kids. But then you hear that, the kids 
are still getting their soda pop.
    They are going down to the corner store, and they are 
buying it there. Or that you have some enterprising young 
students that are making a little bit of money on the side by 
selling it themselves. How big of an issue is this? I mean, 
kids are kids, and it is probably all those that are eating 
Fruit Loops in the morning instead of good oatmeal. But is it 
this big of a problem, and what are you seeing?
    Mr. Dwyer, you mentioned that at the Y, you took the soda 
out. Do the kids just go to the neighboring stores? What do 
they do?
    Dr. Thompson. Well, kids represent the innovative future of 
America. So I don't think we want to quelch that. When we 
measured BMIs and they were--just as an example, we had one set 
of high school students who just decided they would have a 
little fun with the system. So they all wore leg weights in 
when they had their weight assessed, and they really skewed 
things up. Everybody said, ``Wait a minute. What is going on in 
this community?''
    [Laughter.]
    Dr. Thompson. But having said that, some students will test 
whatever boundary or whatever goal or whatever program you want 
to put in place. What we have to do is capture that energy, 
have a good time with it, and make it fun to pursue that 
healthy goal.
    One of the things I have wanted to do and we haven't is 
could we capture the skits about all of our obesity efforts 
across schools in the State of Arkansas and have a competition? 
Because there is some pretty good comedy going on on what we 
have tried to do. Releasing the vending machines from prison 
was one that I was aware of. Having the obesity police come 
into the school, which was not quite so positive.
    But I mean, all of these things are positive and how we 
actually capture that energy--the direct answer to your 
question, we have had pockets of resistance. But, the 
recognition of this as a major threat both communally for 
everyone and for 30 percent of our kids, which means 30 percent 
of our parents, they will mobilize and they will overcome those 
threats. They actually come together and make it be a group 
dynamic that is pretty hard to resist.
    Senator Dodd. You haven't made this point today, but Lisa 
and I heard this last week. And it is that for children with 
obese parents, the likelihood that the children are going to be 
obese as well is fairly high. You haven't talked about that 
today, but is that your conclusion as well?
    Dr. Thompson. That is our finding, and that is why we have 
focused on childhood obesity for two reasons. One is, it is 
where we probably have the easiest changes to make, and we can 
have the biggest long-term lifelong impact.
    But that is why we have also focused on our State 
employees. By doing a health risk appraisal, by modifying their 
vacation days, we have actually tiered their health insurance 
premiums in a minimal way so that if they have these health 
risks, they pay more than if they have eliminated these health 
risks.
    So we have actually, as I said, done everything we can 
think of at the State level to try to impact this. We do need 
help from Congress, and we need more mobilized local community 
efforts like Mr. Dwyer represents.
    Senator Dodd. I would like you to send us that information 
on the wellness days, and how you do that. We would be very 
interested in that.
    Dr. Thompson. OK, I would be glad to.
    Senator Dodd. Let me ask you a couple of just quick 
questions. The BMI, the body mass index, for those who are not 
familiar with the terminology, reporting requirement in your 
State, as of last summer, only 12 States have undertaken 
initiatives for schools to screen BMI or other obesity-related 
measures.
    I wonder, Doctor, if you could tell us about the challenges 
surrounding the BMI.
    Dr. Thompson. The weights were--that was a pleasant 
challenge. We have had some other challenges along--we just 
completed our fifth year of assessment. The first 4 years, we 
measured every child in kindergarten through 12th grade. Last 
year, we measured every child in even years. So, from now on, 
we will do even years.
    We have measured children in a confidential way. The child 
did not know what their weight was, didn't know what their 
height was, didn't know where they were in the BMI calculation 
because we want it to be a parental support tool. We sent home 
a confidential health report to parents saying your child was 
weighed on this day. It puts him in this risk category. This is 
what we are worried about. These are things your family can do. 
If you need more help, turn to your primary care provider.
    Meanwhile, over here, we are changing our Medicare and 
SCHIP programs so that primary care providers are reimbursed 
for actually providing that support. The primary reason why we 
did the BMI is because both the Institute of Medicine and the 
American Academy of Pediatrics, since about 2002, have said 
every parent ought to know their child's BMI percentile every 
year to make sure that they are managing this risk.
    When we talked to parents, almost no parents had been given 
their child's BMI percentile through the regular clinical 
process. So we did, just like we do for hearing screening or 
vision screening or scoliosis screening, we did a simple 
addition to the screening process that was in place within 
schools.
    Senator Dodd. Reaction of parents?
    Dr. Thompson. Reactions of parents. I personally sent 
90,000 letters the first year to parents whose children were 
either obese or overweight with my signature, my phone number, 
and my address at the bottom of that letter. We got 300 phone 
calls. Three hundred out of ninety thousand.
    One hundred fifty of those were pretty irate. What right is 
it of mine to intervene in the school and tell the parent that 
their child had a weight problem. Half of them, another 150 
wanted more information.
    Any business that deals with 90,000 consumers would take a 
150 complaint rate pretty easily. Over time we have lowered 
that complaint rate as we have gotten everybody kind of 
mobilized in recognizing what the problem is. But it is not 
without risk. But if done right, it can be done safely.
    Senator Dodd. Any follow-up to find out how parents are 
responding to this?
    Dr. Thompson. We have done, our College of Public Health, 
independent of our implementation--so we had an independent 
evaluation. They just reported their fourth year findings. We 
have had a doubling of parents of overweight children who 
recognized that their child has a weight problem.
    We have had an increase by 10 percent of students that are 
physically more active than they were 2 years ago. We have 
documented changes in the purchasing patterns, not necessarily 
the purchasing volume, through vended products of overweight 
students.
    We are starting to see some of those changes that Mr. Dwyer 
alluded to at a tipping point. If we don't continue to pour 
more effort and energy into it, we could lose that too easily, 
and I want it to be lasting, not just a one-time finding.
    Senator Dodd. That is a great effort to make. Let me ask 
you one other question, again going back to the vending machine 
issue. Your testimony said that 61 percent of Arkansas schools 
now have policies requiring healthy foods to be available in 
the vending machines.
    Dr. Thompson. Correct.
    Senator Dodd. But then you also state that only 26 percent 
of the vending machines in schools are in a healthy category.
    Dr. Thompson. Right. Our policies in the State, there are 
two issues that move there. The State rules and regulations 
supersede a school-based contract only when the contract 
changes. So I alluded earlier to the vending companies, which 
have more control than the beverage associations in our 
contracts.
    When these rules and regulations were going into effect, 
many of them went out and put in 10-year contracts. So our 
rules and regs only go into effect after those contracts expire 
or are modified. When you get down to where the rubber meets 
the road, it can get pretty interesting, and that is the reason 
for those differentials.
    Senator Dodd. Talk to me about corn syrup.
    Dr. Thompson. Corn syrup, again, there are many that focus 
on the Federal subsidies to agriculture. My State and my 
Senators in our State are very supportive of the agricultural 
subsidy programs. However, we must think intentionally about 
what we are doing there.
    We have lowered the cost of corn syrup as a commodity and 
as a food source, and we have seen a response by the food 
industry to be able to offer lower cost foods, particularly to 
lower income and minority communities, and we have seen an 
uptake of those food products, which are not necessarily as 
healthy as they had previously been using.
    That is why you see, as Mr. Dwyer alluded to, a lot of 
farm-to-family programs now, trying to get healthier nutritions 
back into the food supply chain. We need to intentionally think 
about how we want both our subsidy programs and our school and 
community support programs, through the WIC program or through 
school lunch programs, to actually use the power of the 
congressional leadership to lead us in the right direction.
    Senator Dodd. You point out the economic benefits. But you 
are suggesting as well that the move to corn syrup, while there 
may be some economic advantages, there is a direct correlation 
between that and the growing problem of obesity.
    Dr. Thompson. There is a direct correlation and 
association. The causation--we don't have a group of people who 
have not been exposed to the corn syrup subsidy. So the 
researchers in the room would have less comfort with me drawing 
the conclusion.
    If you look at what has changed between 1970 and 2008, 
which is when this epidemic blossomed, and we look at what has 
changed in our food supply and we look at what has changed in 
our subsidy programs and we look at what has changed in the 
experience of our families and their children, that is a major 
component.
    Senator Dodd. Just lastly, on economics, we are looking 
today, obviously--and Senator Murkowski mentioned--at the 
rising cost of fuel and other items. What correlation do you 
see on this economic issue, and what is going on with obesity?
    Dr. Thompson. Without question, lower income families have 
to stretch their dollar farther. Their ability to afford 
healthier foods is in direct causation more limited.
    One of the challenges we have is how we can affordably 
change our food distribution system and, as Jonathan mentioned, 
make available safe physical activity places that people can 
affect that energy balance so that the calories people take in 
equal every day the calories they burn off, or we are going to 
gain weight.
    The only way to lose weight is to have the calories you 
take in be less than the calories you burn off. That is the 
only way to lose weight. One of the challenges, and just to 
raise your awareness, when the Congressional Budget Office 
scores a program, they only look at the next 10 years' return 
on that investment. It may be that we need to take a different 
view on obesity prevention programs because it may be a 
generation where we have to look at what the cost impact is, 
not just the next 10 years.
    We did not get here overnight. We did not get here 
intentionally. We are going to have to take many years, if not 
decades, to get to a different place, and it is going to have 
to be very intentional.
    Senator Dodd. Thank you. That is great.
    Senator Murkowski. Mr. Chairman, may I ask a question on 
this because this is something like we've seen with energy 
price increases, and we are seeing our prices in Alaska go 
through the roof. It is not necessarily because of what we are 
paying at the pump. It is the fact that all of our goods and 
services get to the State by barge or by airplane. We don't 
have the roads to put them on a road system.
    The goods that we get, the food products that we get are 
immediately going to be that much more expensive than anywhere 
in the Lower 48. So in many of the outlying areas of the State, 
the school districts are faced with their budget and that they 
know they need to work within ones budget. Their fuel costs 
have gone up to keep the school warm. They can't control that. 
They have got to get that money from somewhere.
    They are probably going to get it from the school lunch 
budget, which means that they are going to have to figure out 
ways to cut the corners. I have already been talking to some of 
my school nutrition program folks, who are saying, we basically 
will have to do more with less. This means that instead of the 
fresh fruits and vegetables, which are difficult to get in the 
first place, they are going to be going back to the canned 
peaches and the products that we can get.
    But in terms of being able to say that this is a healthy 
lunch to feed these kids, I am quite concerned that we are not 
going to see that help. I applaud Senator Harkin's effort to 
get fresh fruits and vegetables into the schools, but I 
recognize that in Alaska, we are probably not going to see that 
at all.
    I will give you one example about soda in rural Alaska and 
why I get a little bit animated about it. Up in the rural parts 
of the State where you don't have local delivery on a daily 
basis, we simply don't have milk in the stores. My sons and I 
went on a 5-day river trip out on the Kuskoquim River. I have 
teenage boys that drink a lot of milk. For 5 days, they 
couldn't find milk. There was no milk for breakfast.
    You can buy the powdered milk, but you have water systems 
that, quite honestly, the people do not drink water because the 
water is not pure, clean water. So they don't have the water 
and they don't have milk. But what they do have for liquids is 
soda pop.
    So, the soda pop comes into the school, and that is what 
everybody drinks. Everyone drinks pop. What we see then are 
increasing levels of diabetes. We see increasing levels of 
tooth decay to an enormous extent. We can't get milk out there. 
Buying bottled water in the villages is more expensive than the 
soda pop.
    We have got to be able to provide for the healthy options 
because when you are thirsty in many of the villages that I 
represent, there is really nothing healthy to drink. What I 
would like to do is work with the industry to encourage them to 
bring more of the water and healthy drinks in, as opposed to 
the soda pop.
    We actually have a ``Stop the Pop'' campaign at the 
legislative level because we see, and it is not to pick on soda 
pop necessarily, but when it is your source of liquids, that is 
a real problem for us.
    Dr. Thompson. You have got a finger on the pulse of the 
issue, and it is being made worse by some of the economic 
conditions and the fuel prices that are around. We have areas 
where it is 20 or 30 miles to get a piece of fresh fruit--not a 
whole State away, and I don't mean to minimize the Alaskan size 
and breadth. But this is an issue that we can work with, and 
that is why I commended the beverage industry's first step 
earlier, but also challenge, incent, reward.
    I mean, our industry needs to step forward and help us 
solve this problem, and we have some leaders that are willing 
to do that. They are not necessarily always rewarded for having 
done so. We need to make sure that they actually feel momentum 
coming into their priority list, too. We have got to come 
together. Again, the cross-fertilization across different 
programs, recognizing some of these issues, being aware is the 
first step, and I commend the opportunity here to share with 
you.
    Senator Dodd. I also should tell you that Senator Kennedy 
and Senator Mikulski are co-sponsors of this proposal, and we 
would love to have you look at this, Lisa, as well as the 
interagency task force.
    Senator Murkowski. I will take a look.
    Senator Dodd. It would be helpful.
    Senator Murkowski. I think Susan wanted to make a comment.
    Ms. Neely. I was just going to say, we certainly believe 
soft drinks have their place as part of an overall healthy 
lifestyle. So maybe the focus, rather than Stop the Pop, should 
be on bringing in more choices and more options, and we would 
be happy to work with you and address that.
    Senator Dodd. I am shocked. I am shocked to hear you say 
Stop the Pop is a bad idea.
    [Laughter.]
    Ms. Neely. Soft drinks are part of a healthy, balanced 
life.
    Senator Dodd. Let me just ask our panelists if they could 
stay around for a few extra minutes. Last time, we had a 
wonderful audience of younger people, and I see a lot of 
younger people here today as well. Any of you have any comments 
or questions at all that you would like to raise? We did this 
the last time.
    Yes, back over here? We are going to get you a microphone 
so that we can hear you this time, too. We don't do this 
normally, but I am just so impressed with the turnout. I was so 
interested that so many people wanted to come and hear. As 
Senator Murkowski said, we get some great ideas that come from 
the audience as well.
    Yes. Tell us who you are.
    Ms. Worsham. I am Jenna Worsham. I am an undergraduate at 
Washington and Lee University, a summer intern. I actually just 
had a question for Dr. Thompson.
    In your initial statement, you mentioned the reforms needed 
with the WIC nutritional programs, and I was wondering if you 
could maybe elaborate on that? I know there are some issues 
right now, specifically like the infant formulas and the 
nutrient levels they are in. If you are talking about really 
getting to the root of this problem, that would be it. So I was 
wondering if you had any comments?
    Dr. Thompson. Very briefly, and I appreciate the question. 
The programs that we put in place, which were to optimize 
nutrition for women, infants, and children, have been surpassed 
by our knowledge--or our knowledge has surpassed their 
standards. And so, ways to tie, as you mentioned this earlier, 
Senator Dodd, what we know from the science, the IOM 
recommendations and others, to almost automatically come into 
the WIC guidelines as opposed to wait until a reauthorization 
or a reestablishment.
    I mean, if there was a way we could figure out how to let 
science directly inform a program that, candidly, I don't know 
that Congress wants to get into the details of the science on 
what the WIC formula of consistency is supposed to be----
    Senator Dodd. You don't want a 51-49 vote here.
    Dr. Thompson. But there are ways that we could actually 
streamline our knowledge of science into the WIC formula and 
into the WIC program so that there actually is a more real-time 
update as we learn more.
    Senator Dodd. Yes, that is a great suggestion.
    Yes, ma'am? Back here. It doesn't have to be questions 
either, if you have any observations you want to make.
    Ms. Cantor. I have a suggestion. My name is Rebecca Cantor. 
I am a doctoral student at the Johns Hopkins School of Public 
Health in international health and human nutrition, but I am 
also an intern here at the National Family Farm Coalition.
    My first suggestion is something that Mr. Dwyer brought up, 
and it is talking about the CDC Steps Program. This is a 
program by the CDC that encourages public and private 
partnerships to be made at the community level.
    Senator Dodd. This is the Centers for Disease Control?
    Ms. Cantor. Yes. But the appropriations for this particular 
Steps Program have been cut every year by millions of dollars 
since the Steps Program started. I would encourage you all at a 
Federal level to promote at least restoring the budget to the 
CDC Steps Program so that more CDC Steps communities may evolve 
over the course of time and encourage public and private 
partnership because that is the direction we really need to go 
here.
    My second comment is we are talking a lot about physical 
activity and beverages, but we need to think about our food 
system here and around the world. I would caution just 
decreasing corn subsidies because subsidies are actually what 
keeps the family farmer in business. But the problem is that 
the main foods that are subsidized are corn and soy. But these 
are the same foods in which our food system and what is made 
most affordable and popular in the United States are the most 
caloric and they taste good.
    But we need to think about how we can subsidize fruits and 
vegetables and incentives to corporations to make foods that 
are healthier the most affordable, but not the most caloric.
    Senator Dodd. Very good. Good suggestions.
    Yes? Back here.
    Ms. Brosnihan. Hi. Claire Brosnihan from the Girl Scouts of 
the USA. First of all, I want to thank the subcommittee for 
addressing this really important issue. While you are 
addressing it, we just strongly recommend that while we focus 
on the physical, we also should take a holistic view of health, 
meaning that we also address the emotional, the social health 
of our children.
    From our research, ``The New Normal? What Girls Say About 
Healthy Living,'' we are finding--the girls are telling us that 
we care about our physical health, but we also equally care 
about our emotional and our social well-being, our self-esteem, 
how we fit in the classroom. So when we are figuring out our 
policy solutions, we definitely need to take into consideration 
an all-encompassing viewpoint of health.
    Thank you.
    Senator Dodd. Very good. Good thoughts.
    Yes, right over here?
    Ms. Keyes. Hello, my name is Mia Keyes. And sir, Dr. 
Thompson, my question is for you today.
    Senator Dodd. Where are you from, Mia?
    Ms. Keyes. I am from Philadelphia, PA, originally.
    Senator Dodd. Are you in school, an intern here?
    Ms. Keyes. I have recently--I am an intern here, and I have 
recently graduated from Cheyney University of Pennsylvania.
    Senator Dodd. Very good. Welcome.
    Ms. Keyes. Thank you.
    Dr. Thompson, you mentioned, as the surgeon general of 
Arkansas, you are in a southern State, and obesity runs 
rampant, especially in southern States. And Arkansas, as a 
southern State, has a high population of minority citizens.
    While obesity is certainly an epidemic that affects and 
touches all, blacks, Latinos, and Asians are disproportionately 
affected by the obesity epidemic. As the surgeon general or 
just as a citizen of Arkansas, are you familiar with any 
initiatives that culturally intervene with families in order to 
just decrease their effects of obesity?
    Dr. Thompson. Excellent question and a point that, for the 
committee, I want to make sure that we highlight and 
accentuate. When we measured the BMIs in all of our school 
students, the African-American school students had a heavier 
risk profile than the Caucasian. The Hispanic, particularly 
Hispanic boys, one out of every two Hispanic boys in our school 
system were in one of the two heaviest weight categories of the 
Centers for Disease Control.
    It clearly differentially affects a risk exposure by 
minority status. It also is a differential risk exposure by 
economic, as we talked earlier about what families can afford 
to purchase or participate in.
    We have tried to address some of those by making sure that 
all of our information is in whatever--either Spanish language, 
if a family is a primarily Spanish-speaking household, and is 
culturally appropriate for some of our others. We have to do 
better, particularly if we are addressing the multiple 
generational characteristics. That is across all races, but 
disproportionately the minority races, where a lot of times it 
is, ``That is the way my mom was. That is the way my grandmom 
was. That is the way I am. Of course, that is the way that my 
daughter is going to be.''
    So trying to get people to realize it doesn't have to be 
that way and to go, as Jonathan was talking about earlier, 
upstream a little bit against some of the social norms that may 
reinforce the wrong direction.
    How do we find programs that work? How do we frequently 
find leaders from those communities to actually be able to 
deliver the message that, candidly, I, as the surgeon general 
from the center part of Arkansas, am not going to be able to 
deliver? Those are the people that we have to lift up and 
support and find as new ways to be able to wrap information, 
programmatic support, resources around to reach those target 
populations that have been disproportionately affected.
    Senator Dodd. Jonathan, did you have people in your family 
that were obese? Parents or grandparents?
    Mr. Miller. Yes. Yes, I do. My mother, my grandfather, and 
my grandmother. My grandmother also has type 2 diabetes, and my 
grandfather has hypertension. So, yes.
    Senator Dodd. So, a family history?
    Mr. Miller. Yes.
    Senator Dodd. Back here. I will go back and forth. Go 
ahead.
    Audience Member. Hi. I am Anne. I am from Iowa originally, 
and now I am in school at Harvard, and I work with youth in the 
Boston area. I am leading wellness promotion programs with 
others, where we focus not just on nutrition and physical 
fitness, but on mental health, as well, as was mentioned.
    But one of the difficulties we face is that while children 
are extremely enthusiastic about learning about healthy 
lifestyles, often there is a disconnect between the parents and 
the children. Sometimes the programs are even seen as an 
affront to their lifestyle or their culture.
    You mentioned wonderful things that you are doing in 
Arkansas and with the YMCA programs to educate families, and I 
was wondering if you had any ideas or suggestions that could be 
done at a Federal level to help end this disconnect and create 
the cultural shift you are talking about?
    Senator Dodd. Great questions.
    Dr. Thompson. These are excellent questions.
    Senator Dodd. I know. We sort of shut up up here and just 
let them go.
    Dr. Thompson. Yes, a lot of the culture and the family 
issues are local. A lot of the leadership we have to have is 
local. Some of the things that we have had are churches or 
local parent-teacher associations that look for ways to, in a 
safe way, teach new food preparation techniques or to change 
essentially what has been a long-standing habit of food 
preparation or lack of physical activity or both that lead to 
this imbalance.
    At the Federal level, it is going to take some support to 
make sure that the message is culturally appropriate and not 
accusatory.
    Senator Dodd. Yes.
    Dr. Thompson. There is a piece of individual responsibility 
here, but nobody wishes to be in this situation. It is an 
environmental risk that too many people are succumbing to. If 
we change the environmental risk, it makes it easier for 
individuals, families, and groups to look at a new cultural 
norm or a new cultural outcome and move toward that.
    Senator Dodd. I started to raise this earlier, because 
people say, ``If I am obese, to get healthy, I just can't go 
through--I can't do what Jonathan did. I just can't do it.'' 
But, that is an exaggeration.
    As I recall, on average, a loss of 6, 8 or 10 pounds can 
move someone from that set--correct me if I am wrong. Am I 
overstating the case or simplifying it too much?
    Dr. Thompson. You are not overstating. If I could peel it a 
little bit?
    Senator Dodd. Yes.
    Dr. Thompson. Your future health is about both what your 
weight status is and what your physical activity level is, 
because both convey and confer health benefits. A relatively 
small weight loss tied to daily physical activity can 
immeasurably improve your health.
    So, those two things. Again, it is align your incentives, 
and you will get your outcome.
    Senator Dodd. It is not that hard to achieve, you are 
saying, on average.
    Dr. Thompson. I don't want to minimize the effect, or the 
burden. It is not hard to achieve a health benefit. You have to 
start. You may not have 100-plus weight loss, as our co-witness 
here has. That is a great achievement. But people shouldn't 
take a 10-pound weight loss as a failure.
    Senator Dodd. Yes.
    Mr. Dwyer. Senator, you are on the right track. It does not 
take a lot of change to have a positive impact. You may not get 
to everything that you want, but a little bit of extra 
activity, a little less food does, over time, have a big 
impact.
    Senator Dodd. People now are stating, for instance, that 
even 15 minutes--it used to be we wanted a full half hour or an 
hour. But I have listened to nutritionists say even if you only 
get 15 minutes of exercise, better the 15 minutes than nothing. 
So----
    Dr. Thompson. There is a health benefit to that.
    Senator Dodd [continuing]. People say, ``Oh, I can't afford 
an hour. I can't get that. I guess I won't do anything.'' But 
if you can do a little bit, it can make a difference.
    Back here. Yes, ma'am?
    Senator Murkowski. Before we go to that question, I want to 
go back to the young woman's question, which was very 
articulate, because sitting here thinking we are the Federal 
Government basically telling you that you are a bad parent 
because your child's BMI is too high. This is--to find that 
balance that you keep talking about, culturally appropriate 
without being the government nanny telling you what it is that 
you can eat and drink and that essentially you are a bad parent 
because your child doesn't fit the norm.
    Dr. Thompson. I want to emphasize your point. We have 
actually declined to support other communities and other States 
in measuring their BMIs because they weren't doing the whole 
package. We threw 26 different things at this in our 
initiative, and BMI was only one.
    So it is wrapping all the support around parents and then 
providing them information. It is not pointing an accusatory 
finger and saying you failed as a parent.
    Senator Murkowski. That makes all the difference.
    Mr. Dwyer. Senator, if I could add, the YMCA has worked 
with the Eli Lilly company and has launched a Healthy Family 
Home Starter Kit as a way of positively working with parents 
and helping educate them on little things that they can do that 
would support their own child's goals toward a healthy 
lifestyle. You can approach parents from an educational point 
of view with tool kits that will be useful to them.
    Senator Dodd. Yes, this woman here had a question.
    Ms. Van Helden. Hi, my name is Bethany van Helden, and I 
appreciate the chance to speak from the audience. I am the 
dietician that facilitates the program that Jonathan Miller was 
in in his school-based health center.
    What has been raised seems like a lot of questions, and I 
feel as though school-based health centers really offer a lot 
of those answers. Not only do we provide that safe place where 
the students are, we are their place to go to during the school 
day. But we have mental health services. We have clinical 
services, preventive services where the student can go to have 
that all-around care.
    When we are talking about questions on what can be done, 
the people that are in school-based health centers are those 
champions. So they are already there. But, of course, more 
funding for those school-based health centers is something that 
you can do as far as legislatively.
    Senator Dodd. I appreciate that.
    Ms. Van Helden. That is as far as sitting here and 
listening to the questions and the answers, that is a big one 
that I want to make sure is--
    Senator Dodd. No, it is a good point. I meant to raise 
that, the idea that it was a school-based clinic where Jonathan 
could go. In the absence of that, I suspect, this might have 
been a short journey.
    Ms. Van Helden. Right. Which is full of champions.
    Senator Dodd. That is great. Good point.
    In fact, Senator Smith and I have introduced S. 600 to fund 
school-based health clinics. Gordon Smith of Oregon as well.
    Thank you very much. Now let me take one more. I will take 
one or two more. Are there any more? Over here, let me see, 
just students. Are you a student as well?
    Ms. Quinn. Yes.
    Senator Dodd. Yes?
    Ms. Quinn. I am Abigail Quinn. I was here last week.
    Senator Dodd. Wait until we get you a microphone here. Are 
you a repeat? You came here last week as well?
    Ms. Quinn. Yes. Yes, I am a repeat. Couldn't get enough. 
Back for more.
    I am in the education program at the University of 
Virginia. It is a master's program. We have talked a lot about 
schools today. Schools have a big role to play in this 
discussion. But the other thing that I have to say is I feel 
like it is more than that, though.
    I feel like substituting in the schools, having a mom who 
works in the schools, with all of the stuff with No Child Left 
Behind, schools are strained to try and implement all of that. 
While the graduation standards would be great, if it is just 
about the schools, there is going to be tremendous resentment.
    Senator Dodd. No, no.
    Ms. Quinn. It needs to be that and these other community 
programs, too.
    Senator Dodd. I agree with that totally. I have a sister 
who just retired from teaching, and she would give you chapter 
and verse on how her job changed over 40 years from when she 
started out to what it looked like at the end, where she was 
doing far more than she ever anticipated she would ever do as a 
teacher.
    Ms. Quinn. Yes, so I think that the schools need to be a 
part of it, but it has to be well-rounded.
    Senator Dodd. Take one more. Yes, sir? Back here.
    Mr. Young. Hi. My name is Nick Young. I am from Indiana 
University. I just had a quick comment about the body mass 
index. I have always kind of looked at it as not the--I have 
always been kind of off the charts, and I weigh 281 pounds. But 
I am also an athlete, so I consider myself in relatively good 
shape.
    Would it be possible to measure more in like a body fat, 
using different calipers or whatever? Would that be almost more 
accurate?
    Dr. Thompson. The comments and the visual here is clear, 
with no condescension intended. BMI is a screening tool. It is 
just like when you get your cholesterol screened at the mall. 
If it is abnormal, then you need to check and to say does it 
make sense that it is abnormal? Or is this just an outside 
variable?
    People that are extremely muscular--Governor Schwar-
zenegger has a BMI which is in the unhealthy range also. That 
is not because he has excessive body fat. It is a screening 
tool. Measurement of body fat through other mechanisms is more 
accurate, but also more difficult and more costly and more time 
consuming.
    The things that we do here as we screen is to make sure 
that--particularly for individuals that may fall outside the 
normal distribution on either height or weight--that we have a 
follow-up mechanism to make sure that it is an accurate 
assessment. We have tried to take some of those into account, 
but your point is well made. BMI by itself doesn't make the 
diagnosis.
    Senator Dodd. Well, listen, these are great questions. We 
could spend all afternoon. I can't begin to thank our 
witnesses.
    Susan, we thank you very, very much.
    Mr. Dwyer, thank you for coming down from Connecticut, very 
proud of you and what you are doing in Connecticut. So I thank 
you. At 39 years of service, that is a great, great 
accomplishment. There have got to be a lot of kids in 
Connecticut who are doing better today because you have been 
involved.
    Mr. Dwyer. Well, thank you.
    Senator Dodd. So we thank you for that.
    Jonathan, you are a star, I will tell you. You have been a 
great witness. You are extremely articulate, and your story is 
a compelling one, and I am sure it is going to be a source of 
some encouragement to someone out there who may be 
participating or watching this a little bit and decide they are 
going to follow the example of Jonathan Miller, and that will 
make a difference.
    We thank you. If you make a difference even in one person's 
life, that is not a bad accomplishment. Thank you for being 
here.
    Dr. Thompson, you have been terrific. You've been 
wonderful. Arkansas is very lucky to have you doing what you 
are doing. You are making a difference, and congratulations to 
you.
    We will have some more questions maybe. I am going to leave 
the record open for a few days if other members want to raise 
some issues that I haven't raised here for you to comment on. 
Then we are going to try and move forward. I don't know how 
much we are going to get done with only a few legislative days 
left in this session of Congress, but we are setting the table 
in a sense.
    If not in the next few weeks, then certainly come January, 
there will be a new day. We will have a new administration and 
new people coming into town. We will try to urge them, whether 
it is a McCain administration or Obama administration, to talk 
about how we can get moving on this issue, provide good support 
at the national level for what is happening at the local and 
State level as well.
    I thank everyone. The committee will stand adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                 Prepared Statement of Senator Mikulski

    Mr. Chairman, I have been a longtime supporter of 
prevention and nutrition programs and firmly believe we must 
look out for the day-to-day needs of our Nation's children.
    Today's children are over-fed and under-nourished. Only 2 
percent of American children eat a healthy diet and 1 in 4 
Americans eat fast food every day. In my own State of Maryland, 
13 percent of young children aged 2-5 years old are considered 
overweight and only about half of all children get some 
physical activity 3 days a week.
    Let me share with you the story of my constituent, Zachary 
Aaronson. Zachary weighed 306 pounds when he was 17 years old. 
After attending a special school in California for obese 
children, he now weighs 179 pounds 1 year later. However, this 
weight loss did not come cheaply for Zachary and his family--it 
cost them $6,000 a month. Not every child can be sent to such a 
costly school.
    How can we solve this epidemic? As a social worker, I know 
we need to meet the basic needs of our children. They need 
healthy food and safe spaces to play. Teenagers should not need 
heart bypass surgery or Lipitor to lower their high cholesterol 
levels. I am a long-time supporter of programs such as Head 
Start, and the School Lunch Program, that provide nutritious 
meals and fresh fruits and vegetable to children. We also need 
to promote physical activity inside and outside of schools and 
design communities where people want to be outside and active. 
This is how we save lives and communities.
    I am proud of Maryland and some of their creative 
initiatives. The Johns Hopkins University has a project to get 
healthy foods into stores in Baltimore and then works with 
these stores to promote the marketing of healthy foods. 
Especially in today's economy, people forego healthy, more 
expensive foods, for cheaper, fattening foods. We need to 
encourage people to eat an apple-a-day to replace the Big Mac 
every day!
    As the committee moves forward to tackle this crisis, I 
will continue to work with my bipartisan colleagues to ensure 
that we are a fit Nation and not a fat Nation. Improving 
nutrition and increasing physical activity will ultimately 
reduce health care costs while improving our Nation's health. 
We must make sure that our Nation, and especially our children, 
are not over-fed yet undernourished. I thank Chairman Dodd for 
his leadership on this issue.

                Prepared Statement of Senator Alexander

    We are at a time in our history where reports by 
distinguished journals of medicine such as the New England 
Journal of Medicine, the Institute of Medicine's ``Preventing 
Childhood Obesity: Health in the Balance,'' and health experts 
such as the Trust for America's Health say today's children are 
likely to be the first generation to live shorter, less healthy 
lives than their parents. This is a health care crisis. One of 
the biggest reasons for this is the growing childhood obesity 
problem, and the increasing rates of diseases normally 
associated with adults such as type 2 diabetes, heart disease, 
and other chronic illnesses.
    Just last week, The Tennessean reported that the Centers 
for Disease Control and Prevention (CDC) ranked Tennessee the 
third most obese State in 2007. Thirty percent of Tennesseans 
are obese. Even more sadly, Tennessee has the fourth most 
overweight children according to the Trust for America's 
Health. Twenty percent of Tennessee's children are overweight--
that's one of every five kids.
    This isn't just a problem for Tennessee alone--this is a 
national epidemic. Over the last 40 years, obesity rates 
quadrupled for children ages 6-11 years, and tripled for 
adolescents ages 12-19 years. While obesity is an increasing 
problem among children and youth across the country, Hispanic, 
African-American, and Native-American children and adolescents 
are disproportionately affected when compared to the general 
population.
    Another health problem resulting almost solely from the 
childhood obesity epidemic is that the incidence of type 2 
diabetes in childhood in the United States has increased over 
the past 20 years. This is a disturbing statistic, especially 
since diabetes is preventable and controllable through diet and 
exercise. Diabetes can cause heart disease, stroke, blindness, 
kidney failure, pregnancy complications, lower-extremity 
amputations, and deaths related to flu and pneumonia.
    In addition to the numerous adverse health effects 
associated with childhood obesity, some reports indicate that 
childhood obesity costs an estimated $14 billion annually in 
direct health expenses.
    Our response to preventing or addressing this childhood 
obesity epidemic as a country has been woefully inadequate.
    I am looking forward to exploring with my colleagues what 
role the Federal Government can play in reversing this 
epidemic, as well as learning about some of the innovative 
approaches that are being taken across the country by State and 
local governments, public-private partnerships, and industry. 
Any efforts to reverse this problem will require efforts across 
society, including all levels of government, public-private 
partnerships, all sectors of the economy, and by individuals 
and their families as well.

    Prepared Statement of Bethany van Helden, MS, RD, University of 
         Michigan, Regional Alliance for Healthy Schools (RAHS)
    Childhood obesity is the No. 1 health concern for kids in 2008 
according to a report released this July by the University of Michigan 
C.S. Mott Children's Hospital National Poll on Children's Health, 
topping smoking and drug abuse. Childhood obesity was ranked third in 
2007.
    School-based health centers are uniquely positioned to provide 
direct physical, mental and preventive health care where students spend 
most hours of the day.
    University of Michigan has 3 school-based health centers in Ann 
Arbor and Ypsilanti. These sites serve student populations composed 
predominantly of low-income families. A chart review in 2005 showed 
that about 35 percent of all our students were overweight and about 20 
percent were obese.
    The Nutrition and Physical Activity Program was developed in 2006 
for our school-based health centers and a Registered Dietitian was 
hired to facilitate individual counseling, walking clubs and fitness 
classes.
    The Nutrition and Physical Activity Program follows guidelines 
developed by the AMA, CDC and HRSA. It is a replicable model program to 
address child obesity.
    Weight loss is not a performance target for the program, behavior 
modification and lifestyle change is the goal of the program. Research-
based goals include: eat 5 servings of fruits/vegetables a day, drink 
no more than 1 sugary drink a day, exercise at least 60 minutes a day, 
and no more than 2 hours of ``screen time'' a day.
    During the 2007-2008 school year, 90 students participated in 
individual counseling with the dietitian, out of those students 50 
decreased their Body Mass Index (BMI) and 21 maintained their BMI, 
meaning a total of 78 percent of participants stopped gaining weight 
with intervention.
    During the 2007-2008 school year, 133 middle and high school 
students participated in a weekly walking club, an easily implemented 
program increasing access to physical activity.
    Also, during the 2007-2008 school year, the Nutrition and Physical 
Activity Program was recognized for innovative practice by the National 
Kidney Foundation of Michigan and the Michigan Association of Health 
Plans.
   Prepared Statement of the American Psychological Association (APA)
    On behalf of the 148,000 members and affiliates of the American 
Psychological Association (APA), we thank you for holding this 
important series of hearings to discuss childhood obesity.
    APA is the largest scientific and professional organization 
representing psychology in the United States and is the world's largest 
association of psychologists. Comprised of researchers, educators, 
clinicians, consultants, and graduate students, APA works to advance 
psychology as a science, a profession, and a means of promoting health, 
education and human welfare.
    In the last quarter century, the prevalence of obesity in children 
and adolescents has increased more than threefold (Ogden et al., 2006). 
Recent evidence suggests that prevalence rates remain high, affecting 
between 11 percent and 27 percent of children and adolescents depending 
on age and ethnicity (Ogden, Carroll, & Flegal, 2008). In addition, it 
is currently estimated that 30 percent of girls and 16 percent of boys 
in U.S. high schools suffer from disordered eating (Austin, Ziyadeh, 
Leliher, Zachary, & Forman, 2001). Obesity and disordered eating and 
their associated morbidities often co-occur over time and share both 
risk and protective factors. Therefore, APA supports joint prevention 
efforts to address the physical and mental health complications 
associated with these problems (Neumark-Sztainer et al., 2006; Neumark-
Sztainer, Wall, Haines, Story, & Eisenberg, 2007).
    It is of paramount importance to promote healthy lifestyle changes 
without inadvertently perpetuating weight stigmatization or promoting 
disordered eating. Therefore, APA recommends that emphasis be placed on 
behavior and health outcomes for children and families across the 
weight spectrum. Specifically, we support legislative initiatives aimed 
at improving nutrition and physical activity; increasing body 
satisfaction; decreasing weight stigmatization and weight-related 
teasing; promoting responsible marketing to children; and supporting 
healthy home environments.
    We strongly support efforts to educate families on the importance 
of family meals at home and support innovative initiatives to help 
families across all socioeconomic levels successfully implement family 
mealtimes. In addition, APA encourages efforts to increase the 
availability of healthy food options, including fresh fruits and 
vegetables and sources of calcium, in daycare settings, preschools and 
schools. Furthermore, we support initiatives that enable increased 
opportunities for physical activity through ensuring that schools offer 
the recommended daily levels of physical activity to students.
    In addition, we acknowledge that to promote active family 
lifestyles, all family members need access to opportunities to be 
physically active, to live in communities that provide safe spaces for 
physical activities, and to have access to a variety of affordable 
healthy foods (Sallis & Glanz, 2006). We believe that the consideration 
of issues related to socioeconomic status and culture is critical to 
the development of policies and initiatives addressing weight-related 
concerns. As prevention efforts will have the greatest impact in 
reducing the individual and societal consequences of childhood obesity, 
more research is also needed to develop and implement appropriate 
interventions to promote the adoption of healthy eating and activity 
early in childhood.
    In closing, the American Psychological Association would like to 
thank you for the opportunity to share our comments related to 
childhood obesity. We appreciate the subcommittee's ongoing commitment 
to children's health and look forward to serving as a resource and 
partner as you work on this and other important issues affecting 
children and their families.
                               References
Austin, B., Ziyadeh, N., Leliher, A., Zachary, A., & Forman, S. (2001). 
    Screening high school students for eating disorders: Reports of a 
    national initiative. Journal of Adolescent Health, 28(2), 96.
Neumark-Sztainer, D., Wall, M., Guo, J., Story, M., Haines, J., & 
    Eisenberg, M. (2006). Obesity, disordered eating, and eating 
    disorders in a longitudinal study of adolescents: How do dieters 
    fare 5 years later? Journal of the American Dietetic Association, 
    106(4), 559-568.
Neumark-Sztainer, D., Wall, M., Haines, J., Story, M., & Eisenberg, M. 
    (2007). Why does dieting predict weight gain in adolescence? 
    Findings from Project EAT II: A 5-year longitudinal study. Journal 
    of the American Dietetic Association, 107(3), 448-455.
Ogden, C.L., Carroll, M.D., Curtin, L.R., McDowell, M.A., Tabak, C.J., 
    & Flegal, K.M. (2006). Prevalence of overweight and obesity in the 
    United States, 1999-2004. Journal of the American Medical 
    Association, 295, 1549-1555.
Ogden, C.L., Carroll, M.D., & Flegal, K.M. (2008). High body mass index 
    for age among U.S. children and adolescents, 2003-2006. Journal of 
    the American Medical Association, 299(20), 2401-2405.
Sallis, J.F., & Glanz, K. (2006). The role of built environments in 
    physical activity, eating, and obesity in childhood. The Future of 
    Children: Childhood Obesity, 16, 89-108.
      Prepared Statement of The National Assembly on School-Based 
                          Health Care (NASBHC)
 school-based health centers and childhood obesity: an ideal location 
                       to address a complex issue
    One of today's most pressing public health problems is the rise in 
childhood overweight and obesity. School-based health centers (SBHCs)--
the convergence of public health, primary care, and mental health in 
schools--represent an important element in our public health arsenal 
for combating this challenging epidemic. When working side-by-side in a 
school setting, medical and mental health professionals have a unique 
window into the lives of their patients and unparallel opportunities 
for addressing obesity problems from a distinctly population-based 
approach.
    Childhood obesity is a public health epidemic and requires 
collaborations with all sectors of the community to make a difference 
in the lives of these youth. SBHCs work with the school and community 
to foster collaborative models for preventing obesity and encouraging 
healthy lifestyles, whether incorporating a nutrition education program 
into the school's curricula, promoting healthy food choices and 
exercise, developing partnerships with local fitness centers, or 
providing daily encouragement to the school community to eat healthy 
and stay fit.
    Schools are one of the most natural social settings for a child-
focused healthy intervention. By locating health services directly in a 
school, health visits become a normal part of school life, especially 
for students who feel stigmatized by their weight. Located in areas 
where families have limited income and health care access, SBHCs are 
uniquely positioned to care for many of the Nation's youth who are most 
at risk for obesity and its secondary effects.
    Medical management is a critical contribution of SBHCs: medical 
providers can screen and evaluate problems with proper laboratory 
testing and referrals to specialists when required. For students with 
medical complications related to obesity such as type 2 diabetes, SBHCs 
can work collaboratively with specialists and primary care providers to 
teach the student about self care and monitor the student's condition. 
The interdisciplinary SBHC team also ensures that the emotional risk 
factors for obesity and overweight--depression, stress, and low self-
esteem--are not overlooked. The team also works to change behavior 
through nutrition education, counseling, and encouragement of physical 
activity.
    SBHCs can organize groups of high-risk kids to help foster cohesion 
and peer and family support toward healthy lifestyle goals. Many SBHCs 
creatively integrate their services into after-school physical activity 
promotion programs that kids like, are fun, and have built-in 
incentives. By offering families support, encouragement, and materials, 
SBHCs enhance the efforts of the children to live healthy lifestyles, 
while involving parents and encouraging them to do the same.
    You have heard from Jonathan Miller, a former student at Stone High 
School, in Ann Arbor, MI. With the help of the Nutrition and Physical 
Activity Program offered at his SBHC, he was able to lose almost 140 
pounds. At Lincoln High, in Denver, CO, the SBHC providers launched an 
obesity management program that caused a paradigm shift in the lives of 
their student participants. Through the power of peer support, and with 
the expertise of a nutritionist, the students, who weighed an average 
of 300 pounds, started to think differently about the food they ate and 
began to enjoy the group exercise classes offered through the SBHC. And 
as mentioned previously, a prevention strategy is perhaps the most 
crucial component of shifting and abandoning preconceived negative 
attitudes about nutrition and exercise. The Montefiore Medical Center's 
School Health Program (MSHP), which operates SBHCs in Bronx, NY, has 
organized committees to review, develop, and promote changes in food 
policy in several Bronx elementary schools. One committee's successful 
campaign spread citywide as advocates worked to increase opportunities 
for safe exercise and nutritious foods in the communities around the 
SBHC.
    There is no specific Federal funding for SBHCs and it becomes 
increasingly difficult for SBHCs to sustain their comprehensive scope 
of services. Regardless of their perfect position to address childhood 
obesity from both a prevention and treatment perspective, SBHCs are 
only able to provide services for which they have the appropriate 
financial resources.
    More students can experience the same success--emotionally and 
physically, as Jonathan if they have the same access to a SBHC. If 
there is a SBHC in every school that wanted one, these kinds of 
prevention and treatment programs would become the norm and students 
would have a viable and accessible solution to their weight problems 
where they spend the majority of their time. Or better yet, students 
would understand the importance of healthy eating and exercise before 
they develop health problems. SBHCs allow their patients the 
opportunity to grow up healthy, strong, and achieving their educational 
potential and at present, they belong to too few of our Nation's youth. 
Obesity can be treated and prevented and SBHCs are an excellent 
approach to reaching our Nation's youth in a safe and accessible 
environment.
                                 ______
                                 
                                   Surgeon General,
                                         State of Arkansas,
                                                     July 26, 2008.
Hon. Christopher J. Dodd,
U.S. Senate,
404B Hart Senate Office Building,
Washington, DC.
    Senator Dodd: Thank you for the opportunity to testify before the 
HELP Subcommittee on Children and Families on July 23, 2008 for the 
hearing ``Childhood Obesity: The Declining Health of America's Next 
Generation--Part II.'' I applaud your leadership in raising awareness 
of this critical threat to the health of our Nation's children.
    As we discussed during the hearing, obesity has a tremendous 
negative impact both on the health of children and adults as well as 
the cost of delivering health care. The following data are provided in 
response to your request for more information regarding the fiscal 
burden obesity imposes on the health care system.
    The results of analyses conducted at the Arkansas Center for Health 
Improvement (ACHI) are troubling. In a study of Arkansas Medicaid, our 
team determined that children who were classified as overweight (the 
highest CDC-defined weight category) utilized program services at a 3 
percent higher rate and were 9 percent more costly to the program when 
compared with children who were classified as having a normal weight 
(Graphic 1).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In our study, the differences in cost of care between those 
enrollees classified as normal weight and overweight become more 
pronounced as children get older. As shown in Graphic 2, those 
enrollees aged 15-19 years who were also classified as overweight cost 
Medicaid 29 percent more than enrollees of the same age group who were 
classified as normal weight.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The difference between cost of care for normal weight and 
overweight adults is also striking. Analyses conducted by ACHI staff 
showed that obese adults aged 65 to 74 years had average annual costs 
104 percent greater than normal weight adults in the same age group. 
This represented an average annual difference in cost of $4,522 more 
per person among those who were obese in 2005 (Graphic 3).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The physical and fiscal negative impact of obesity on the present 
and future health and well-being of our Nation's people and health care 
system is staggering. Inaction cannot be an option.
    I look forward to working with you and your colleagues in creating 
a healthier America. Thank you.
            Sincerely,
                             Joseph W. Thompson, M.D., MPH,
                                          Arkansas Surgeon General;
                  Director, Arkansas Center for Health Improvement;
        Director, Robert Wood Johnson Foundation Center to Prevent 
                                                 Childhood Obesity.

    [Whereupon, at 4:39 p.m., the hearing was adjourned.]




</pre></body></html>
